<html>
<title> - LEGISLATIVE HEARING ON H.R. 4528, TO MAKE TECHNICAL AMENDMENTS TO CERTAIN MARINE FISH CONSERVATION STATUES, AND FOR OTHER PURPOSES; H.R. 5248, TO AMEND AND ENHANCE THE HIGH SEAS DRIFTNET FISHING MORATORIUM PROTECTION ACT TO IMPROVE THE CONSERVATION OF SHARKS, ``SUSTAINABLE SHARK FISHERIES AND TRADE ACT''; AND H.R. 1456, TO PROHIBIT THE SALE OF SHARK FINS, AND FOR OTHER PURPOSES, ``SHARK FIN SALES ELIMINATION ACT OF 2017''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    H.R. 4528, TO MAKE TECHNICAL AMENDMENTS TO CERTAIN MARINE FISH 
CONSERVATION STATUES, AND FOR OTHER PURPOSES; H.R. 5248, ``SUSTAINABLE 
  SHARK FISHERIES AND TRADE ACT''; AND H.R. 1456, ``SHARK FIN SALES 
                       ELIMINATION ACT OF 2017''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Tuesday, April 17, 2018

                               __________

                           Serial No. 115-43

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                             __________
	                                 
	                                 
	              U.S. GOVERNMENT PUBLISHING OFFICE                
29-838 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a> 
	             
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                
                                
                                ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                
                                ----------                      
                                
                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on Tuesday, April 17, 2018..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     4
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    81

Statement of Witnesses:
    Hueter, Robert E., Ph.D., Director, Center for Shark 
      Research, Mote Marine Laboratory, Sarasota, Florida........    36
        Prepared statement of....................................    37
        Supplemental testimony submitted for the record..........    41
        Questions submitted for the record.......................    43
    Kondon, Vance, Assistant Manager, Rainbow Reef Dive Center, 
      Key Largo, Florida.........................................    23
        Prepared statement of....................................    25
    Parsons, Dr. Glenn R., Professor of Biology and Director of 
      the Center for Biodiversity and Conservation Research, 
      Department of Biology, University of Mississippi, Oxford, 
      Mississippi................................................    27
        Prepared statement of....................................    29
        Questions submitted for the record.......................    32
    Polston, John, Owner, King's Seafood, Port Orange, Florida...    16
        Prepared statement of....................................    17
    Risenhoover, Alan, Director, Office of Sustainable Fisheries, 
      National Marine Fisheries Service, National Oceanic and 
      Atmospheric Administration, U.S. Department of Commerce, 
      Silver Spring, Maryland....................................     8
        Prepared statement of....................................    10
        Questions submitted for the record.......................    12
    Royce, Hon. Edward R., a Representative in Congress from the 
      State of California........................................     5
        Prepared statement of....................................     7
    Soto, Hon. Darren, a Representative in Congress from the 
      State of Florida...........................................    70
        Prepared statement of....................................    71
    Webster, Hon. Daniel, a Representative in Congress from the 
      State of Florida...........................................    64
        Prepared statement of....................................    70

Additional Materials Submitted for the Record:

    Submissions for the Record by Representative Lamborn

        ``A United States shark fin ban would undermine 
          sustainable shark fisheries,'' Marine Policy, by D.S. 
          Shiffman and R.E. Hueter...............................    73
        ``Bright spots of sustainable shark fishing,'' Current 
          Biology, by C.A. Simpfendorfer and N.K. Dulvy..........    76
        ``Florida wildlife officials won't support Federal shark 
          fin ban,'' POLITICO, by Bruce Ritchie..................    46
        Mote Marine Laboratory & Aquarium, Robert Hueter, 
          Director of the Center for Shark Research, April 21, 
          2017 Letter addressed to Rep. Daniel Webster opposing 
          H.R. 1456..............................................    47
        State of Louisiana, Jack Montoucet, Secretary, July 7, 
          2017 Letter addressed to Acy Cooper, President, 
          Louisiana Shrimp Association opposing H.R. 1456........    49
        ``The Shark Scientists Opposed to a U.S. Ban on the Shark 
          Fin Trade,'' NewsDeeply, by Sophie Yeo.................    50
        U.S. Commercial Shark Fishery, Letter for the record 
          opposing H.R. 1456.....................................    51

    Submissions for the Record by Representative Webster

        Scientist Group, April 17, 2018, Letter addressed to 
          Members of Congress supporting H.R. 5248...............    65
        SSFTA Partners Group, March 13, 2018 Letter addressed to 
          Members of Congress supporting H.R. 5248...............    67
        Wildlife Conservation Society, Testimony for the Record 
          in support of H.R. 5248................................    67

    List of documents submitted for the record retained in the 
      Committee's official files.................................    81
                                     


 
   LEGISLATIVE HEARING ON H.R. 4528, TO MAKE TECHNICAL AMENDMENTS TO 
CERTAIN MARINE FISH CONSERVATION STATUES, AND FOR OTHER PURPOSES; H.R. 
 5248, TO AMEND AND ENHANCE THE HIGH SEAS DRIFTNET FISHING MORATORIUM 
  PROTECTION ACT TO IMPROVE THE CONSERVATION OF SHARKS, ``SUSTAINABLE 
SHARK FISHERIES AND TRADE ACT''; AND H.R. 1456, TO PROHIBIT THE SALE OF 
 SHARK FINS, AND FOR OTHER PURPOSES, ``SHARK FIN SALES ELIMINATION ACT 
                               OF 2017''

                              ----------                              


                        Tuesday, April 17, 2018

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:02 p.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, McClintock, LaMalfa, 
Webster, Bishop (ex officio), Huffman, Beyer, Barragan, 
Bordallo, and Sablan.
    Also Present: Representative Soto.
    Mr. Bishop [presiding]. This Subcommittee will come to 
order. We appreciate your willingness to be here today. Mr. 
Lamborn is not here, there are only four of us here. I can 
talk. I will just talk quietly to you guys. Mr. Lamborn is 
being detained, is actually flying back here today, his plane 
is landing. I am usurping the authority of this Subcommittee 
for a particular reason, because the Vice Chairman is one of 
those who has a bill before us, so it will give him more 
flexibility in talking about that.
    Under Committee Rule 4(f), oral opening statements are 
limited to the Chairman, in this case me, and the Ranking 
Member, who showed up in time, as well as the Vice Chair, so 
therefore, I am asking unanimous consent that all of the 
Members' opening statements be made part of the hearing record 
if submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Also, I am going ask unanimous consent that the gentleman 
from Florida, Mr. Soto, when he arrives, and the gentleman from 
North Carolina, Mr. Jones, if he arrives, be allowed to sit 
with the Subcommittee and participate in the hearing. Let's add 
the same thing for Mr. Royce. If he wishes to stay, he can sit 
with us and participate in the hearing, as well. If there are 
any objections, if not, that will be so ordered.
    Let me give my opening statement here to all of you and 
then I will turn to Mr. Huffman if he has an opening statement 
he wants to make.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. We are dealing with three bills that I consider 
significant, all dealing with fish. And this is really cool 
because it is the first time we are going to have a hearing on 
fish and red snapper is not going to be part of it. In fact, we 
will add red snapper, we don't have a bill, but we will just do 
it so tradition maintains itself.
    The first two that we are going to consider take different 
approaches to address a really heinous practice of shark 
finning. Shark finning was made illegal in the United States by 
U.S. actors both in 2000, and once again in 2010. These two 
laws, I think, have had an effect, and they have done something 
that is very positive.
    Today, we are going to talk about the practice that is done 
by foreign nations. We have two different proposals that are in 
front of us. The first bill we are going to consider will be 
the Shark Fin Sales Elimination Act by Congressman Royce, who 
is here, that looks upon ways of expanding on our other bases 
with regulations to also attack bad foreign actors who are 
involved in this practice.
    The other proposal to be considered by us is the 
Sustainable Shark Fisheries and Trade Act, which is Congressman 
Webster's, which is why I am putting you in this position 
instead of right here so he can participate in the discussion 
easier, which starts a traceability program that is modeled 
after what we do with the shrimp import traceability program.
    So, I want to thank both my colleagues here, Mr. Royce, who 
is not part of this Committee, but I appreciate him being here. 
I appreciate the efforts Mr. Webster has put in the 
legislation, as well as Mr. Soto when he arrives, dealing with 
a correction to the Billfish Conservation Act. He will be going 
forward.
    I hope that we can use these hearings to discuss all of 
these efforts and that perhaps we can bring some kind of 
consensus to the way we move forward because this is truly a 
product that we need to deal with, a discussion we need to 
have, and elimination of foreign actors who are bad, that we 
need to find a good approach to it without making negative 
impacts on the fishing industry here in the United States.
    With that, I will submit a cleaner, nicer version of what I 
just said to the record and return to Mr. Huffman if he has an 
opening statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thanks Mr. Chairman. I agree, this is an 
important subject, and I am glad to see we are having the 
hearing on these bills today. Starting with H.R. 4528, 
Representative Soto's bill, this is a bill that will make 
technical amendments to the Billfish Conservation Act and the 
Shark Conservation Act. The background on this is that in 2012, 
Congress passed the Billfish Conservation Act to conserve 
depleted billfish populations by prohibiting foreign imports 
and sales of these fish into the United States, but there was 
an exemption for traditional fisheries and markets so that 
billfish caught in Hawaii and the Pacific Insular Areas could 
still be sold and consumed locally.
    This bill makes an important clarification that the Act 
never intended to allow billfish landed in Hawaii and Pacific 
Insular Areas to then be sent to other states. Unfortunately, 
the ambiguity in the original language has caused NOAA to delay 
implementation of this Act, so I think this is an important 
bill, and I intend to support it going forward.
    Then we come to the two shark conservation bills, a very 
important subject I think for this Subcommittee because 
stronger shark conservation measures are needed. The shark 
populations of the world are declining at an alarming rate. 
They face a higher extinction risk than most any other group of 
mammals, birds, reptiles, amphibians, or other fish because on 
average sharks are being caught and killed 30 percent faster 
than they can reproduce. This is largely due to the demand for 
their fins, which fuels the global shark fin trade, and I am 
proud that a few years ago when I was a California State 
Assembly member, I led the effort to pass that state's ban on 
the possession and trade of shark fins. It was a great example 
of bipartisanship.
    Party labels fell away, and Republicans and Democrats 
together looked at this practice as wasteful, as morally 
repugnant, and also realized together that unless we tackled 
the trade, not just the Act but the trade, we weren't going to 
be able to stop it.
    So, I am thankful that 11 other states and 3 territories 
have now done the same thing as we did in California, as well 
as corporate America, 40 airlines, 20 major international 
shipping companies, and other corporations have stepped up and 
refused to partake in the shark fin trade.
    The bill before us today from Chairman Royce, H.R. 1456, is 
a great example of continued leadership in this area, and I 
want to applaud him for his good bipartisan work on this. It 
would make it illegal to buy and sell shark fins in the United 
States, and as an original co-sponsor of the bill, I appreciate 
Mr. Royce and Mr. Sablan for bringing this forward. It is a 
strong, I mentioned, bipartisan bill with over 230 co-sponsors, 
including every Democrat on this Committee and many of the 
Republicans on this Committee. It is also widely supported by 
recreational fishing interests, aquariums, over 150 scientists, 
150 chefs, dive businesses, and the list goes on.
    Nevertheless, I do know that we will hear some testimony 
today opposed to the merits of this bill. I believe those 
arguments cannot at the end of the day ignore the facts. Sharks 
continue to be finned, and shark fins continue to be bought and 
sold in the United States. The Federal Government is still 
allowing fins to be imported and exported out of states that 
have passed bans. A recent report revealed that only 4 percent 
of the global shark catch is managed sustainably.
    So, we have a lot of work to do, and this bill is timely 
and important and makes environmental and economic sense as we 
will hear from some of our other witnesses. Sharks are 
important not just to the ecosystem but to tourism for numerous 
coastal communities. I look forward to supporting this bill, 
and again, commend the bipartisan authors.
    Finally, we will deal with Representative Webster's bill. I 
believe this bill is well intended. There are elements of it 
that I certainly would support, but I think it is important to 
note that there are key differences between the shrimp import 
legislation for sea turtle conservation and what this bill is 
proposing to do for shark fisheries. In the case of the shrimp 
import, it is a huge market. Our ability to leverage it is much 
greater, and the one reform that we could leverage, a turtle 
exclusion device, is very discrete. It is much more complicated 
with these marginally managed shark fisheries.
    So, I hope we can continue working together on that. Again, 
there are certainly good elements to the bill, but I do want to 
be clear that it should not be seen as a replacement or as a 
substitute for the more comprehensive approach to ending the 
shark fin trade, which we see in Mr. Royce's bill.
    With that, Mr. Chairman, I yield back.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman, for holding this hearing and thank you to 
the witnesses for being here today. Shark conservation and ending the 
global shark fin trade have long been top priorities of mine.
    Today, we will be discussing three bills before our Subcommittee.
    H.R. 4528, Representative Soto's bill, would make technical 
amendments to the Billfish Conservation Act and the Shark Conservation 
Act. In 2012, Congress passed the Billfish Conservation Act to conserve 
depleted billfish populations by prohibiting foreign imports and sales 
of billfish in the United States. The Act provided an exemption for 
traditional fisheries and markets so that billfish caught in Hawaii and 
the Pacific Insular Areas could still be sold and consumed locally.
    The Act never intended to allow the billfish landed in Hawaii and 
Pacific Insular Areas to then be sent to other states, but NOAA has 
delayed implementation of the Act because of its ambiguous language. 
Mr. Soto's bill would fix this problem. The Senate companion bill has 
already passed the Senate by unanimous consent. I hope the Committee 
will move this bill expeditiously.
    Next on the agenda are two shark conservation bills. It is 
especially important for our Subcommittee to address the need for 
stronger shark conservation measures because so many populations are 
declining at an alarming rate. Sharks are facing a higher extinction 
risk than most groups of mammals, birds, reptiles, amphibians, or other 
fish. On average, sharks are being caught and killed 30 percent faster 
than they can reproduce. This is largely due to the demand for their 
fins, which fuels the global shark fin trade.
    I am proud that while I was a California assemblyman, I led the 
effort to ban the buying and selling of shark fins in the state of 
California. Eleven other states and three territories have done the 
same. In addition, over 40 airlines, 20 major international shipping 
companies, and other corporations have all refused to partake in a 
trade that devastates shark populations and impacts ocean ecosystems 
around the world.
    H.R. 1456, The Shark Fin Sales Elimination Act, would build on the 
leadership of these states and companies to make it illegal to buy and 
sell shark fins in the United States. As an original co-sponsor of the 
bill, I appreciate that Chairman Royce and Mr. Sablan have taken on 
this important issue.
    The Shark Fin Sales Elimination Act is a strong, bipartisan piece 
of legislation with over 230 co-sponsors, including every Democrat and 
a number of Republicans on this Committee.
    It is also widely supported by recreational fishing interests, 
aquariums, over 150 scientists, 150 chefs, over 300 dive businesses, 
and over 130 non-profits. I know that we will hear arguments today 
against the merits of the bill despite this widespread support, but 
those arguments can't ignore the facts.
    Shark fins continue to be bought and sold in the United States, and 
the Federal Government is allowing fins to be imported and exported out 
of states with bans. A recent report revealed that only 4 percent of 
global shark catch is managed sustainably, yet it is unclear how many 
shark fins are even coming into our country. The bill also makes 
environmental and economic sense: sharks are important to the ecosystem 
and to tourism for numerous coastal communities. Addressing the global 
shark fin trade is vital to shark conservation and the United States 
should be a leader in tackling this issue.
    Finally, we will discuss Representative Webster's bill, H.R. 5248, 
which would develop a complicated certification scheme to require 
foreign countries to demonstrate that they have shark, ray, and skate 
fishery management regulations comparable to the United States in order 
to access our markets. Mr. Webster's bill is modeled after the Shrimp 
Import Legislation for Sea Turtle Conservation, which allows the United 
States to reject shrimp imports from countries that do not have sea 
turtle protection programs comparable to that of the United States.
    The bill is well-intentioned and looks good on paper, but there are 
some key differences between it and the sea turtle conservation 
program. The United States does not import nearly as many shark 
products as compared to shrimp, so our ability to influence other 
countries through access to our markets would be very limited. If the 
Committee decides to move forward with the bill, we will need to ensure 
that every shark fishery in the United States would meet the standards 
brought forward in the bill. This would require the United States to do 
much more to manage its own sharks and shark data, or otherwise risk a 
potential WTO challenge and add shark products to the growing list of 
trade fights under this Administration.
    Thank you to the witnesses and Chairman Royce for being here today, 
and I look forward to hearing from you.
    I yield back.

                                 ______
                                 

    Mr. Bishop. Thank you. All right. Let's begin our testimony 
today. We will first start with Mr. Royce. You will have 5 
minutes to introduce your bill, and once again, if you would 
like to stay with us for the rest of the testimony, you are 
welcome to do that.

  STATEMENT OF THE HON. EDWARD R. ROYCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Royce. Mr. Chairman, thank you very much and I thank 
Ranking Member Huffman, as well. I am grateful that we have 
this little dialogue here. Quite coincidentally, today at lunch 
I was with an old friend of mine, David Marinoff. He was 
telling me his wife June and he were on Galapagos Island, and 
they were on the beach. Washing up are these dead sharks who 
have been finned, and therefore, died, and you would ask 
yourself, well, there is an irony here, the Galapagos Island is 
sort of a case study of ecological balance, and here you have 
the beach filled with these dead sharks. How common can that 
be?
    Well, the facts are that 73 million sharks are finned that 
we know of every year and they end up in the global shark fin 
trade. This is putting multiple species of sharks at risk for 
extinction. Shark fins are considered a delicacy in parts of 
the world. They are sold for high prices the same way that 
ivory was sold for high prices a few years ago. They drive a 
trade that is not only inhumane due to the practice of shark 
finning, but increasingly detrimental to the oceans due to the 
size of this trade. Sharks play an integral role in the 
ecosystem of the planet, and if populations continue to decline 
at the current rate, because they are being killed faster than 
they can reproduce, our oceans as we know them, are going to be 
adversely affected.
    This bill, which has over 230 bipartisan co-sponsors, 
including the majority of this Committee and Subcommittee's 
members, would make it illegal to buy, sell, or possess shark 
fins in the United States. To be very clear, the bill does not 
prohibit shark fishing. The proposal builds on previous 
congressional action targeting the shark fin trade and it 
mirrors similar state-level bans, such as the one that our 
Ranking Member authored when he was in California legislature.

    Additionally, I have conferred on this with the 
Congressional Budget Office. They have told me that the bill 
will not cost the government. And while protecting wildlife 
from extinction is, from my perspective, the right thing to do, 
it makes an awful lot of sense economically. As apex predators, 
sharks ensure balance below them in the food chain. Their 
preying, or lack thereof, on species directly below them in the 
food chain has a compounding effect on the availability of fish 
that many people rely on as a food source and that the fishing 
industry depends on for income.

    For example, a decrease in the population of tiger sharks 
can lead to an increase in prey species such as monk seals, 
reef sharks, turtles, and so forth, which in turn can cause a 
decline in tuna populations.

    Shark survival also contributes to an ever-growing shark 
ecotourism trade, as I think many of you know. My state of 
California is home to 134 dive shops that focus on shark dives. 
Florida is home to 185, the most in the Nation, where direct 
expenditures for shark encounters brought in $221 million and 
fueled 3,700 jobs in 2016. That market dwarfs that of the 
domestic shark fin market, which in 2016 was worth $850,000 in 
exports. That is a difference of 250 to 1 in terms of the 
bottom line of what it generates.

    I am a firm believer in the principle that when the United 
States leads, other countries follow. I am going to give you a 
quick example--the ivory trade. We knocked out the ability to 
take down elephants for their tusks. The consequences when we 
put that bill into law, which would also put pressure 
internationally, the Chinese moved, just as the Europeans, to 
shut down their ivory trade market. They acquiesced to the 
pressure, and they shut that down at the end of 2017. When we 
lead, other countries do follow. And I am pleased to say that 
we are starting to see this now with the shark fin trade.

    Last year, in response to the pressure associated with this 
bill, Air China and China's Southern Air announced they would 
no longer allow shark fin cargo. With the strong support for 
this bill and today's hearing, we have laid the foundation to 
move the bill. I can only imagine what impact signing this bill 
into law would have, not just here in the United States, but 
importantly, around the world and to the health of our oceans. 
Thank you for your consideration. Mr. Chairman.

    [The prepared statement of Mr. Royce follows:]
  Prepared Statement of the Hon. Edward R. Royce, a Representative in 
                 Congress from the State of California
    Thank you, Chairman Lamborn and Ranking Member Huffman, for 
agreeing to hold this timely hearing on ocean conservation. I'm very 
grateful that my bill, the Shark Fin Sales Elimination Act, was 
included. I'd also like to thank the other witnesses today for taking 
time out of their schedules to come to Capitol Hill and speak on this 
important issue.
    Each year, the fins from as many as 73 million sharks end up in the 
global shark fin trade, putting multiple species of sharks at risk for 
extinction. Shark fins, as many of you know, are considered a delicacy 
in parts of the world. Sold for high prices, they drive a trade that is 
not only inhumane due to the practice of shark finning, but 
increasingly detrimental to our oceans due to its size. Sharks play an 
integral role in our oceans' ecosystems and if populations continue to 
decline at the current rate, our oceans, as we know them, will cease to 
exist.
    My bill, which has over 230 bipartisan co-sponsors, including a 
majority of this Committee and Subcommittee's members, would make it 
illegal to buy, sell, or possess shark fins in the United States. To be 
clear, the bill does not prohibit shark fishing. The proposal builds on 
previous congressional action targeting the shark fin trade and mirrors 
similar state-level bans. Additionally, I've conferred with the 
Congressional Budget Office, and they have told me that the bill will 
not cost the government.
    While protecting wildlife from extinction is, from my perspective, 
the right thing to do, it also makes sense economically. As apex 
predators, sharks ensure balance below them in the food chain. Their 
preying, or lack thereof, on species directly below them in the food 
chain has a compounding effect on the availability of fish that many 
people rely on as a food source and that the fishing industry depends 
on for income. For example, a decrease in the population of tiger 
sharks could lead to an increase in prey species, such as turtles, monk 
seals, and reef sharks, which in turn could cause a decline in tuna 
populations.
    Shark survival also contributes to the ever-growing shark eco-
tourism industry. My home state, California, is home to 134 dive shops. 
In Florida, which is home to 185 dive shops (the most in the nation), 
direct expenditures for shark encounters brought in $221 million and 
fueled over 3,700 jobs in 2016. This market dwarfs that of the domestic 
shark fin market, which, in 2016, was only worth $850,000 in exports.
    I'm a firm believer in the principle that when the United States 
leads, other countries follow. We've seen this with the ivory trade. 
After the United States took action to eliminate its own ivory trade, 
China acquiesced to pressure and shut down its ivory trade at the end 
of 2017.
    I'm pleased to say that we're starting to see this now with the 
shark fin trade. Last year, in response to pressure associated with 
this bill, both Air China and China Southern Air announced that they 
would no longer allow shark fin cargo. With the strong support for this 
bill and today's hearing, we have laid the foundation to move this 
bill. I can only imagine what impact signing the bill into law will 
have in the United States and around the world.

    Thank you for your consideration.

                                 ______
                                 

    Mr. Lamborn [presiding]. Thank you for being here. Thank 
you for your testimony, Chairman Royce. Your passion on this 
issue is very clear. You are welcome to join us for the 
remainder of the hearing, but if you need to meet other 
obligations you are free to be excused.
    I now want to call forward our second panel of witnesses. I 
will introduce the panel as they come forward and take their 
seats.
    Our first witness is Mr. Alan Risenhoover, Director of the 
Office of Sustainable Fisheries for NOAA Fisheries from Silver 
Spring, Maryland; our second witness is Mr. John Polston, owner 
of King's Seafood from Port Orange, Florida; our third witness 
is Mr. Vance Kondon, Assistant Manager and scuba diver trainer 
for Rainbow Reef Dive Center from Key Largo, Florida; our 
fourth witness is Dr. Glenn Parsons, Director of the University 
of Mississippi, Center for Biodiversity and Conservation 
Research from Oxford, Mississippi; and our final witness is Dr. 
Robert Hueter, Senior Scientist and Director for Shark Research 
at the Mote Marine Laboratory from Sarasota, Florida.
    Please have a seat, get situated, and make yourselves 
comfortable. Thank you all for taking the time to be here.
    Each witness' written testimony will appear in full in the 
hearing record, so I ask that witnesses keep their oral 
statements to 5 minutes as outlined in our invitation letter to 
you and under Committee Rule 4(a).
    I want to explain also how our timing lights work. When you 
are recognized, press the talk button to activate your 
microphone. Once you begin your testimony, the Clerk will start 
the timer and a green light will appear. After 4 minutes, a 
yellow light will appear, and at that time you should begin to 
conclude your statement. At 5 minutes, the red light will come 
on. You may complete your sentence, but I would ask that you 
stop at that point.
    We will now hear testimony from our panel on H.R. 1456. And 
again, if your testimony is broader than just this bill we will 
still hear the entire statement but we will ask you to remain 
for questions on other measures that we will have later in this 
hearing.
    Mr. Risenhoover, you are now recognized for 5 minutes.

STATEMENT OF ALAN RISENHOOVER, DIRECTOR, OFFICE OF SUSTAINABLE 
FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC 
 AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE, 
                    SILVER SPRING, MARYLAND

    Mr. Risenhoover. Good afternoon, Chairman Lamborn, Ranking 
Member Huffman, and members of the Subcommittee. I appreciate 
the opportunity to speak with you today about shark and 
billfish conservation and their contribution to the Nation's 
valuable commercial and recreational fisheries.
    My name is Alan Risenhoover. I am the Director of the 
Office of Sustainable Fisheries in NOAA Fisheries within the 
Department of Commerce. Today, I will briefly describe the 
Agency's work to conserve and manage sharks and billfish and 
offer some initial reactions to the bills being discussed 
today.
    Sharks are vital to the marine ecosystem, and due to their 
biology many shark species are at risk of overfishing. To 
protect these important species, the United States has some of 
the strongest shark conservation management measures in the 
world.
    Almost two decades ago, Congress prohibited shark finning 
in the United States, that is the practice of removing shark 
fins at sea and discarding the carcass. In 2008, NOAA 
implemented even more stringent regulations to require all 
Atlantic sharks be landed with fins naturally attached.
    In 2010, Congress extended this fins attached requirement 
to almost all sharks in the United States. Currently, only 4 of 
36 U.S. shark stocks or stock complexes are listed as subject 
to overfishing. Strict measures are currently in place to 
rebuild overfished stocks and prevent future overfishing.
    In the United States, both shark fins and shark meat are an 
important source of revenue. In the Atlantic, for example, 
about 26 percent of the landing's value came from the sale of 
fins. The United States is also a global leader in promoting 
the conservation of sharks. We work with numerous international 
bodies to promote a fins naturally attached policy and 
sustainable shark management globally.
    Overall, the United States is a relatively small player in 
the global shark trade. In 2015, only 24 metric tons of shark 
fins were imported into the United States. This compares with 
the global shark fin imports estimated at 13,000 metric tons. 
While we strongly support the intention of reducing the illegal 
trade of shark fins, we cannot support these bills in their 
current form.
    Regarding H.R. 1456, we believe the bill's negative impact 
on the U.S. fisherman would outweigh its benefit to shark 
conservation. Prohibiting the possession and sale of shark fins 
in effect hurts U.S. fishermen who harvest sharks under strict 
sustainable focused management.
    Regarding H.R. 5248, we strongly support its recognition of 
the sustainable shark management in the United States, however, 
the breadth of shark products covered by the legislation goes 
beyond the jurisdiction of NOAA fisheries. Implementation of 
such a program would entail significant costs and challenges.
    Finally, the rule of construction section in H.R. 4528 does 
not affect the statutorily created smooth dogfish exemption or 
provide the Secretary any additional authority under the 
Magnuson-Stevens Act.
    Similar to sharks, the United States carefully regulates 
its domestic billfish fisheries and participates in 
international fishery management bodies that regulate billfish. 
The commercial harvest of billfish in the Atlantic has been 
prohibited since 1988 to protect overfished stocks. In the 
Pacific and Western Pacific, with the exception of striped 
marlin, billfish populations are not overfished or subject to 
overfishing and are sustainably managed.
    In 2014, U.S. fisheries represented approximately 1 percent 
of billfish captured. The Billfish Conservation Act of 2012 
effectively ended the importation of billfish to the United 
States, stopping the importation of over 8 million pounds since 
enactment. It also provided two exemptions that cover a small 
amount of billfish trade sold mainly in Hawaii and the Pacific 
Insular Areas.
    We believe the amendment in H.R. 4528 limiting sale to only 
Hawaii and the Pacific Insular Areas would not advance 
conservation of billfish significantly and would block a small 
amount of sustainably harvested domestic product from entering 
commerce in the U.S. mainland.
    Thank you for the opportunity to discuss the conservation 
and management of sharks and billfish. I look forward to any 
questions and working with the Subcommittee in the future on 
these very important topics. Thank you.

    [The prepared statement of Mr. Risenhoover follows:]
   Prepared Statement of Alan Risenhoover, Director of the Office of 
  Sustainable Fisheries, National Marine Fisheries Service, National 
Oceanic and Atmospheric Administration, U.S. Department Of Commerce on 
                  H.R. 4528, H.R. 5248, and H.R. 1456
                              introduction
    Good afternoon, Chairman Lamborn, Ranking Member Huffman, and 
members of the Subcommittee. My name is Alan Risenhoover and I am the 
Director of the Office of Sustainable Fisheries within the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS) in the Department of Commerce. Shark and 
billfish species are important contributors to the Nation's valuable 
commercial and recreational fisheries as well as serving an important 
role in our ocean ecosystem. I appreciate the opportunity to speak with 
you today about the work by NMFS to conserve and manage sharks and 
billfish and to provide our perspective on the main bills being 
discussed.
                   shark conservation and management
    Almost two decades ago Congress prohibited shark finning--which is 
removing shark fins at sea and discarding the rest of the shark--when 
it amended the Magnuson-Stevens Fishery Conservation and Management Act 
by enacting the Shark Finning Prohibition Act of 2000. The law 
prohibits any person under U.S. jurisdiction from engaging in the 
finning of sharks, possessing shark fins aboard a fishing vessel 
without the corresponding carcass, and landing shark fins without the 
corresponding carcass.
    In 2008, NOAA implemented even more stringent regulations to 
require all Atlantic sharks to be landed with all fins naturally 
attached to facilitate species identification and reporting and improve 
the enforceability of existing shark management measures, including the 
finning ban. Today, Atlantic sharks are primarily managed through 
NOAA's Atlantic Highly Migratory Species program.
    The Shark Conservation Act of 2010 amended the High Seas Driftnet 
Fishing Moratorium Protection Act and the Magnuson-Stevens Act to 
further strengthen rules against shark finning. Among other things, the 
Shark Conservation Act extended the fins-attached requirement to all 
sharks in the United States, with an exception for commercial fishing 
of smooth dogfish sharks.
    Sharks are among the ocean's top predators and are vital to the 
natural balance of marine ecosystems. Due to their biological 
characteristics, many shark species are vulnerable to overfishing. To 
help protect these important marine species, the United States has some 
of the strongest shark conservation and management measures in the 
world. By conducting research, assessing stocks, working with U.S. 
fishermen, and implementing restrictions on shark harvests as called 
for in the Magnuson-Stevens Act, we have made significant progress 
toward ending overfishing and rebuilding overfished stocks for long-
term sustainability. As of the end of 2016, only 3 out of 36 U.S. shark 
stocks or stock complexes were listed as subject to overfishing and 
just 5 shark stocks were listed as overfished.\1\ Strict management 
measures are currently in place to rebuild overfished shark stocks and 
to end overfishing when it occurs. We expect continued progress in this 
regard.
---------------------------------------------------------------------------
    \1\ See Status of the Stocks 2016. NMFS Office of Sustainable 
Fisheries, available at: https://www.fisheries.noaa.gov/national/2016-
report-congress-status-us-fisheries.
---------------------------------------------------------------------------
    In partnership with regional fisheries management organizations and 
other international bodies, the United States continues to be a leader 
in promoting the global conservation and management of sharks. NMFS 
works internationally to promote our ``fins naturally attached'' policy 
overseas and provide technical support for other countries' shark 
conservation and management efforts. We collaborate with other 
countries on research aimed at achieving science-based management 
measures and conservation of sharks in our global ocean.
    Shark fisheries are valuable contributors to the U.S. economy. In 
2015, U.S. fisherman landed approximately 25 million pounds of sharks, 
valued at nearly $7 million.\2\ Fins remain an important source of 
revenue for our shark fisheries. In the Atlantic, commercial landings 
of the primary shark species, other than spiny dogfish, were worth 
approximately $2.5 million in 2016, of which approximately 26 percent 
came from the sale of fins.\3\
---------------------------------------------------------------------------
    \2\ See NOAA Annual Commercial Fisheries Landings Data base, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
    \3\ 2017 Stock Assessment and Fishery Evaluation (SAFE) Report for 
Atlantic Highly Migratory Species.
---------------------------------------------------------------------------
    The United States is a relatively small player in the global trade 
in sharks, but we work with other countries on the trade of shark 
species internationally. According to 2015 data from the Food and 
Agriculture Organization of the United Nations, global imports of shark 
fins were approximately 13,000 metric tons. Only a small portion of 
that volume was imported into the United States. In 2015, 24 metric 
tons of shark fins valued at $288,000 entered U.S. Customs districts 
from outside the United States. These shark fins were imported through 
the U.S. Customs and Border Protection districts of Houston-Galveston; 
Los Angeles; Miami; New York; Portland, Maine; and Seattle and all came 
from New Zealand or Hong Kong. Due to the complexity of the shark fin 
trade, fins are not necessarily harvested by or produced in the same 
country from which they are exported. In 2015, the United States 
exported 18 metric tons of shark fins valued at a little over $1 
million.\4\
---------------------------------------------------------------------------
    \4\ See 2016 Shark Finning Report to Congress, available at: 
https://repository.library.noaa.gov/view/noaa/17060.
---------------------------------------------------------------------------
                  billfish conservation and management
    The United States carefully regulates its domestic billfish 
fisheries and participates in international fishery management bodies 
that regulate billfish in both the Atlantic and Pacific. The United 
States has successfully implemented measures aimed at ending 
overfishing and rebuilding all overfished billfish stocks.
    In the Pacific and Western Pacific, with the exception of striped 
marlin, billfish populations are not overfished or subject to 
overfishing and are being sustainably managed under the Magnuson-
Stevens Act. The U.S. catch of billfish has been below established 
limits set by international bodies for Pacific striped marlin stocks.
    Commercial harvest of billfish in the Atlantic has been prohibited 
by regulation under the Magnuson-Stevens Act since 1988 due to 
conservation concerns. Under existing regulations, seafood dealers and 
processors are required to use the Billfish Certificate of Eligibility 
(COE) to document that billfish possessed or offered for sale were not 
harvested from the Atlantic Ocean. The certificate must document the 
harvest event and accompany the billfish to any dealer or processor who 
subsequently receives or possesses the billfish. The COE certifies that 
the accompanying billfish was not harvested from the Atlantic Ocean, 
and identifies the vessel landing the billfish, the vessel's homeport, 
the port of offloading, and the date of offloading. This COE, along 
with existing requirements for documentation of landings of domestic 
catch contained in Federal fishery management plans provides adequate 
documentation to distinguish billfish legitimately in U.S. commerce 
from those that are prohibited.
    Despite careful management of billfish in the United States, global 
billfish populations have declined significantly due to overfishing by 
non-U.S. fishing fleets. According to the Food and Agriculture 
Organization of the United Nations, U.S. fisheries represented 
approximately 1 percent of the estimated 124,000 metric tons of 
billfish captured globally in 2014. The decline in billfish populations 
are primarily from retention of billfish caught as bycatch in other 
fisheries.
    With the Billfish Conservation Act of 2012, Congress recognized the 
continued global conservation challenges that billfish populations 
continue to face. While it does not explicitly ban the import or export 
of billfish into or from the United States, it does prohibit selling 
billfish or billfish products as well as having custody, control or 
possession of billfish for purposes of selling them or offering them 
for sale. This effectively banned commercial trade in billfish, thereby 
eliminating demand for imports. The Billfish Conservation Act has 
stopped importation of well over 8 million pounds since its enactment. 
The Act provides for two exceptions that cover a small amount of 
billfish trade, sold mainly in Hawaii and the Pacific Insular Areas.
                     perspectives on pending bills
    With respect to the Billfish Conservation Act amendments (H.R. 
4528), we believe the legislation would not advance the conservation of 
billfish significantly, and would block a small amount of sustainably 
harvested domestic product from entering commerce on the U.S. mainland. 
Further, the bill's amendments to the Shark Conservation Act of 2010 
(SCA) are unnecessary for the conservation of sharks, including smooth 
dogfish. The rule of construction in section 2 of the bill provides 
that nothing in the SCA shall be construed to alter the Secretary of 
Commerce's authority to manage certain highly migratory species under 
the Magnuson-Stevens Act. It is our understanding that this rule of 
construction is intended to provide the Secretary authority to over-
ride the exception in the SCA that allows the finning of smooth dogfish 
under certain circumstances. As written, however, the rule of 
construction does not affect the statutorily-created smooth dogfish 
exception, nor does it provide the Secretary any additional authority 
that he does not currently retain under the Magnuson-Stevens Act.
    We cannot support the Shark Fin Sale Elimination Act (H.R. 1456) 
because the bill's negative impact on U.S. fishermen would outweigh its 
minimal benefit to shark conservation. The United States currently has 
effective laws and associated regulations that prevent shark finning 
and sustainably manages its fisheries. As written, this bill does not 
meet its intent to improve the conservation and management of 
domestically harvested sharks. It prohibits the possession and sale of 
shark fins. This would hurt U.S. fishermen who currently harvest and 
sell sharks and shark fins in a sustainable manner under strict Federal 
management. Furthermore, the bill does not significantly curb 
international trade in shark fins where the majority of trade in shark 
fins occurs.
    While we support the intent of reducing the illegal trade of shark 
fins in a manner that does not harm our domestic fishermen, we cannot 
support the Sustainable Shark Fisheries and Trade Act (H.R. 5248) in 
its current form. In particular, we do not support the proposed 
certification program. The breadth of shark products covered in the 
legislation (e.g. cosmetics, supplements, footwear, etc.) goes beyond 
the jurisdiction of NMFS and the agency could not trace source material 
for such highly-processed products. Implementing such a certification 
program, even one focused on specific shark species and shark products 
of concern, would entail significant costs. In addition, available data 
for shark fin imports indicates the U.S. imports a relatively small 
amount of shark fins compared to other countries. Therefore, the impact 
of the bill on global conservation and trade would be relatively small.
                               conclusion
    NOAA Fisheries appreciates the opportunity to discuss shark and 
billfish conservation and management and highlight the importance of 
these fisheries to our coastal economies. We look forward to working 
with Congress on these issues. I am available to answer any questions 
you may have.

                                 ______
                                 

     Questions Submitted for the Record by Rep. Sablan to Mr. Alan 
Risenhoover, National Oceanic and Atmospheric Administration, Director, 
                    Office of Sustainable Fisheries

    Question 1. In your testimony you said that NOAA opposes H.R. 1456 
because the bill would have a negative impact on commercial fisherman 
and their need to drive revenue from shark fins and that the 
restriction would not have a major impact since there is limited U.S. 
trade in shark fins. Can you explain and is NOAA's determination simply 
based on revenue numbers?

    Answer. Domestically, H.R. 1456 would require fishermen to destroy 
the fins of sustainably harvested sharks. The United States has some of 
the strongest fishery conservation and management laws and regulations 
in the world, including for sharks. Retaining a shark fin while 
discarding the shark carcass (shark finning) has been prohibited in the 
United States since the enactment in 2000 of the Shark Finning 
Prohibition Act. However, it is lawful under the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA) and the Shark Finning 
Prohibition Act for U.S. fishermen to use all parts of a sustainably 
harvested shark for commercial revenue. The fin is one of the most 
valuable parts of the shark and it comprises a substantial portion of 
shark revenue. For example, commercial landings of the primary shark 
species in the Atlantic, other than spiny dogfish, were worth 
approximately $2.5 million in 2016, of which approximately 26 percent 
came from shark fin sales. Prohibiting fishermen from using the fins of 
sustainably harvested sharks would unfairly penalize U.S. fishermen who 
already operate under some of the strongest conservation and management 
standards in the world. Furthermore, the impact of H.R. 1456 on other 
countries' shark fishing and finning practices would be limited because 
the United States is a small player in the global trade of shark fins.

    Question 2. Is it possible to tell if a shark fin came from a 
legally-landed, well-managed, sustainable, non-finned shark once it is 
in the market?

    Answer. It is possible to determine the legality and sustainability 
of a shark fin once it enters the market as long as there is a 
sufficient chain of custody for the shark product in trade from the 
point of harvest to the point of entry into commerce. NOAA's National 
Marine Fisheries Service (NMFS) administers several programs that 
collect information regarding the chain of custody for shark products, 
including the Seafood Import Monitoring Program (SIMP). NMFS can 
provide additional information regarding the programs upon request.

    Question 3. As you know, shark species are especially vulnerable to 
over-exploitation. Sharks are caught and killed, on average, 30 percent 
faster than they can reproduce. We know that stock assessments--the 
basis for any sustainably managed fishery--are critical in revealing 
how a shark species is doing. To effectively manage sharks, stock 
assessments would need to be administered regularly for individual 
species, correct? Do all of the shark species that can legally be 
fished in the United States have stock assessments?

    Answer. NMFS supports the management of over 40 shark species and 
stocks caught in U.S. state and Federal fisheries. Stock assessments 
are fundamental to sustainable fishery management, but they are 
resource intensive, and thus are prioritized for stocks with the 
greatest need.
    Stock assessments of shark species that are primarily caught in 
international waters are coordinated via international Regional Fishery 
Management Organizations (RFMOs), including the International 
Commission for the Conservation of Atlantic Tunas (ICCAT) and the 
Western and Central Pacific Fisheries Commission (WCPFC). The United 
States negotiates with other countries that participate in these RFMOs 
to determine which stocks are highest priority for stock assessments. 
Currently, ICCAT coordinates stock assessments for three shark stocks 
while the WCPFC oversees assessments for five shark stocks. These eight 
shark stocks have all been assessed within the last 10 years.
    NMFS conducts stock assessments for shark stocks caught primarily 
within the U.S. exclusive economic zone (EEZ) or within the EEZ and 
neighboring countries such as Canada and Mexico. NMFS does not have the 
capacity to assess all federally managed shark species annually, but 
strives to optimize its use of available resources, giving priority to 
shark stocks with the greatest fishing importance or conservation need. 
Of the 31 shark species that are legally fished and assessed 
domestically, 17 have been assessed in the last 10 years. A current 
description of completed and planned stock assessments for U.S. managed 
sharks and shark complexes is included as a table for reference (Table 
1).

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   Question 4. How many stock assessments did NOAA do for sharks 
in 2017? How many is NOAA planning to do in 2018?

    Answer. In FY2017, NMFS completed two stock assessments of shark 
stocks. In FY2018, NMFS has completed six stock assessments of shark 
stocks.

    Question 5. In 2016, the year with the most recent landings data, 
non-dogfish shark landings were valued at less than $2.5 million. 
According to the NOAA Commercial landings database, over half of the 
landings by value and volume were listed just as ``sharks'' and are not 
species specific. Why is that?

    Answer. A number of factors can prevent the identification of shark 
landings data at the species level. For example, different shark 
species may be co-mingled and sold together as a lot. Another factor is 
the need to preserve the confidentiality of business information. If 
fewer than three fishermen or dealers contribute to a number, we will 
roll up the landings data into a higher-level aggregation.

    Question 6. Bycatch is another huge threat facing sharks globally. 
Why is it that in the NOAA National Bycatch Report, the bycatch data 
for sharks is not consistent? For example, in some fisheries, sharks 
are counted by individuals and in others by pounds? Why are some 
counted at the species level and others are counted in groups? Don't 
these inconsistencies make it difficult to have a clear picture of the 
rate of shark bycatch in the United States?

    Answer. Thanks to its fishery dependent and independent data 
collection programs, the United States has robust data on shark 
bycatch. However, bycatch data in the U.S. National Bycatch Report can 
vary because the various fisheries-dependent monitoring programs around 
the country (including observer programs) can report data in different 
ways. Differences in data collection and reporting can be attributed to 
fishery logistics and other science and management priorities.
    For example, shark bycatch typically has been counted as 
individuals as opposed to pounds because sharks that are caught as 
bycatch are usually released in the water and not brought on the 
fishing vessel to minimize any harm to the animal. Despite these 
challenges, NMFS continues to work to improve its estimates of shark 
bycatch. For instance, Update 3 to the U.S. National Bycatch Report 
First Edition, which should be published online by the end of 2018, 
includes more consistent bycatch data for sharks due to the publication 
of a recent NOAA Technical Memorandum that provided individual-to-
weight conversion factors for sharks and other species captured in 
fisheries off the southeastern United States and in the Gulf of Mexico.
    NMFS notes that the National Bycatch Report is not a requirement 
under the MSA or other law. The National Bycatch Report and its Updates 
provide a compilation of bycatch information and national and regional 
overviews to document bycatch in fisheries over time. They are not, 
however, used for day-to-day management of fisheries.

    Question 7. According to NOAA's own commercial fisheries trade 
data, in 2017, over $500,000 worth of fins were imported into 
California--a state that has a ban. Similarly, over $450,000 worth of 
fins were exported out of Texas; over $6,000 exported out of 
California; over $14,000 out of New York; and over $40,000 out of 
Washington. All of these states have a ban. How is the shark fin trade 
avoiding state legal prohibitions?

    Answer. NMFS does not enforce state shark fin laws. We cannot speak 
to the states' efforts to enforce their laws. NOAA's Office of Law 
Enforcement does work with state law enforcement agencies and alerts 
them to state violation when they are discovered.

    Question 8. What is the status of the alleged shark finning case 
that took place in March, 2017 in which wildlife officers found dozens 
of dismembered shark fins aboard a Key West shrimp boat? Are there any 
other outstanding finning cases under review?

    Answer. In this incident, approximately 70 shark fins were detected 
onboard a commercial shrimp vessel without corresponding shark 
carcasses in violation of Federal shark finning regulations. The 
investigation has been completed and the case package was referred to 
the NOAA Office of General Counsel Enforcement Section for prosecution 
in May 2018 and is still open.
    In addition to the May 2017 incident, the NMFS' Office of Law 
Enforcement has a small number of other incidents of alleged shark 
finning or landing sharks without fins naturally attached under 
investigation or review.

    Question 9. How many fins does the United States import and export? 
Is the data reliable? Why are there discrepancies between what the U.S. 
reports and what the United Nation FAO reports? According to the U.N. 
FAO, more countries reporting shark exports to the United States than 
what NOAA reports? Please explain.

    Answer. In 2017, the United States imported 245,718 kilograms 
(245.7 metric tons) of shark fins worth $1,132,060 and exported 156,819 
kilograms (156.8 metric tons) worth $1,216,074. This number includes 
fresh, frozen, preserved, and canned products and is a finer level 
estimate than we have had in previous years. The data on foreign trade 
is from the U.S. Bureau of the Census. Thus, the United States has good 
estimates of sharks and shark products imported into the United States, 
but it is difficult to estimate the volume of products that transit 
through the United States and do not remain here.
    When we were first made aware of the discrepancy between the data 
of the United States and FAO, we investigated with FAO and found there 
was an error in a 2003 figure that the FAO has since corrected. Second, 
data contained in the FAO report are from trading partners for an ad 
hoc exercise and not from FAO official statistics. These two 
methodologies are not comparable. One methodology combines import data 
to derive export estimates. The other contains export data reported 
directly to the FAO database. The incompatibility of the trading 
partners' statistics, in terms of shark fin commodity categories and 
descriptions, could be a major factor behind these observed 
discrepancies. Given these data complexities, to assess the U.S.' 
relative contribution to the global shark fin trade, the United States 
compares U.S. reported import of shark fins with other countries' shark 
fin import numbers (rather than estimating exports based on imports).

    Question 10. Who enforces the anti-finning regulations and how many 
agent are engaging in shark fin enforcement? The Trump administration 
FY 2019 Budget Request proposed to reduce funding for law enforcement? 
How would NOAA adequately perform the fins naturally attached 
requirement with a substantially reduced resources?

    Answer. NMFS' Office of Law Enforcement (OLE) is the primary agency 
responsible for enforcement of regulations which prohibit shark 
finning. While none of our law enforcement personnel are exclusively 
dedicated to shark fin enforcement, we do prioritize enforcement of 
regulations related to protected species such as shark species listed 
under the Convention on International Trade in Endangered Species of 
Wild Fauna and Flora (CITES). In the past, OLE's efforts have been 
augmented by our state and territorial enforcement partners through our 
Cooperative Enforcement Program (CEP).
    The Administration's 2019 Budget prioritizes rebuilding the 
military and making critical investments in the Nation's security. It 
also identifies the savings and efficiencies needed to keep the Nation 
on a responsible fiscal path. To prioritize fiscal responsibility and 
efficiency, difficult decisions, including the reduction in CEP 
funding, needed to be made. NOAA will continue its dedication to 
Federal fisheries enforcement, including enforcement of laws related to 
shark finning, through use of OLE's Federal agents and officers to 
conduct investigations and patrols, technological tools such as Vessel 
Monitoring Systems, and outreach and education strategies designed to 
increase and enhance voluntary compliance laws and regulations.

                                 ______
                                 

    Mr. Lamborn. All right. Thank you for your testimony. Mr. 
Polston, you are now recognized for 5 minutes.

STATEMENT OF JOHN POLSTON, OWNER, KING'S SEAFOOD, PORT ORANGE, 
                            FLORIDA

    Mr. Polston. Chairman Lamborn, Ranking Member Huffman, and 
members of the Subcommittee, my name is John Polston, and I am 
the owner of King's Seafood and several shark fishing vessels 
in Port Orange, Florida.
    The Shark Trade Elimination Act, H.R. 1456, punishes me and 
other law abiding fishermen. It would put the final nail in the 
coffin of the domestic shark fishery. Decades of quota cuts 
have reduced this fishery to a fraction of what it once was. 
Now that shark populations are growing, I would say exploding, 
there is some hope that all this sacrifice might be rewarded. I 
cannot express how demoralizing it would be if Congress were to 
take away our needed shark fin income. We simply cannot afford 
to throw away money.
    Fishing vessels and dealers all have high fixed and 
overhead costs like insurance, fuel, mortgages, maintenance, 
labor, and so on. Operating margins in this industry are razor 
thin, and cuts in allowable shark landings have all but 
eliminated full time shark fishing. Today, most fishermen are 
like me, piecing together a living from different fisheries, 
sharks, shrimp, snapper, grouper, king mackerel, and others. 
All are tightly controlled by NMFS. It is like a house of 
cards. You take away one part of it, and the whole thing could 
come crashing down. And for many fishermen, the fins count for 
up to half the total landed value of their catch. Take that 
income source away, and it would cost money to go shark 
fishing.
    There are two important facts about our industry. One, is 
that it has been proven that we can have a sustainable shark 
fishery. There are plenty of sharks in the water to fulfill the 
ecosystem role and to support a booming shark tourism industry. 
The other is that American fishermen oppose shark finning and 
unsustainable fishing by other countries. We are hurt by these 
cruel and wasteful practices. Our well managed products must 
compete with those from unethical and unmanaged fisheries in 
the global market.
    Shark finning, not to mention shark overfishing, is just 
not a problem here. It has been illegal to land shark fins 
without the carcass since 1993. It must be landed with their 
fins attached, given that the Shark Fin Trade Elimination Act 
has no impact on the United States other than to make American 
fishermen and their communities poorer. It is really just 
designed to send a message to foreign nations when these things 
occur, but I believe it would make the problem worse because 
our sustainable shark products are off the global market, and 
they will be replaced by those from countries where finning and 
overfishing are occurring. I hope you see how wrong that is.
    We all agree that shark finning is cruel and wasteful. The 
only real question is how it is best to end it. In my view, the 
best approach is to attack it where it exists. King Seafood is 
a member of the Southeastern Fisheries Association East Coast 
Fishery Section and a contributor to the Southern Shark 
Alliance, the SSA. It was formed to oppose a Federal shark fin 
ban and to develop the effective alternatives to stop finning 
and overfishing.
    These groups work with Representatives Webster and Lieu, 
the Wildlife Conservation Society, other Members of Congress, 
and fishery groups. The result of these discussions is the 
Sustainable Shark Fisheries and Trade Act, H.R. 5248. This bill 
is modeled on successful laws that make the privilege of access 
to the U.S. market contingent on foreign fishermen meeting the 
same standards as we do to protect sea turtles and marine 
mammals.
    If nations want to export shark products to America, 
including skates and rays, they would have to show they have 
effectively ended finning and are actively managing their 
fisheries just as we do. As such, this bill makes positive 
contribution to shark conservation and recognizes and rewards 
the U.S. fishing industry for its conservation sacrifices.
    It is a fair and sensible approach. I cannot urge you 
strongly enough to support the SSFTA and oppose the fin ban. I 
would be happy to answer any questions you may have.

    [The prepared statement of Mr. Polston follows:]
Prepared Statement of John Polston, Owner, King's Seafood, Port Orange, 
                   Florida on H.R. 5248 and H.R. 1456
    My name is John Polston, owner of King's Seafood in Port Orange, 
Florida. King's Seafood, with which I have been associated since it was 
incorporated in 1988, is a buyer, retailer, and wholesale distributor 
of sharks and other fish products to domestic and foreign markets. I 
also have ownership interest in 10 fishing vessels, 5 of which actively 
participate in the domestic shark fishery. I am a participant in both 
the Sustainable Shark Alliance (``SSA'') and the Southeastern Fisheries 
Association, both of which support H.R. 5248 and strongly oppose H.R. 
1456. My testimony is based on my personal knowledge and deep 
involvement with this and other South Atlantic fisheries for over 33 
years.
    I am honored to come before the Water, Power and Oceans 
Subcommittee to testify in support of H.R. 5248, the Sustainable Shark 
Fisheries and Trade Act (``SSFTA''), and to personally thank 
Congressmen Webster and Lieu for introducing this proactive bill that 
levels the playing field for American fishermen. My testimony will also 
address the deep concerns I and others in the domestic shark fishery 
have with Chairman Royce's well-intentioned, but ultimately harmful, 
bill, H.R. 1456, the Shark Fin Sales Elimination Act.
    Both bills share a common goal--eliminating the cruel, wasteful, 
and unsustainable practice of shark finning. Only the SSFTA, however, 
creates an incentive for other nations to end shark finning and meet 
the same high standards for marine conservation to which the United 
States holds its fishermen. This bill recognizes the sacrifices our 
fishermen have made, and continue to make, to rebuild domestic shark 
populations by leveling the playing field with our foreign competitors. 
Under the SSFTA, access to U.S. markets by other nations is contingent 
on their adoption of strong anti-finning measures and actively 
conserving shark, skate, and ray stocks.
    By contrast, the Shark Fin Sales Elimination Act punishes me and 
others by denying us an important income source--revenue from the sale 
of the fins--merely to send a ``message.'' It has no direct impact on 
fisheries in other nations. In fact, this bill allows imports of other 
shark, skate, and ray products from unsustainable fisheries to 
continue. It rewards bad actors by taking sustainable U.S. shark fins 
out of the global market, creating a vacuum to be filled by those from 
unmanaged and unsustainable fisheries. From a more personal 
perspective, this bill punishes me and others in the shark fishery by 
taking away an important income source, undoubtedly pushing some small 
businesses into unprofitability. It is an insult to American fishermen 
who have been required to give so much for decades to create a 
sustainable fishery.
    In short, the SSFTA improves conservation of vulnerable populations 
of elasmobranchs on a global basis, while the Shark Fin Sales 
Elimination Act degrades these efforts and penalizes hard-working, 
rule-abiding Americans.
    I want to emphasize that the American fishing industry is deeply 
opposed to the practice of shark finning, or harvesting sharks solely 
for their fins and discarding the carcass at sea. It is a wasteful and 
potentially cruel practice. It has been outlawed by regulation on the 
Atlantic and Gulf coasts, where most shark fishing occurs, since 1993, 
and by law since 2000. In 2010, Congress acted to strengthen this 
prohibition by requiring that most sharks \1\ be landed with their fins 
naturally attached. The ease of enforcement of these regulations, along 
with the steep penalties for violating these laws, has led to near 
universal compliance, particularly by federally licensed shark 
fishermen.
---------------------------------------------------------------------------
    \1\ The sole exception is for smooth dogfish, a small and abundant 
shark harvested off the East Coast. This species is most valuable for 
the meat, the quality of which quickly degrades if the fish is not 
quickly and fully dressed.
---------------------------------------------------------------------------
    We also operate under what are likely the world's most 
precautionary and strict shark conservation rules. In aggregate, total 
allowable landings for sharks have been reduced by more than 80 percent 
since the fishery's peak in the late 1980s and early 1990s. Catches of 
many sharks, including the most commercially important stock, 
Sandbars,\2\ are prohibited. Annual catch limits are set on a very 
conservative basis, taking into account the life history of these 
animals. Frequently, fisheries for very abundant shark stocks close 
before annual catch limits are caught to facilitate rebuilding of less 
abundant species. Also, the National Marine Fisheries Service 
(``NMFS'') closes the fishery when only 80 percent of the catch limit 
is harvested.
---------------------------------------------------------------------------
    \2\ A small research fishery for sandbars is allowed in order to 
collect data for the stock assessment. Currently, an assessment for 
this species is underway.
---------------------------------------------------------------------------
    In terms of rebuilding shark populations, NMFS management has been 
undeniably successful. The last published results from the primary 
Federal shark survey found the most sharks in its 29-year history.\3\ 
The most recent survey was recently concluded and we are optimistic 
that these trends will continue. Independent research by the Virginia 
Institute of Marine Science also confirms the sharply increasing trends 
for nearly every category and type of shark.\4\ Our industry accounts 
for $20 million export, with Louisiana and Florida leading the way in 
terms of landings and permitted fishermen.
---------------------------------------------------------------------------
    \3\ NMFS, ``2015 Coastal Shark Survey Reveals Shark Populations 
Improving off U.S. East Coast,'' https://www.nefsc.noaa.gov/
press_release/pr2015/scispot/ss1509/.
    \4\ VIMS, ``Study finds preliminary recovery of coastal sharks in 
southeast U.S.'' http://www.vims.edu/ newsandevents/topstories/2017/
shark_recovery.php.
---------------------------------------------------------------------------
    As a Floridian, I can also say that the ``shark tourism'' industry 
has been thriving alongside our shark fishery. The growth in this 
relatively new--and dangerous--tourism sector has not been impacted by 
our fishery. Sustainable management ensures there are ample numbers of 
sharks in our waters to both be experienced by those who wish to view 
them in their natural habitat and to serve their role in the marine 
ecosystem.
    At the same time, growing shark populations increase the chances 
for interactions between sharks and those who come to Florida and other 
coastal states to spend time at the beach. Florida, in general, and 
Volusia County, in particular, is the world's leading site for 
unprovoked shark attacks. Those will certainly increase growing shark 
and human populations interact. Even the perception of increasing 
numbers of shark attacks can have a negative impact on coastal tourism.
    There also has been an increase in interactions between sharks and 
recreational and commercial fisheries. ``Bite-offs,'' where sharks take 
part or all of a fish off a line, are being increasingly reported. My 
vessels and other in commercial hood-and-line fisheries frequently 
cannot get bait past large schools of sharks and there have even been 
reports of sharks attacking shrimp nets. A well-controlled fishery 
plays a role in keeping these predators in check and maintaining some 
balance in a system where many stocks upon which sharks prey are also 
subject to recreational and commercial fishing.
                           the bills at issue
    As to the bills that are the subject of this hearing, I am joined 
in supporting H.R. 5248 by a host of commercial fishing groups. In 
addition to those mentioned, this legislation is also endorsed by the 
Garden State Seafood Association, North Carolina Fisheries Association, 
Louisiana Shrimp Association, Blue Waters Fishermen's Association, and 
scores of fishermen and fish houses that rely on the shark fishery, in 
whole or part, for their livelihoods. I am attaching a letter 
identifying these supporters.
    The SSA, Garden State, and Southeastern Fisheries are proud to have 
worked with the Wildlife Conservation Society, their partners in the 
environmental and zoological communities, and Congressmen Webster and 
Lieu to craft a bill that makes an important contribution to the global 
conservation of sharks. The SSFTA is modeled on other successful 
legislation designed to protect sea turtles in foreign shrimp fisheries 
and to ensure foreign fishermen meet the same standards for marine 
mammal protection that U.S. fishermen must observe.
    In order to minimize the administrative burden on NMFS, the SSFTA 
requires nations seeking to export shark products to the United States 
to demonstrate that they have enforceable shark finning prohibitions 
and science-based shark conservation measures similar to those under 
which we work. It expands the definition of ``shark'' to include 
likewise vulnerable stocks of other elasmobranchs, specifically skates 
and rays. While those animals can be processed at sea, just as here in 
the United States, nations would have to show that these stocks are 
managed sustainably. Finally, the SSFTA adds skates and rays to NMFS 
Seafood Important Monitoring Program to ensure traceability of supply. 
(Sharks are already included.)
    H.R. 5248's purpose is to ensure that the U.S. market is not 
contributing to either shark finning or unsustainable fishing 
practices. While the United States is not a major market for shark 
products, the SSFTA assures American consumers that any imported shark, 
skate, and ray products they consume are sustainably sourced and 
cruelty-free.
    As to Shark Fin Trade Elimination Act, the fact that the United 
States is a small market means that its impact on other nations will be 
minimal, if it has any effect at all. For one, we import only a small 
amount of fins, some of which are re-imports of processed domestic 
fins. Other instances of trade bans having some positive effect on 
foreign behavior, such as with ivory, succeeded because the United 
States was a fairly substantial market participant. Moreover, under 
this bill, nations with uncontrolled fisheries can still export shark 
meat and other shark products to the United States. Finally, the small 
amount of fins now imported to the United States will simply be 
diverted to other nations, filling the void left by removing 
sustainably caught American fins from international trade. This is why 
a fin ban is likely to have a net negative effect on shark 
conservation.
    Furthermore, requiring waste of shark fins runs counter to the 
positive trend of fully utilizing food and natural resources. 
``Reverse'' shark finning--keeping the carcass and discarding the 
fins--shares with shark finning the sin of wasting a valuable and 
important food source. I believe Congress should encourage full 
utilization of the limited, scientifically-determined catch levels of 
all marine resources. Our nation is richer if we maximize the value of 
each fish we catch. Unfortunately, H.R. 1456 has the opposite effect, 
draining economic resources from our struggling coastal communities.
    Speaking personally, I can assure you that under current fisheries 
management, every dollar counts. Both harvesters and the fish houses 
that buy their catch operate under the thinnest of margins and face 
high fixed costs for things such as fuel, insurance, mortgages, and 
labor. Particularly here in Florida, we piece together a living by 
engaging in a variety of fisheries--shrimp, snapper-grouper, sharks and 
other highly migratory species, and others. NMFS determines the catch 
levels, seasons, and other conditions we operate under. Few people can 
make a living focusing on just one fishery. Losing access to even one 
fishery or, in this case, a significant revenue source, can tip a small 
business from profitability into bankruptcy.
    I cannot express how disheartening it would be to me and others in 
the commercial fishing industry if Congress were to penalize us by 
banning fin sales just to send a message to the world. Our whole 
fisheries management system is premised on the idea that sacrifices 
deemed necessary to conserve a fish stock today will be rewarded by 
increased opportunities to fish in the future. That promise already 
seems hollow, as we have seen exploding populations of things such as 
sharks and red snapper, but very slow growth in fishing opportunities. 
Shark fishermen have sacrificed more than most. Please do not punish 
that sacrifice by taking away an important source of our income.
    Thank you very much for your time and attention to my testimony. I 
am happy to answer any questions members of this Subcommittee may have.

                                 *****

                               ATTACHMENT

  U.S. Shark Fishermen and Dealers Support H.R. 5248, the Sustainable 
                 Shark Fisheries and Trade Act of 2018

    As commercial shark fishermen and fish houses participating in 
sustainable U.S. shark fisheries we are very pleased that 
Representatives Daniel Webster (R-FL) and Ted Lieu (D-CA) have 
introduced H.R. 5248, the Sustainable Shark Fisheries and Trade Act of 
2018.

    We believe H.R. 5248 or ``SSFTA'' is a meaningful and effective 
alternative to harmful legislation proposed by CA Representative Ed 
Royce and NJ Senator Cory Booker titled the ``Shark Fin Trade 
Elimination Act'' (H.R. 1456/S. 793). Our livelihoods are directly 
threatened by H.R. 1456/S. 793 which requires us to waste part of a 
natural resource by throwing away fins from our sustainably harvested 
sharks without benefiting global shark conservation. The Booker/Royce 
bills unfairly punish highly regulated American fishermen by taking 
away the income we can receive from fully utilizing our limited shark 
harvest.
    By contrast, Reps. Webster's and Lieu's bill holds other nations to 
the same conservation and management standards we have adopted in our 
U.S. fisheries. Under H.R. 5248, any nation seeking to export shark 
products to the American market must receive certification from the 
Secretary of Commerce that it has an effective ban on the practice of 
``shark finning,'' and that it has a similar conservation and 
management program for sharks, skates, and rays. The bill also 
increases traceability of imported shark products.
    While Booker/Royce rewards bad actors in other nations by taking 
sustainably sourced U.S. shark fins out of the global market, Webster/
Lieu create incentives for exporting nations to end cruel fishing 
practices and establish meaningful shark conservation measures, 
including programs to manage populations of skates and rays.
    We oppose the practice of shark finning and have long supported the 
laws passed by Congress to ensure the practice does not occur in U.S. 
shark fisheries. Shark finning--retaining shark fins while discarding 
the rest of the carcass at sea--is both cruel and wasteful. Our 
industry has been harmed by illegal shark fins that compete unfairly 
with our legal, sustainably harvested product. The Sustainable Shark 
Fisheries and Trade Act (H.R. 5248) builds on and strengthens these 
past efforts.
    We also support efforts to maintain a well-managed and sustainable 
shark fishery in the U.S. and globally. Successful U.S. management has 
resulted in a tremendous growth in domestic shark populations. The last 
published federal fishery survey (NOAA) found an astonishing 65 percent 
more sharks than the one prior. The index of shark abundance in 2015 
was the highest in its 29-year history. As a result of all this, the 
National Marine Fisheries Service just increased the retention limit on 
large coastal sharks.
    This resurgence of sharks was achieved in part on our sacrifices 
over the past twenty-plus years, with the industry weathering past 
quota reductions of nearly 85 percent to build today's healthy fishery. 
The Booker/Royce approach would undermine these years of work by 
American fishermen should it ever become law. That is part of the 
reason groups like the Sustainable Shark Alliance, Garden State Seafood 
Association, North Carolina Fisheries Association, Southeastern 
Fisheries Association, Blue Water Fishermen's Association, and 
Louisiana Shrimpers Association--represent more than shark fishermen--
also oppose the fin ban and proudly support Representatives Webster's 
and Lieu's proactive bill.
    We are very pleased to join these organizations in supporting 
Congressmen Webster's and Lieu's bill H.R. 5248 and urge others in 
Congress to join them in this proactive and conservation-minded 
measure. Attached is a fact sheet regarding the domestic shark fishery. 
You may contact our representative, Mr. Shaun Gehan, at (202) 412-2508 
for more information.

            Sincerely,

        Safe Harbour Seafood,         Bryant Products,
        Bon Secour, AL                Bayou La Batre, AL

        Madeira Beach Seafood,        Save On Seafood,
        Madeira Beach, FL             St. Petersburg, FL

        Seafood Atlantic,             Greg Abrams Seafood,
        Port Canaveral, FL            Panama City, FL

        AP Bell Seafood,              Fishermen's Ice & Bait,
        Madeira Beach, FL             Madeira Beach, FL

        Kings Seafood,                Wild Ocean Market Seafood,
        Port Orange, FL               Titusville, FL

        Omni Shrimp Company,          Day Boat Seafood,
        Madeira Beach, FL             Lake Park, FL

        Phoenix Fisheries,            DSF, Inc.,
        Southport, FL                 Daytona Bch., FL

        Hull's Seafood Markets, 
        Inc.,                         Phillips Seafood,
        Ormond Beach, FL              Townsend, GA

        Ocean Fresh Seafood,          Venice Fish and Shrimp,
        New Orleans, LA               Venice, LA

        Southern Seafood Connect'n,   Marder Trawling Inc,
        Crisfield, MD                 New Bedford, MA

        Seatrade International,       Crystal Coast Fisheries,
        Topsfield, MA                 Morehead City, NC

        Avon Seafood,                 Wanchese Fisheries,
        Avon, NC                      Wanchese, NC

        O'Neal's Sea Harvest,         B & J Seafood,
        Wanchese, NC                  New Bern, NC

        Willie R. Etheridge 
        Seafood,                      Jeffery's Seafood,
        Wanchese, NC                  Hatteras, NC

        Crystal Coast Dayboat 
        Seafood,                      Lund's Fisheries,
        Morehead Cy, NC               Cape May, NJ

        Viking Village Seafood,       Agger Fish Corp,
        Barnegat Light, NJ            Brooklyn, NY

        Carolina Seafood,
        Rutledge Leeland, SC


 
 
 
F/V Angelina             F/V Blake                F/V Blue Water
F/V Chase                F/V Coupe de Grille      F/V Fishhawk
F/V Honey Bee            F/V Juma                 F/V Michelle Marie
F/V Miss Brianna         F/V Miss Maggie          F/V Miss Rita
F/V Rachaelle Nicole     F/V Right Stuff          F/V Sword Fish
F/V Taurus               F/V Tobo                 F/V Boss Lady
F/V Miss Alexis          F/V Miss Jessica         F/V J. O'Neal
F/V Reel of Fortune      F/V B.C.                 F/V Bobalou
F/V Butter               F/V Sharon G             F/V Watersport
F/V Little Clam          F/V Windy Gale           F/V Logan's Luck
F/V M B                  F/V Miss Megan           F/V Shannon D
F/V Sundog               F/V Bout Time            F/V Raven
F/V Sarah Brent          F/V Miss Kaleigh         F/V Miss Madeline
F/V Salvation            F/V Wahoo                F/V Miss Stevie
F/V Shannon Dun          F/V Miss Everett         F/V Blue Fin
F/V Body Count           F/V Little Jo            F/V Gail Mist II
F/V Haley Rose           F/V Black Jack           F/V No Limit
F/V Toucan               F/V Jodie Lynn III       F/V Lady Martiza
F/V Out of Hand          F/V Islander             F/V Top Tuna
F/V Fish Hound           F/V Captain Lynn         F/V Miss Shell
F/V Lisa Ann             F/V Daytona              F/V Miss Haley II
F/V Right on Time        F/V Crosswinds IV        F/V Miss Brenda Louise
F/V Leo B.               F/V Endeavor             F/V Jean Marie
F/V Miss Ann             F/V Capt. Gorman III     F/V Denise Ann
F/V Hull's Sea Lover     F/V 2nd Wind             F/V Pancake
F/V Elizabeth            F/V Emily's Weigh        F/V Albi
F/V Big Eye              F/V Chances R III        F/V Christopher Joe
F/V Day Boat III         F/V Day Boat One         F/V Day Boat Too
F/V Die Trying           F/V Dusty Boy            F/V Erica Lynn
F/V High Voltage         F/V Janice Ann           F/V JC 31
F/V Joshua Nicole        F/V Kelly Ann            F/V Knotty Girl
F/V Lady Linda           F/V Miss Jane            F/V Miss Sierra
F/V My Girl              F/V Osprey               F/V Parker
F/V Provider             F/V Right On Time        F/V Sea Hawk
F/V Shooting Star        F/V Standin' Up          F/V Stella Maris
F/V Straight Flush       F/V Susie Two            F/V Swordfin
F/V T&Sea                F/V Theresa C            F/V Two Can
F/V Two Sons             F/V Vicki Ann            F/V Virgin Hooker
F/V Vitamin Sea          F/V White Water          F/V Whitewater II
F/V Yellowfin            F/V Dana Christine II    F/V Eagle Eye
F/V Eyelander            F/V Eagle Eye 2          Tar Baby
F/V Denise Ann
 


ATTACHMENT

         FACTS REGARDING THE DOMESTIC COMMERCIAL SHARK FISHERY

       AND OUR CONCERNS WITH THE SHARK FIN TRADE ELIMINATION ACT

                           (H.R. 1456/S. 793)

    <bullet> The U.S. is a global leader in shark conservation and 
            management. It is a chief opponent of the wasteful practice 
            of ``shark finning''--discarding shark meat and landing 
            only the fins. Finning has been federally prohibited since 
            1993, while the shark population has been growing since 
            2000. In 2015, the National Marine Fisheries Service's 
            shark survey found the most sharks in its 29-year history, 
            65% more than the prior survey.

    <bullet> The industry opposes finning, but the Shark Fin Trade 
            Elimination Act also hurts fishermen that are harvesting 
            sharks the right way. Fins account for 50% of a shark's 
            landed value. Without income from these, revenue from 
            sharks would not cover fuel costs and our fishery will 
            cease. This Act will destroy a successful fishery and harm 
            small fishing communities.

    <bullet> The government should not deny American people access to 
            this product or deny fishing communities important income 
            from a sustainable fishery.

    <bullet> Virtually all fins are exported, overwhelmingly to China. 
            This trade plays a small, but important role in improving 
            our balance of trade.

    <bullet> The bills provide no conservation benefit and will likely 
            harm international shark conservation. Destroying fins is 
            as wasteful as discarding shark meat. The small portion of 
            fins taken off the international market will be replaced, 
            likely by fins from unsustainable and unregulated 
            fisheries.

    <bullet> Demand for shark fins, culturally important in Asia, will 
            not abate soon. The U.S. can help foster responsible shark 
            fishing practices globally through participation in 
            international forums. Our authority will be weakened if the 
            U.S. abandons its own model shark fishery and instead 
            promotes the extreme, wasteful, and uneconomic policy of 
            fin destruction.

    <bullet> These bills reward bad actors and harm those who play by 
            the rules. Congress should urge NMFS to finalize its list 
            of shark finning nations under the High Seas Driftnet 
            Fishing Moratorium Act and impose an import moratorium on 
            those that fail to stop the practice. Congress should also 
            support America's law-abiding shark fishermen and their 
            communities by ensuring that they can obtain the full value 
            of their highly limited catch no matter where they live.

                                 ______
                                 

    Mr. Lamborn. Thank you for your testimony. Mr. Kondon, you 
are now recognized for 5 minutes.

STATEMENT OF VANCE KONDON, ASSISTANT MANAGER, RAINBOW REEF DIVE 
                   CENTER, KEY LARGO, FLORIDA

    Mr. Kondon. Good afternoon, Chairman Lamborn, Ranking 
Member Huffman, and members of the Committee. Thank you for 
giving me the opportunity to testify before you today on H.R. 
1456, the Shark Fin Sales Elimination Act.
    My name is Vance Kondon, and I am originally from San 
Diego, California where I grew up just several blocks from the 
ocean where I spent much of my free time surfing, skin diving, 
and fishing. After high school, I joined the military and 
served our great Nation for 30 years. After retiring from the 
Air Force in 2016, I completed my scuba instructor 
certification and have since been serving in a management role 
and as an instructor at Rainbow Reef Dive Center in Key Largo, 
Florida, which is the largest dive operator in the Florida Keys 
and one of the busiest dive training centers in the Western 
Hemisphere.
    Science has proven time and again that sharks play 
important roles in ocean ecosystems around the world, but it 
may not be as well known that sharks play important roles in 
ocean-based tourism economies, including here in the United 
States. There have been a number of scientific studies that 
show shark watchers spend hundreds of millions of dollars on 
shark ecotourism every year around the world, and that number 
is growing.
    In 2017, an independent study commissioned by Oceana found 
that direct expenditures for shark encounters in the diving 
industry totaled over $221 million and fueled over 3,700 jobs 
in Florida, mine included. I can tell you from firsthand 
experience that people in Florida and our customers from around 
the world love to see sharks. During the peak summer season, we 
will take up to a thousand customers out to Key Largo's reefs 
each week, who are coming with an expectation that the reef 
life, including sharks, will be in abundance.
    Unfortunately, we have to let guests know that we only 
occasionally see sharks. One reason for this is because the 
dive tourism industry is being threatened by the demand for 
shark fins, one of the greatest threats to sharks around the 
world. In Key Largo, it has become rare to sight the Caribbean 
reef sharks that we used to see more in the past. When we are 
really lucky, we see a few hammerhead sharks each year.
    Hammerhead sharks have suffered immensely from the fin 
trade and currently fetch some of the highest prices for their 
fins. Scalloped hammerheads in the Atlantic are considered 
overfished and are experiencing overfishing while smooth and 
great hammerheads do not have species specific stock 
assessments, the basis of any sustainably managed fishery.
    While finning is illegal in the United States, it still 
occurs. In fact, almost exactly 1 year ago, Florida Fish and 
Wildlife officers stopped a Key West shrimp boat that had been 
illegally finning in U.S. waters a mere 20 miles north of the 
island. Inquiry from Senator Booker's office revealed that 
since January 1, 2010, NOAA has investigated 85 incidents 
involving alleged shark finning in our waters, 29 of which 
brought charges.
    I, myself, have seen evidence of this horrible act. Just a 
little over a year ago, in one of our deep shipwreck sights in 
Key Largo, we were horrified to find several sharks that were 
finned and dumped to die in the Florida Keys National Marine 
Sanctuary. It is impossible to tell whether a fin has been cut 
off of a shark legally or illegally once it has been detached 
from the body. It is not impossible that the fins from the 
sharks I saw that day may have ended up in a bowl of soup 
somewhere here in the United States.
    Things get even more complicated when shark fin imports are 
brought into the mix. Although the United States has deemed 
finning illegal, I was shocked to learn that we are actively 
importing fins from countries that do not have the same 
protections in place. Miami, a city close in proximity to some 
of the dive businesses that are thriving due to sharks, has 
been the Number one importer of shark fins from Hong Kong since 
2015.
    A recent study has shown that fewer than 10 species in Hong 
Kong fin trade have sustainably managed fisheries anywhere in 
their range, and nearly one-third were considered vulnerable or 
endangered by the International Union for Conservation of 
Nature. A news report from the South China Morning Post 
published just a few days ago reported that Indonesian 
authorities intercepted an illegal shipment of 20 metric tons 
of shark fin bound for Hong Kong. The fins were labeled as 
frozen fish and included hammerhead fins. If they had reached 
their destination, it could have been mixed with other fins and 
re-exported to the United States.
    We cannot continue to participate in this trade that is 
decimating shark populations around the world. There is a 
simple solution to this problem to end the demand for shark 
fins in the United States and to ensure that any fin, 
especially if illegally obtained, cannot be sold here.
    The Shark Fin Sales Elimination Act, H.R. 1456, would do 
exactly that. Already, 12 states have banned the sale and trade 
of shark fins, and they are not alone. They joined 40 airlines, 
20 major shipping companies, and 7 large corporations. Support 
for this act is overwhelming--8 in 10 Americans support a fin 
ban as do 9 aquariums, multiple recreational fishing interests, 
over 150 chefs, 150 scientists, 85 surfers, surf businesses and 
publications, 237 Members of the House, and over 500 businesses 
and organizations, including mine. The world is moving toward 
ending the shark fin trade, and the United States has an 
opportunity to be the leader. This opportunity should not be 
wasted.
    Thank you very much.

    [The prepared statement of Mr. Kondon follows:]
  Prepared Statement of Vance Kondon, Assistant Manager, Rainbow Reef 
              Dive Center, Key Largo, Florida on H.R. 1456
                              introduction
    Good morning, Mr. Chairman and members of the Committee. Thank you 
for giving me the opportunity to testify before you today on H.R. 
1456--the Shark Fin Sales Elimination Act.

    My name is Vance Kondon, and I am originally from San Diego, 
California, where I grew up just several blocks from the ocean, and 
where I spent much of my free time surfing, skin diving and fishing. It 
was in this time in my youth that I came to love and appreciate the 
wonder of the ocean and its inhabitants. After high school, I joined 
the military and served our great nation for 30 years, with my final 
assignment at Joint Base Andrews, Maryland, just a short distance from 
the Capital, before retiring just coming up on about 2 years ago. 
During my years of service, I had the opportunity to travel and live in 
parts of the world where I was able to spend time in the ocean and 
pursue training in scuba diving, beginning in 1987 in Guam. I completed 
training as a divemaster in 1999 and assisted in training other divers 
while stationed in Honduras from 2004 to 2008. After retiring from the 
Air Force in 2016, I completed my scuba instructor certification and 
have since been serving in a management role and instructor at Rainbow 
Reef Dive Center in Key Largo, Florida, which is the largest dive 
operator in the Florida Keys and one of the busiest diving training 
centers in the Western Hemisphere.
                           sharks and tourism
    Science has proven time and time again that sharks play important 
roles in ocean ecosystems around the world. But it may not be as well 
known that sharks play important roles in ocean-based tourism 
economies, including here in the United States. There have been a 
number of scientific studies that show shark-watchers spend hundreds of 
millions of dollars on shark ecotourism every year around the world, 
and that number is growing.\1\
---------------------------------------------------------------------------
    \1\ Cisneros-Montemayor, Andres M., Michele Barnes-Mauthe, Dalal 
Al-Abdulrazzak, Estrella Navarro-Holm, and U. Rashid Sumaila. ``Global 
Economic Value of Shark Ecotourism: Implications for Conservation.'' 
Oryx 47, no. 3 (July 2013): 381-88. doi:10.1017/S0030605312001718.
---------------------------------------------------------------------------
    In 2017, an independent study commissioned by Oceana found that 
direct expenditures for shark encounters in the diving industry totaled 
over $221 million and fueled over 3,700 jobs in Florida, mine 
included.\2\
---------------------------------------------------------------------------
    \2\ http://usa.oceana.org/press-releases/new-report-finds-shark-
related-diving-generated-over-221-million-florida-2016.
---------------------------------------------------------------------------
    These numbers may seem large, but I can tell you from firsthand 
experience that people in Florida love to see sharks. Though there is 
never truly a slow dive season for us in Key Largo, during the peak 
summer season, from the end of May through October, at Rainbow Reef 
alone, we will take anywhere from 750 to 1,000 customers out to Key 
Largo's reefs each week. Most of those customers want to see the bigger 
aquatic life when we take them out: turtles, rays, and most 
importantly, sharks. Our guests come from all over the world because 
Key Largo has an incredible reputation of being ``The Dive Capital of 
the World,'' so they come with an expectation that the reefs and reef 
life, including sharks, will be in abundance. Unfortunately, we have to 
let guests know that we only occasionally see sharks, and that we'll do 
our best to take them to locations where they may see them, because it 
is not something that happens as often as we would like.
                           sharks in trouble
    One reason this happens is because the dive tourism industry is 
being threatened by the demand for shark fins--one of the greatest 
threats to sharks around the world. This demand has driven some 
populations of sharks to ever lower numbers, which hurts dive 
businesses across the United States.
    In Key Largo, we see nurse sharks most often, but not on every dive 
trip. Sadly, it has become much more rare to sight the Caribbean reef 
sharks that we used to see more of in the past. When we are really 
lucky, which is only a few times a year, we see one or two hammerhead 
sharks on our reefs. Hammerhead sharks have suffered immensely from the 
fin trade and, currently fetch some of the highest prices for their 
fins. In the eastern Gulf of Mexico, the average price for a hammerhead 
fin is $15.95 per pound. This stands in stark contrast with the meat 
from this same shark, which only is worth about $0.25 per pound.\3\ 
Additionally, scalloped hammerheads in the Atlantic are considered 
overfished and are experiencing overfishing, while the smooth and great 
hammerheads do not have species-specific stock assessments--the basis 
of any sustainably managed fishery.\4\ As dive professionals, it is 
hard for us to see shark populations suffer due to the fin trade 
because we love to see the sharks alive and swimming in our reefs. This 
also means we are not able to share that experience with our guests as 
often as we'd like, which would be on every dive trip if it were 
possible!
---------------------------------------------------------------------------
    \3\ https://www.federalregister.gov/documents/2017/11/22/2017-
25203/atlantic-highly-migratory-species-2018-atlantic-shark-commercial-
fishing-season.
    \4\ https://www.fisheries.noaa.gov/national/population-assessments/
fishery-stock-status-updates.
---------------------------------------------------------------------------
    Shark finning, the act of slicing the fin off a shark and dumping 
the body back into the ocean, is a gruesome result of the demand for 
shark fins. While finning is illegal in the United States, it still 
occurs. In fact, almost exactly 1 year ago, Florida Fish and Wildlife 
Conservation Commission officers stopped a Key West shrimp boat that 
had been illegally finning in U.S. waters--a mere 20 miles north of the 
island.\5\
---------------------------------------------------------------------------
    \5\ http://www.miamiherald.com/news/local/environment/
article142029049.html.
---------------------------------------------------------------------------
    This is not the only time this has happened in recent years. An 
inquiry from Senator Booker's office revealed that since January 1, 
2010, NOAA has investigated 85 incidents involving alleged shark 
finning; 26 of those investigations have resulted in charges.
    In 2012, the Louisiana Department of Wildlife and Fisheries caught 
two men with 11 whole sharks and 2,073 shark fins, taken from another 
518 fish. They were ordered to pay a $45,000 fine to NOAA.\6\
---------------------------------------------------------------------------
    \6\ http://www.nola.com/outdoors/index.ssf/2016/02/
fishermen_plead_guilty_after_f.html.
---------------------------------------------------------------------------
    In January 2017, divers in West Palm Beach encountered dead sharks 
missing fins on one of their dives.\7\
---------------------------------------------------------------------------
    \7\ https://www.youtube.com/watch?v=vcYJRUsR7jw.
---------------------------------------------------------------------------
    I, myself, have seen evidence of this horrible act in U.S. waters. 
Just last year, on one of our deep wreck sites in Key Largo, we were 
horrified to find several sharks that were finned and dumped to die in 
the Florida Keys National Marine Sanctuary. Unfortunately, we arrived 
likely long after the sharks were finned and dumped, as there were no 
other boats in the area of the dive site and the sharks were already 
deceased.
    It is impossible to tell whether a fin has been cut off of a shark 
legally or illegally once it is detached from the body. It's not 
impossible that the fins from the sharks I saw that day may have ended 
up in a bowl of soup served here in the United States.
                           shark fin imports
    Things get even more complicated when shark fin imports are brought 
into the mix. The United States has deemed finning illegal due to the 
cruel and wasteful nature of the practice. However, I was shocked to 
learn that we are actively importing shark fins from countries that do 
not have the same protections in place.
    Miami, a city close in proximity to the dive businesses that are 
thriving due to sharks, is importing shark fins from Hong Kong yearly. 
In fact, Miami has been the #1 importer of shark fins from Hong Kong 
since 2015.\8\
---------------------------------------------------------------------------
    \8\ https://www.st.nmfs.noaa.gov/pls/webpls/
trade_alldstrct_byproduct.results?qtype=IMP&qyear 
from=2010&qyearto=2018&qproduct=SHARK&qsort=DISTRICT&qoutput=TABLE.
---------------------------------------------------------------------------
    This is a problem because a recent study showed that fewer than 10 
species in the Hong Kong fin trade have sustainably managed fisheries 
anywhere in their range, and nearly one-third were considered 
vulnerable or endangered by the International Union for Conservation of 
Nature.\9\
---------------------------------------------------------------------------
    \9\ Fields, A.T., Fischer, G.A., Shea, S.K., Zhang, H., 
Abercrombie, D.L., Feldheim, K.A., . . . & Chapman, D.D. (2017). 
Species composition of the international shark fin trade assessed 
through a retail-market survey in Hong Kong. Conservation Biology.
---------------------------------------------------------------------------
    We cannot continue to participate in this trade that is decimating 
shark populations around the world.
                    shark fin sales elimination act
    There is a simple solution to this problem--to end the demand for 
shark fins in the United States, and to ensure that any fin, even if 
illegally obtained, cannot be sold here.
    The Shark Fin Sales Elimination Act (H.R. 1456) would do exactly 
that.
    Already, 12 states have banned the sale and trade of shark fins and 
they are not alone. They join 40 airlines, 20 major shipping companies, 
and 7 large corporations. Fifty-one percent of international airlines 
now have banned shark fins, based on seat capacity. Worldwide, 17 of 
the 19 biggest shipping lines measured by container capacity have 
banned shark fins, impacting 71 percent of the global market.\10\ 
Support for this act is overwhelming--8 in 10 Americans support a fin 
ban, as do 9 aquariums, multiple recreational fishing interests, over 
150 chefs, 150 scientists, 85 surfers, surf businesses and surf 
publications, and over 500 U.S. businesses and organizations, including 
mine.
---------------------------------------------------------------------------
    \10\ http://www.scmp.com/news/hong-kong/economy/article/2089229/
chinas-biggest-airline-bans-shark-fin-cargo.
---------------------------------------------------------------------------
    The world is moving toward ending the shark fin trade, and the 
United States has an opportunity to be a leader. This opportunity 
should not be wasted.

                                 ______
                                 

    Mr. Lamborn. Thank you. Dr. Parsons, you are now recognized 
for 5 minutes.

  STATEMENT OF DR. GLENN R. PARSONS, PROFESSOR OF BIOLOGY AND 
   DIRECTOR OF THE CENTER FOR BIO-DIVERSITY AND CONSERVATION 
  RESEARCH, DEPARTMENT OF BIOLOGY, UNIVERSITY OF MISSISSIPPI, 
                      OXFORD, MISSISSIPPI

    Mr. Parsons. Thank you, Chairman Bishop and Subcommittee 
members. I would like to express my deepest appreciation to the 
many Republican and Democratic legislators supporting the Shark 
Fin Sales Elimination Act. It is very gratifying to see the 
overwhelming bipartisan support that this legislation enjoys. I 
am honored to be given the opportunity to provide my point of 
view.
    I am Dr. Glenn Parsons, Professor of Biology at the 
University of Mississippi and Director of our Biodiversity and 
Conservation Biology Research Group. As director, I represent 
many scientists who support this legislation.
    My credentials for testifying here include millions of 
dollars in grant funding and awards for conservation research 
from several top conservation organizations in the world, as 
well as several government agencies, including the EPA and NOAA 
and my conservation work has also been endorsed by two 
different governors of Mississippi, one Democratic and one 
Republican. However, my most important credential is my 40 
years of personal hands-on experiences with sharks.
    You see before you a man that has been slapped, slashed, 
and bitten by sharks, a scientist that was the first to film 
sharks being born, a researcher that has spent long hours in 
the laboratory and at sea on board research and commercial 
vessels trying to solve the shark bycatch problem, an educator 
that has taught hundreds of students the wonders of shark 
biology, and an author of many papers and books on sharks. I am 
affectionately referred to as Sharkman by my friends and 
family, whereas I actually prefer Dr. Sharkman. It is clear 
that sharks are an important part of my psyche and career.
    Distinguished Committee members, there are those that will 
argue that this bill will have an insignificant effect on shark 
conservation. When the United States sets the example, other 
countries will likely follow suit in exactly the same way that 
U.S. states and various businesses have banned the fin trade.
    For example, a recent article by the South China Post noted 
that shark fin imports to Hong Kong have been cut by half since 
2007, owing to shipping bans and tighter international 
regulations. They say it will be a loss of income to U.S. 
fishers. I am sympathetic to the plight of commercial fishers. 
I have worked closely with the commercial industry for years, 
however, this bill does not stop commercial shark fishing. Over 
70 percent of the value of the shark fishery will still be 
retained. Therefore, I ask you, would it inspire you to support 
this legislation by describing the feeling of wonder that 
scientists such as myself, divers, surfers, tourists, aquarium 
goers, and others receive from working with and observing this 
public natural resource.
    Would it inspire you to describe the important role sharks 
play in ocean ecosystems as keystone species and their amazing 
sensory abilities. These are animals that can detect the 
faintest electric fields, a sensory modality that we cannot 
even begin to appreciate. Can I kindle in you a sense of 
outrage to tell you that I have personally witnessed declines 
in the populations of sharks in the Gulf of Mexico. Unless we 
make changes, we will likely see the extinctions of many 
charismatic organisms, sharks included, in the near future.
    NOAA's latest status of stocks update lists the number of 
shark stocks that do not even have stock assessments. These 
include silky sharks, tiger sharks, smooth and great 
hammerheads, and many more. These sharks I just listed are 
among the most popular in the fin trade. Could I appeal to your 
sense of right and wrong by describing shark finning, the cruel 
and wasteful removal of a shark's fin while the body is 
discarded, that is going on even as we speak, how those tainted 
fins end up in U.S. markets, and how some of those fins are 
from threatened or endangered shark species speeding them 
toward extinction.
    A final few comments. The foundations of the field of 
conservation biology began with the religious idea of man as a 
faithful steward of creation. Many of the religions of the 
world believe there is a connection between the natural and 
spiritual world. Extinction breaks that connection and 
diminishes the earth.
    Extinction of an organism is like discovering ancient text 
written in a language that we cannot yet decipher and then 
destroying them all. Who knows what mysteries would have been 
solved, what questions could have been answered by the words 
written there?
    So, I ask you--will we look back and say we should have 
been better stewards? This is our moment to send a message to 
the world that the United States will no longer participate in 
the shark fin trade. I hope that we will not miss our moment.

    Thank you.

    [The prepared statement of Mr. Parsons follows:]
 Prepared Statement of Dr. Glenn R. Parsons, Professor of Biology and 
  Director of the Center for Biodiversity and Conservation Research; 
   Department of Biology; The University of Mississippi on H.R. 1456

                              introduction
    Thank you Chairman Lamborn and Subcommittee members. First, I would 
like to express my deep appreciation to the many Republican and 
Democratic legislators for supporting the Shark Fin Sales Elimination 
Act (H.R. 1456). It is very gratifying to see the bipartisan support 
that this legislation has enjoyed. I am honored and excited to be given 
the opportunity to provide my point of view. In this testimony, I hope 
to convey to you a sense of how important this legislation is to me 
personally and, no doubt, to many of your constituents.

    My name is Glenn Parsons, a Professor of Biology at the University 
of Mississippi, where I teach, among other things, Conservation Biology 
and The Biology of Sharks. I am also Director of the University of 
Mississippi Center for Biodiversity and Conservation Biology. As 
director, I represent some 30 scientists who are committed to 
investigating means to help maintain the biodiversity of the planet, 
and all of whom support the Shark Fin Sales Elimination Act.

                           brief credentials

    Regarding my academic credentials: my undergraduate degree is from 
the University of Alabama, Birmingham, my master's degree is from the 
University of South Alabama, and my doctoral degree is from the 
University of South Florida, School of Marine Science. I have been 
recognized and received awards for my marine and freshwater 
conservation research by the World Wildlife Fund, the Rolex 
Corporation, the Walton Foundation for Marine Research, the National 
Fish and Wildlife Foundation, two different governors of Mississippi 
(one a Democrat and the other a Republican), the National Marine 
Fisheries Service, The U.S. Army Corps of Engineers, the Mississippi 
Department of Wildlife and Fisheries, and various other organizations. 
I have directed to completion 18 master's and doctoral graduate 
students, many of them shark biologists. I have studied sharks for the 
past 40 years, published over 100 scientific papers, reports, books and 
popular articles on sharks and other fishes, and received millions of 
dollars of grant funds to investigate shark and fish biology.

                            research efforts

    Approximately 15 years ago, my research focus turned to the problem 
of bycatch in commercial and recreational fisheries. Bycatch refers to 
the unintended, unwanted capture of non-target species. An example of 
this is the non-target sharks captured during commercial tuna fishing. 
Unfortunately, the vast majority of those sharks do not survive the 
stress of capture. Bycatch is an enormous problem in many fisheries 
around the world, and new technology to reduce or eliminate bycatch is 
sorely needed. As a matter of fact, I received an award from the World 
Wildlife Fund for my work on bycatch. I have worked very closely with 
the National Marine Fisheries Service and with many members of the 
commercial fishing industry in the Gulf of Mexico and Atlantic to 
address the bycatch issue. Recently, we received research funding to 
investigate novel methods to allow sharks to escape after being hooked 
by fishers and to help sharks survive the rigors of capture. This work 
on shark bycatch has been some of the most rewarding and perhaps the 
most important of my professional career!

                        sharks: a personal view

    When I was invited to submit testimony in support of this 
legislation, I asked myself ``What are my credentials for doing this?'' 
My credentials for delivering this testimony are not my degrees, titles 
and scientific accomplishments. Not the classes I teach, the graduate 
students of shark biology I have directed, nor the amounts of grant 
money and awards I have received. My most important credential is my 40 
years of personal experiences with sharks.

    I have been slapped, slashed, and bitten by sharks. I've assisted 
with shark birth and was the first to document sharks being born on 
film. I have walked sharks around in shallow, tropical water for hours, 
trying to help them recover from capture stress. I have spent long 
hours in the laboratory, and countless hours at sea, investigating 
methods that might help sharks to survive the stress of capture. I have 
taught many students the wonders of shark biology. I have even written 
and recorded a song about sharks. For what it is worth, my friends and 
family affectionately refer to me as ``Sharkman.'' To say sharks occupy 
an important place in my psyche is clearly an understatement.
              sharks as keystone species, shark fisheries
    Sharks likewise occupy an important place in oceanic ecosystems. As 
a top predator, they play an important role in regulating the 
populations of their prey species. Reducing or eliminating these 
``keystone species'' may result in unpredictable, deleterious, and 
potentially irreversible changes in marine community structure. A 
``cascade'' of effects caused by declining large shark populations has 
already been scientifically documented. The decline in shark 
populations has been the result primarily of commercial and 
recreational fisheries and the demand for the most prized parts of 
their bodies--the fins.

    In general, shark species are terrible candidates for supporting a 
fishery. Consider their biology: female sharks produce relatively few 
``pups,'' some may require many years to mature, and some have a long 
life span that is necessary to produce the number of offspring to 
maintain their populations against natural rates of attrition. 
Superimpose the added burden of many millions of sharks removed from 
the oceans by fishing and you have a recipe for disaster:

    <bullet> 70 to 100 million sharks killed by commercial and 
            recreational fishers each year, and some estimates have 
            been as high as 270 million.

    <bullet> Shark populations reduced by 50 to 90 percent over the 
            last 10 years.

    <bullet> Troubling declines in the ``great'' species of sharks in 
            the world's oceans.

    <bullet> Sixty-eight of the approximate 500 species of sharks 
            listed by the IUCN are Vulnerable, Endangered, or 
            Critically Endangered.

    <bullet> Sixty species listed as Data Deficient.

    <bullet> Cascading ecosystem effects due to shark removal.

    A 2013 study in the journal Marine Policy found that sharks 
continue to be captured at rates that far exceed their ability to 
replace themselves. This paints a very disturbing picture for a fishery 
and for attempts to manage that fishery. Management is possible for 
some of the smaller species, but for large species, carefully collected 
biological data is required, a difficult task in the face of limited 
management personnel and limited resources. Despite herculean efforts 
on the part of Federal and state managers, we still lack critical data 
necessary for management of the vast majority of shark species. 
Compiling shark data for population modeling is difficult and 
complicated by the fact that different populations of the same shark 
species could have very different management needs depending on where 
they're located. Mortality rates (and other biological data) estimated 
for the southern populations of a particular shark species may not be 
the same as in northern populations of the exact same species. This 
begs the question, how many shark populations are there in the world? 
We have no idea.
    The message is clear; our understanding of shark population 
dynamics for most species is rudimentary at best and non-existent at 
worst, making the idea of a sustainable fishery for most shark species 
farcical at this point in time. To exemplify the above problem, when I 
first became involved in shark research in the late 1970s, there were 
only two reasonably sound estimates of shark natural mortality. Fast 
forward to 2018, over 40 years later, and there are maybe 5 species 
(out of 500!) whose natural mortality has been estimated with some 
reliability. It's taken over 40 years and we don't have much more 
information than we did when we started--and this is only one example 
of the lack of data for many shark stocks both in the United States and 
abroad.
                  sharks and the devastating fin trade
    The demand for shark fins is one of the main reasons for declines 
in shark populations around the world. Every year, up to 73 million 
sharks end up in the global fin trade. The demand for these fins fuels 
shark finning--the act of slicing the fins off a shark and dumping its 
body back at sea where it will drown, bleed to death, or be eaten alive 
by other fish. This shark fin trade is devastating. New studies have 
revealed that 91.3 percent of the fins in the global fin trade are from 
unsustainable sources, and fewer than 10 species in the Hong Kong fin 
trade have sustainably managed fisheries anywhere in their range.
    The United States has stated that shark finning is abhorrent and 
against the law, yet we still import fins from countries that are 
actively finning, thereby creating economic incentives for the act to 
continue. Fins entering the United States have come from countries that 
have no regulations against finning, and those fins could have quite 
possibly been removed in a manner that is illegal in U.S. waters. Once 
a fin is in the United States, it is nearly impossible to tell if it 
came from an illegal or legal source.
    To help make sure that no fins from finned sharks are being sold 
within their borders, 12 states (Hawaii, Oregon, Washington, 
California, Illinois, Maryland, Delaware, New York, Massachusetts, 
Texas, Rhode Island, and Nevada) and all three Pacific territories have 
banned the sale and trade of shark fins.
    In addition to states taking action, private companies are also 
refusing to ship or sell shark fin products, including Amazon, GrubHub, 
many hotels and major airlines, Hong Kong Disneyland and multiple 
shipping companies. Over 51 percent of international airlines, by seat 
capacity, have now banned shark fins. Worldwide, 17 of the 19 biggest 
shipping lines measured by container capacity have banned shark fins, 
impacting 71 percent of the global market. However, as companies and 
states close the door to the shark fin trade, other doors remain open, 
and the market shifts accordingly.
    For example, after California and Illinois enacted their bans, 
shark fin trade activity in the United States shifted primarily to 
Texas. Now that Texas has implemented its own shark fin trade ban, the 
trade in shark fins has begun to move to Georgia. The United States is 
engaging in a game of whack-a-mole, as the shark fin trade shifts in 
response to a growing patchwork of fin trade bans. Additionally, even 
states that have bans, like California, are still importing fins 
because of enforcement issues with interstate commerce.
    With previous legislation, the U.S. Congress has made its stance 
clear on the cruel and wasteful practice of shark finning. And yet, 
fins from finned sharks, even likely including fins from sharks that 
are threatened or endangered, are being bought and sold in the United 
States. Additionally, previous laws did not address the main problem: 
too many sharks are being killed, and one of the main factors for this 
is the demand for their fins--whether they are finned or taken to shore 
with their fins naturally attached. But this is a solvable problem. A 
national ban like the Shark Fin Sales Elimination Act (H.R. 1456) would 
solve many of these issues. To be clear, H.R. 1456 does not prohibit 
shark fishing, it merely prohibits the sale and trade of the shark's 
fins.
                       sharks as living treasures
    The frequency at which sharks appear in literature, film, and 
television attests to their popularity among vast numbers of people in 
the United States. It seems that folks have an almost unlimited 
capacity for anything shark-related. Go to any public aquarium and you 
will see patrons standing in rapt attention, absolutely captivated by 
the power and grace of sharks as they pass before them. I can describe 
the feeling of fascination that myself and many of your constituents 
receive from being in wild places, experiencing sharks in their natural 
habitat, and feeling that I am, at least for a time, connected to the 
natural world. The sensory biology of sharks, and the fact that they 
are capable of detecting the faintest electric fields, a sensory 
modality that we as humans cannot begin to appreciate, is awe-
inspiring. Not only are sharks valuable in an aesthetic sense, they 
represent a treasure-trove of valuable biological information. For 
example, recent findings indicate that compounds discovered in sharks 
have great potential as pharmaceuticals to treat various human 
diseases. The drug discoveries that shark biology is presently 
providing will no doubt alleviate much human suffering.
                              conclusions
    We are losing wild places in the world and the species that inhabit 
them at an alarming rate. The species remaining are compressed into 
smaller and smaller areas, a serious problem called habitat 
fragmentation. Unless we start being smarter about how we treat the 
environment and the organisms found there, most biologists predict that 
we will see many extinctions in the very near future. While I have 
always been skeptical of gloom-and-doom predictions, I have seen the 
numbers and they do not look good. Habitat fragmentation and loss of 
biodiversity are the two biggest problems faced by conservation 
biologists today.
    I have personally witnessed declines in populations of large sharks 
in the Gulf of Mexico. It is clear that a major factor driving shark 
population declines is the demand for shark fin soup. The fear among 
many scientists is that we will soon lose many of the largest shark 
species to extinction. Extinction is permanent. You do not get a do-
over with extinction.
    Finally, the foundations of the field of conservation biology began 
with the religious idea of man as a faithful steward of creation. Many 
of the religions of the world believe there is a connection between the 
natural and the spiritual world. Extinction breaks that connection and 
diminishes the earth. A short quote from my book ``Sharks, Skates and 
Rays of the Gulf of Mexico'':

        ``Extinction of an organism is like discovering ancient texts 
        written in a language that we cannot yet decipher, and then 
        destroying them all. Who knows what mysteries would have been 
        solved, what questions could have been answered by the words 
        written there?''

    Will we look back on this day and regret that we should have been 
better stewards? This is our moment to send a message to the world that 
the United States will no longer participate in the trade in shark 
fins. I hope that we will not miss our moment.

                                 ______
                                 

Questions Submitted for the Record to Dr. Glenn R. Parsons, Professor, 
                     The University of Mississippi
                  Questions Submitted by Rep. Barragan

    Question 1. A study by the University of Miami has found that shark 
fins contain high concentrations of BMAA, a neurotoxin linked to 
neurodegenerative diseases in humans, including Alzheimer's and Lou 
Gehrig's disease (ALS), and suggests that consumption of shark fin soup 
may pose a significant health risk for degenerative brain diseases.

    1a. In addition, the Food and Drug Administration and EPA recommend 
that women who might become pregnant, women who are pregnant, nursing 
mothers, and young children should not eat shark because it contains 
high levels of mercury.

    1b. Given this information, do you think shark fin and meat 
consumption is wise?

    Answer. Long-lived marine animals, such as many shark species, may 
potentially bio-accumulate toxins. Bio-accumulation refers to the fact 
that over time, very small quantities of toxins that may be normally 
found in the sharks' prey, will concentrate in the flesh of the 
predator. This can become a significant problem when animals live to be 
50, 60, 70 years old or more. Each year that passes results in 
additional toxin accumulating in the flesh. When we consume the flesh 
of these long-lived animals, we may be putting ourselves at significant 
health risk.
    The situation with BMAA is an interesting one. BMAA is found 
naturally in many plants and animals. One of the first indications of a 
toxic effect was discovered on the island of Guam. An unusually large 
percentage of people on Guam were afflicted with ALS-parkinsonism at a 
rate that was 50 to 100 times greater than the rest of the world. A 
particularly popular dish for the Gumanian people were large bats 
called Flying Foxes. Consumption of these bats was infrequent prior to 
the introduction of firearms following World War II. Afterwards, 
islanders were able to harvest bats with great efficiency. The 
appearance of ALS-parkinsonism in the population closely followed the 
increased consumption of Flying Foxes. The bats were shown to have bio-
accumulated BMAA to very high levels and every time Guamanians feasted 
on bats they dosed themselves with the toxin. The connection between 
neurological disease and BMAA was bolstered when brain tissues of 
Guamanians that died of ALS were found to have high levels of the toxin 
and bats found in museum specimens from that time period had incredibly 
high levels of the toxin in their tissues. Additionally, BMAA has been 
detected in the brain tissues of North American patients who died of 
Alzheimers.
    BMAA has recently been identified in shark flesh and fins. The 
compound may pose a health risk in and of itself. However, sharks are 
also known to bio-accumulate mercury and this creates an additional 
health hazard. The important question, that we cannot as yet answer, is 
how do these two compounds interact in the human body when they are 
consumed. Both BMAA and methyl mercury may cause neurological damage 
leading to Alzheimer's, Lou Gehrig and Parkinsons. The recommended 
limits on consumption of shark flesh set forth by the FDA and EPA 
specifically reference the high mercury content. As it turns out, the 
two toxins may have a synergistic effect. A synergism occurs when the 
effects of two factors combine together to create an effect greater 
than the sum of their individual effects. It is like drinking a cup of 
hot coffee or eating a habanero pepper. They are both hot. But if you 
consume the two of them together, it may feel much, much hotter. Their 
individual effects may work together synergistically, to have a much 
larger total effect. This is the concern regarding BMAA and mercury in 
shark flesh and fins. If they act synergistically, there may be an 
elevated risk for neurological damage in those consuming the flesh and 
fins.
    I apologize for a long-winded answer to a simple question: I 
certainly agree with the FDA and EPA limits on consumption. It is 
possible that healthy adults can consume shark flesh with no problems. 
However, I personally do not consume the flesh (and certainly not the 
fins) and would not recommend it to others. It is not worth the risk in 
my opinion.

    Question 2. Why can't we just ban imported shark fins?

    Answer. My understanding of the issue with a simple ban on imported 
fins concerns World Trade Organization principles of non-discrimination 
in trade. WTO member countries cannot treat imported products 
differently than domestic products and countries cannot discriminate 
between their trading partners. If either of these principles are 
violated, a country could sue the United States before a WTO tribunal. 
That country could also retaliate against the United States by raising 
the prices of certain exports, and U.S. consumers could end up paying 
for the violation.
    A parallel situation involved the U.S. attempt to prohibit the 
import of shrimp originating from countries that did not require Turtle 
Excluder Devices (TEDs) in their shrimp trawls. TEDs obviously were 
(and are today) required in the United States to prevent the capture 
and subsequent death, of protected sea turtles in shrimp trawls. 
However, the ban on imported shrimp did not survive WTO scrutiny. To 
achieve WTO compliance, the United States modified the regulation, 
negotiated international agreements, and provided technical assistance 
with TEDs to any government that requested it. This took years and cost 
taxpayers significant amounts of money to defend 10 Federal court cases 
and 4 WTO panels.
    H.R. 1456, The Shark Fin Sales Elimination Act of 2017, avoids all 
of the troubles that would result from attempting to ban imported shark 
fins. H.R. 1546, unlike H.R. 5248, is simple, has few moving parts, 
directly addresses the problem of shark finning, and will clearly 
achieve what it says it will achieve.

    Question 3. Where is the majority of the shark fin trade located?

    Answer. The majority of the global shark fin trade was historically 
located in Hong Kong. While Hong Kong remains an important center of 
the fin trade, recently the shark fin trade has shifted to Guangzho, a 
city north of Hong Kong.
    In this regard, it is important to note that shark fin imports to 
Hong Kong have been reduced by 50 percent since 2007 largely due to 
shipping bans and tighter international regulations. The World Wildlife 
Fund stated that the declining market for shark fins in mainland China 
is ``promising'' and an indicator that environmental campaigns, 
including mounting pressure on shipping companies to stop carrying the 
fins, as well as improved monitoring of shipping documents, were paying 
off.
    The above observations provide additional support for H.R. 1456 and 
suggest that the bill will place additional pressure on individuals, 
companies, and governments stop the trade in shark fins.
                   Questions Submitted by Rep. Sablan

    Question 1. How easy is it to get new technologies that are proven 
to reduce shark bycatch implemented in U.S. fisheries?

    Question 2. Is there a process for getting these new technologies 
implemented once they are proven?

    Answer. My experience with implementing new bycatch technologies in 
U.S. fisheries is that it is a very long-term undertaking. Clearly, the 
first step is to conduct the research needed to verify that the new 
technology or change in fishing method will accomplish a reduction in 
bycatch. That can be the lengthiest step. The research must be thorough 
and may require years of study to complete. Unfortunately, ideas that 
sound great on paper often do not work in actual application. Various 
methods have been tried but, to my knowledge, none has been 
particularly successful.
    Through work in my lab at The University of Mississippi, I have 
developed a new type of leader that has been shown, in preliminary 
testing, to reduce shark bycatch by 86 percent. Funded by the National 
Marine Fisheries Service, through the National Bycatch Reduction 
Program, the new leader, called the entangling leader, encourages 
sharks to ``bite off' the line after the hook has been taken. The 
leader has loops of line that entangle in the sharks teeth (but not in 
typical fish teeth), the teeth cut the line, and the shark swims away 
unharmed. While we only have limited field-testing, the initial results 
were promising. However, we do not know if the leader will result in a 
reduction in target fish (tuna/swordfish) catch. Additionally, the 
leader design will necessitate a change in the manner in which 
commercial fishers deploy their gear.
    I do not have a good understanding of the administrative 
machinations required to make changes to fishing policies. In 
discussions with my colleagues, introducing or requiring new technology 
in a particular fishery would be different depending upon the 
circumstances. For example, if the species in question is endangered 
(like sea turtles), the responsibility for requiring the new technology 
(for example TEDs) would fall under the Endangered Species Act. In the 
case of weak hook requirements in U.S. fisheries, that rule change came 
about through the NOAA, NMFS Office of Highly Migratory Species. A 
change, for instance, involving bycatch reduction in the shrimp trawl 
fishery, might go through one of Fisheries Management Councils (i.e. 
Gulf of Mexico Fisheries Management Council). To an outsider looking in 
it appears far too complicated to me.

    Question 3. In order to be considered a sustainable fishery, is it 
important for fisheries to minimize its bycatch, especially for sharks?

    Answer. Bycatch, the incidental capture of non-targeted species, is 
the most pressing problem faced by fisheries managers today. All 
fisheries around the world suffer from some form of bycatch. Some are 
very ``clean'' fisheries with little bycatch. Others, like various 
longline fisheries (miles of line with many hooks) have significant 
amounts of bycatch including sea turtles, birds, marine mammals and 
elasmobranchs (sharks, skates, rays).
    Maintaining healthy shark populations is very much dependent upon 
the survival of older individuals (sub-adults and adults). Many shark 
species are particularly sensitive to reductions in numbers of the 
mature and maturing members of the population. Unfortunately, these 
individuals are the targets of most fisheries and are often the 
individuals taken as bycatch. Information from a report by the Pew 
Charitable Trust on shark bycatch in tuna fisheries underscores the 
bycatch problem:

    --  In the 1980s and 1990s it was estimated that 300,000 metric 
            tons of sharks, nearly a third of the global total, were 
            the result of unregulated bycatch.

    --  Annual average of more than 20,000 tons of dead blue sharks are 
            discarded in the North Atlantic tuna fishery alone.

    --  In pelagic longlines, sharks often make up more than a quarter 
            of the total catch (target and bycatch).

    Clearly, attempts to manage a fishery become considerably more 
difficult when unregulated removal of individuals from the population 
occurs due to bycatch in other fisheries. All indications are that 
shark bycatch is exceedingly high and, for some fisheries, the 
estimates seem to be fairly accurate. However, for many fisheries we 
have either a very poor estimate of bycatch or none at all.
    The bottom line: successfully managing any shark fishery requires 
reliable values on the catch of sharks taken in the direct fishery and 
reliable values of sharks taken as bycatch in other fisheries.
    One additional point I would like to make that is germane to the 
above discussion. As long as shark fins command such a high price 
($500/pound, perhaps more?) there will be an issue with unregulated 
take and shark finning by outlaw fishers around the world. Some shark 
species are very sensitive to declines in their populations. Take for 
example, the Dusky Shark, that was seriously over-fished to the point 
where it will require 100 years(!) to rebuild stocks to 50 percent of 
its original size. I am unconvinced that species, like the Dusky shark 
and others with similar population characteristics, could ever be 
managed to make the fishery both economically viable and sustainable.

    Question 4. Can the United States do more to minimize shark bycatch 
in its fisheries?

    Answer. Quoting the Pew Charitable Trust report from 2010 mentioned 
above: ``the problem of bycatch has been largely ignored, and no 
meaningful or effective action has been taken to adequately address the 
issue.''

    Some recommendations for reducing shark bycatch:


  1.  Require a change from high tensile strength monofilament line 
            (the line typically used by longline fishers in the tuna/
            swordfish fishery in the United States) or wire leader to 
            high tensile strength ``Spectra''. One of the aspects of my 
            research on shark bycatch was to examine the differences in 
            monofilament versus Spectra fishing line. The idea was that 
            if we can identify a line that encourages shark ``bite 
            offs,'' but still retains the target species (tuna/
            swordfish), then this line could be used to allow sharks to 
            more easily escape after taking the hook. We found that 
            when 300 pound tensile strength Spectra is placed under 
            load and subjected to a blade (similar to a sharks tooth) 
            the line failed at a rate 500,000 times greater than 
            monofilament. Spectra has very good tensile strength but 
            when compromised by a shark's tooth, it fails very rapidly. 
            In my report regarding that research submitted to the 
            National Marine Fisheries Service I stated that ``if 
            commercial fishers made the simple change from high tensile 
            strength monofilament to spectra there would be many 
            additional shark ``bite-offs'' and shark bycatch would be 
            reduced.

      If you would like to see a demonstration of the above described 
            effect, visit my Youtube video https://www.youtube.com/
            watch?v=ybul0pCqqho. Please note that I stated in the video 
            that the line was 300 kg tensile strength but it was 
            actually 300 pound tensile strength.

  2.  Further develop the entangling leader. It is possible that the 
            entangling leader (mentioned above) might be developed to 
            reduce shark bycatch. The leader's design encourages bite-
            offs and the fact that it employs spectra fishing line 
            increases its effectiveness.

      Note: Some of the following are not issues in U.S. fisheries but 
            are needed in shark fisheries worldwide.

  3.  Ban wire leaders in pelagic longlines. This is similar to the 
            above recommendation from my research. However, wire 
            leaders are used in some longline fisheries and they retain 
            sharks very effectively.

  4.  Require circle hooks. Circle hooks will eliminate bycatch but the 
            survival rate of sharks released after capture is much 
            higher than that of sharks captured on ``J'' hooks. Circle 
            hooks are less likely to result in sharks being hooked in 
            the gut or throat and thus enjoy greater survivorship after 
            capture.

  5.  Change bait type. There is evidence that suggests that sharks are 
            more likely to be captured on squid as opposed to fish 
            bait. Eliminate squid as bait to reduce shark bycatch.

  6.  Require TEDs in trawl fisheries. Turtle excluder devices in 
            bottom trawls effectively reduce sea turtle capture but 
            also significantly reduces the capture of many sharks.

  7.  Invest in additional research to develop new bycatch reduction 
            methods and to further investigate those that show promise.

    Question 5. In what way would you say the United States is lacking 
most in its management of shark fisheries?

    Answer.

  1.  More basic research is needed. Despite Herculean effort on the 
            part of the National Marine Fisheries Service (they are not 
            magicians!), we still lack vital basic information 
            regarding most shark species. For wise management, 
            fecundity, age at maturity, longevity, and rates of natural 
            mortality (and fishing mortality) are required for any 
            fishery. Since sharks are typically poor candidates for 
            supporting a fishery, the above values become critically 
            important. An extremely valuable piece of information for 
            managing a fishery is the population's rate of natural 
            mortality, i.e. how many individuals in the population die 
            each year. Clearly, if we plan on harvesting a portion of 
            that population, knowing how many die from natural causes 
            is important. In the absence of that information, we run 
            the risk of inadvertently reducing the population to levels 
            from which it may not be able to recover (extinction then 
            becomes a possibility). When I began studying shark back in 
            the late 1970s we had one maybe two estimates of natural 
            mortality for sharks (there are some 500 species of 
            sharks). Fast-forward 40 years to today and discussions 
            with my colleagues/friends who study shark population 
            dynamics revealed that we have maybe 5 to 10 natural 
            mortality estimates. Additionally, the consensus is that 
            none of them are reliable estimates!! That is not a very 
            good track record after 40 years.

  2.  Stop managing groups of sharks instead of individual species. At 
            present we lump species together and create management 
            plans for groups of shark species. We need to do the basic 
            biological research, gather the needed information, and 
            establish management plans for individual shark species and 
            stocks.

  3.  Conduct stock assessments on a more regular basis. The revelation 
            that only two (perhaps only one) stock assessment was 
            conducted last year for U.S. shark stocks suggests that 
            more effort in this area is needed.

  4.  Do not allow retention of shark species that are at risk. I will 
            assume that U.S. fishers do not retain at-risk species but 
            there is the very real possibility that these species are 
            still being retained due to misidentification. This would 
            of course require:

  5.  Better education of fishers regarding identification of at-risk 
            species.

  6.  Obtain better estimates of bycatch. See the discussion above.

                                 ______
                                 

    Mr. Lamborn. Thank you. Dr. Hueter, you are now recognized 
for 5 minutes.

  STATEMENT OF ROBERT E. HUETER, Ph.D., DIRECTOR, CENTER FOR 
   SHARK RESEARCH, MOTE MARINE LABORATORY, SARASOTA, FLORIDA

    Mr. Hueter. Thank you, Mr. Chairman, and good afternoon. My 
name is Dr. Bob Hueter, and I am a senior scientist at Mote 
Marine Laboratory, an independent and non-profit marine science 
institution based in Sarasota, Florida with a 63-year history 
of world class research on sharks. I am Director of Mote Center 
for Shark Research, which was actually established by the U.S. 
Congress in 1991 in recognition of Mote's leadership in shark 
research and conservation. My statements today represent both 
my own professional findings and the official position of Mote 
Marine Laboratory.
    My career studying sharks extends over more than 40 years, 
and my service on many advisory committees is detailed in my 
written testimony and resume. These include 21 years on NOAA's 
advisory panel for highly migratory species, the sharks, tunas, 
and swordfish. I am also a past president of the American 
Elasmobranch Society, the world's largest professional 
organization of experts studying sharks and rays. I have 
studied more than 100 species of sharks in the lab and at sea, 
have swam with many species in the wild, have tagged more than 
10,000 of the animals. This work has resulted in more than 200 
scientific publications. It is fair to say that I really love 
sharks.
    My personal journey as a shark conservationist began in 
1988 when I first learned of the previously unknown practice we 
now call shark finning. I brought this horrendous practice to 
the attention of the major media at that time beginning a 30-
year career as an advocate for science-based shark conservation 
in state, Federal and international arenas. I have appeared 
many times on CNN, Fox News, the Discovery Channel, and other 
forums to spread the word on the importance of sharks and the 
need to conserve them.
    Sharks and rays have been depleted worldwide through 
overfishing. That is the bad news. The good news is that after 
25 years of dedicated work by scientists, conservationists, 
NOAA, state agencies, and the fishing industry, U.S. shark 
fisheries have become some of the best managed in the world. 
And many of our shark fisheries today are healthy or rebounding 
from past over exploitation.
    Eighteen U.S. shark and ray fisheries are identified as 
bright spots of sustainable fishing. Clearly, the United States 
is doing something right with respect to shark conservation and 
responsible fisheries management, but for a number of other 
nations things are not so good.
    Global shark fisheries are conservatively valued at about a 
billion dollars. The meat is a major source of protein in some 
nations and shark fins are used in shark fin soup, a culinary 
delicacy in Asian cultures. None of these uses are in 
themselves unethical as long as the animals from which they 
came were fished sustainably. That has been the problem. 
Unsustainable fishing, as well as finning.
    It is vital that we understand the distinction between 
shark finning and the shark fin trade. Finning is the act of 
cutting off a shark's fins and discarding the rest of the 
animal, often alive, at sea. It is done through a total 
disregard for the future of the resource or for humane 
treatment of the animals and is fueled by economic greed.
    On the other hand, taking fins from sharks landed onshore 
in regulated, legal, and sustainable fisheries is not shark 
finning. It provides a legal commodity for trade that 
encourages the full use of every shark, rather than throwing 
part of the resource away. Finning is banned in the United 
States and does not occur here, except rarely by lawbreakers 
subject to Federal and state prosecution. It has also been 
banned by at least 40 other countries and some regional fishery 
management organizations. So, how can the United States 
incentivize other nations to replicate our success while 
continuing to promote rule-following fishing and science-based 
management here at home?
    H.R. 5248, the Sustainable Shark Fisheries and Trade Act, 
introduced by Representatives Webster and Lieu provides a 
bipartisan, sensible solution. The Act would require that shark 
and ray products imported in the United States be permitted 
only from foreign fisheries certified as having and enforcing 
management and conservation policies comparable to the United 
States. Nothing from finned sharks would be permitted.
    We have done an analysis of the effect of H.R. 1456, the 
Shark Fin Sales Elimination Act, and although the people, the 
proponents of this Act need to be congratulated for getting our 
conversation to this point, we found that it actually would 
punish the people who are doing things right, the American 
fishers who are fishing legally and sustainably, and 
potentially reward nations who are doing things wrong and 
causing the actual declines in shark and ray populations, and 
we don't want that.
    For these various reasons, I, and my institution Mote 
Marine Laboratory, support the Sustainable Shark Fisheries and 
Trade Act, H.R. 5248.

    Thank you.

    [The prepared statement of Mr. Hueter follows:]
  Prepared Statement of Robert E. Hueter, Ph.D., Director, Center for 
Shark Research, Mote Marine Laboratory, Sarasota, Florida on H.R. 5248 
                             and H.R. 1456
                              introduction
    My name is Dr. Robert Hueter and I am a Senior Scientist at Mote 
Marine Laboratory, an independent, non-profit research and education 
institution based in Sarasota, Florida. Over its 63-year history, Mote 
has grown from a one-room laboratory to a world-class marine research 
and science education enterprise that now has five campuses stretching 
from Sarasota Bay to the Florida Keys, 24 research programs, 200 staff, 
35 Ph.D.-level researchers, 1,658 volunteers and more than 11,000 
members. Our research has evolved from a primary focus on sharks to now 
conducting diverse studies of our oceans, with an emphasis on 
conservation, sustainable use and environmental health of marine and 
coastal biodiversity, habitats and resources. We also have significant 
education, public outreach and public policy programs that are 
integrated with our research.
    I am the Director of Mote's Center for Shark Research, which was 
established by the U.S. Congress in 1991, in recognition of Mote's 
leadership in research and conservation of sharks and their relatives, 
the skates and rays (hereafter simply called the sharks and rays). My 
statements here represent both my own professional findings and the 
official position of Mote Marine Laboratory.
    For 27 years, Mote's Center for Shark Research has worked as a 
completely independent research entity to provide NOAA much of the 
information the agency requires to understand and sustainably manage 
sharks as a marine resource. My personal experience with shark 
fisheries spans more than 40 years, including fisheries research on 
sharks of the Atlantic Ocean, Gulf of Mexico, Caribbean Sea and Pacific 
Ocean. For the past 21 years, I have served as one of only four 
academic members of NOAA'S Advisory Panel for Highly Migratory Species 
(sharks, tunas, swordfish, billfish), and have served on the Shark 
Specialist Group of the United Nations' International Union for the 
Conservation of Nature (IUCN) for about 20 years. I also am a Past-
President and currently serve on the Board of Directors of the American 
Elasmobranch Society (AES), the largest professional organization in 
the world comprising scientists, students, and other experts studying 
sharks and rays, collectively known as the elasmobranch fishes.
    My experience as a shark conservationist began in 1988, when I was 
made aware of the previously unknown practice we now call ``shark 
finning.'' I brought this wasteful and inhumane practice to the 
attention of the major media, beginning a 30-year career as an advocate 
for science-based shark conservation. For decades I have translated 
scientific discoveries to inform public policy that benefits shark 
populations and the communities and nations who value sharks as a 
marine resource. In 1991, I presented my data and concerns about an 
expanding, unregulated U.S. shark fishery to the Florida Marine 
Fisheries Commission, which took my recommendations and enacted the 
first management plan for sharks in Florida state waters. Florida has 
been a state leader in shark conservation ever since.
    I then championed shark research and science-based fisheries 
management and conservation on the Federal level beginning in 1993, by 
organizing an international conference that drew 150 scientists, policy 
makers, fishers and other stakeholders. At that meeting held at Mote, 
NOAA acted on this group's incredible momentum and announced its first 
Federal Fisheries Management Plan (FMP) for sharks. Since then I have 
remained actively engaged as a shark scientist and conservationist on 
many domestic fronts, including giving testimony to the House 
Subcommittee on Fisheries Conservation, Wildlife and Oceans in 1999, as 
Congress worked to close loopholes in Federal anti-finning laws.
    Knowing that many sharks migrate between the United States and 
other nations, I also have led efforts to improve shark fisheries 
sustainability and conservation measures abroad, particularly in Mexico 
and Cuba. One of our most exciting successes has been Cuba's National 
Plan of Action (NPOA) for sharks and rays, released in 2015. I 
participated in the plan's development, drawing upon my years of 
collaborative research with Cuban scientists in their home waters. I 
knew then, and know now, that conservation and management of sharks and 
rays must become more consistent internationally. Simply managing these 
stocks for sustainability in U.S. waters doesn't work, because these 
animals do not recognize political boundaries.
    The good news is that after 25 years of dedicated work by shark 
researchers, conservationists, NOAA and various state agencies, and the 
fishing industry, U.S. shark fisheries have become some of the best 
managed in the world, and many of our shark fisheries are healthy or 
rebounding from past over-exploitation. A 2017 paper by two renowned 
experts in global shark fisheries (attached) identified 18 U.S. shark 
and ray fisheries as being ``bright spots'' of sustainable fishing. 
This comprises about two-thirds of all the sustainable shark and ray 
fisheries in the world. Clearly, the United States is doing something 
right with respect to shark conservation and responsible fisheries 
management. How can the United States incentivize other nations to 
replicate our success, while continuing to encourage rule-following 
fishers and promote science-based management at home?
    I am here today to answer that question. I deeply thank the members 
and staff of the Subcommittee on Water, Power and Oceans for this 
opportunity.
                          scope of the problem
    Last month, H.R. 5248, the Sustainable Shark Fisheries and Trade 
Act, was introduced in the U.S. House. It utilizes a science-based 
approach to discourage overfishing and unsustainable trade of sharks 
and rays around the world and disincentivizes shark finning by foreign 
nations.

    Why is this necessary?

    Of the more than 1,250 species of sharks and rays in the world's 
oceans today, as many as one-quarter are estimated to be threatened 
with extinction. The conservation status of nearly half is poorly 
known. These fishes are particularly vulnerable to over-exploitation--
most grow slowly, mature late and produce few young. Overfishing, 
through targeted fisheries and incidental bycatch, is the primary 
threat to sharks and their relatives, which are harvested for their 
meat, fins, oil, cartilage and other products. Shark and ray meat is a 
major source of protein in some nations, and shark fins are used to 
make shark fin soup, a culinary delicacy in many Asian cultures. None 
of these uses of shark and ray products are in themselves unethical, as 
long as the animals from which they came were fished sustainably. That 
has been the problem--unsustainable fishing mortality of sharks--in 
addition to the cruelty and wastefulness of shark finning.
    It is important to understand the distinction between shark finning 
and the shark fin trade: finning is the act of cutting off a shark's 
fins and discarding the rest of the animal, often still alive, at sea. 
Without its fins, sharks will slowly die, as the fins do not grow back. 
It is a practice fueled by total disregard for the future of the 
resource, any consideration for humane treatment of the animals, and 
economic greed. On the other hand, taking fins from sharks landed 
onshore in regulated, legal and sustainable fisheries is not shark 
``finning.'' It provides a legal commodity for trade that encourages 
the full utilization of every shark, rather than throwing part of the 
resource away. Full utilization of landed sharks and rays is consistent 
with guidelines in the International Plan of Action (IPOA) of the Food 
and Agriculture Organization (FAO). Finning is banned in the United 
States and does not occur in our domestic fisheries, except rarely by 
lawbreakers subject to Federal and state prosecution. It also has been 
banned by at least 40 other countries to date, as well as by regional 
fishery management organizations such as ICCAT, the International 
Commission for the Conservation of Atlantic Tunas.
    Losing the sharks and rays from the marine environment would have 
dire consequences for marine ecology and the balance of life in the 
sea. Research has shown that removal of sharks from ocean communities 
such as coral reefs creates a ``trophic cascade'' of ecological effects 
down to the lowest levels of the food web, and can lead to the general 
degradation of the entire community. Losing sharks and rays also would 
lead to the loss of income and quality of life for fishing communities 
and seafood consumers, threatening food security in some developing 
nations that depend on these fishes as important sources of protein for 
human consumption. According to a recent, comprehensive FAO report by 
economist Felix Dent and shark specialist Dr. Shelley Clarke, global 
shark fisheries are conservatively valued at about $1 billion, with 
much of these fisheries under-reported. In 2011, total trade in shark 
products was valued at $438.6 million for the fins and $379.8 million 
for the meat. These figures apply only to international trade and do 
not include domestic use of shark products, which drives much of the 
global consumption for the around 2 million metric tons of sharks 
caught each year. The value of the shark tourism industry, which 
includes activities such as diving with sharks, is also estimated to be 
around $314 million annually.
    Because of the scope and complexity of shark and ray fisheries 
around the world, even our best efforts to manage these fishes in 
domestic waters cannot guarantee similar protections abroad. We can, 
however, create incentives for other nations to adopt standards of 
shark fishing similar to our own. This past January, the United States 
implemented the Seafood Import Monitoring Program (SIMP) to end imports 
into the United States of shark products from illegal, unreported and 
unregulated (IUU) fisheries, but the third U--unsustainable--is missing 
from these regulations, representing a critical loophole. For instance, 
a foreign shark fishery could be legalized and reported but deficient 
in law enforcement or scientific monitoring, leading to the same result 
of shark depletion by overfishing as in IUU fisheries. SIMP also does 
not currently include ray products in its monitoring program.
      a science-based policy that benefits both sharks and people
    H.R. 5248, the Sustainable Shark Fisheries and Trade Act introduced 
by Reps. Webster and Lieu, with the co-sponsorship of Reps. Posey, 
Jones, Clay, Soto and Bilirakis, provides a bipartisan, sensible 
solution to the need for U.S. domestic action in global shark and ray 
conservation. The Sustainable Shark Fisheries and Trade Act would 
require that shark and ray parts and products imported into the United 
States be permitted only from countries certified by NOAA as having in 
place and enforcing management and conservation policies for these 
species comparable to the United States, including science-based 
measures to prevent overfishing and provide for recovery of shark and 
ray stocks. Prohibitions on shark finning comparable to the U.S. ban 
also would be required.
    The predecessor bill, H.R. 1456, the Shark Fin Sales Elimination 
Act of 2017, sought to ban all shark fin trade within the United 
States, including fins obtained legally and sustainably by American 
fishers permitted in U.S. shark fisheries. This earlier bill catalyzed 
an important and productive public conversation about the threats to 
sharks worldwide in directed and bycatch fisheries. The proponents of 
H.R. 1456 are to be congratulated for their dedicated work on this 
issue and for moving the conversation toward finding real solutions for 
shark conservation. The bill did not cover threats to rays and focused 
solely on shark fins, not all shark products. In a peer-reviewed paper 
published late last year (attached), shark expert Dr. David Shiffman 
and I analyzed the consequences of a Federal domestic fin ban as 
proposed by H.R. 1456. We found this approach would fall short of 
providing the type of U.S. leadership that is needed for effective 
shark conservation around the world.
    H.R. 5248, the Sustainable Shark Fisheries and Trade Act, builds 
upon the progress made by H.R. 1456, by broadening protection for both 
sharks and rays, and also including restrictions on the trade of all 
shark and ray products, not just the fins. The bill creates incentives 
for change in fisheries management by nations seeking to export shark 
or ray products to the United States, rather than placing burdensome 
and unnecessary penalties on law-abiding American fishers.
    Passage of the Sustainable Shark Fisheries and Trade Act by 
Congress would help ensure that shark and ray products in U.S. markets 
are from fisheries managed under similar high standards that U.S. 
fisheries are already held to--a positive for the U.S. fishing 
industry. It also will give the U.S. Government leverage in working 
with other nations to establish an international system to conserve 
shark and ray populations, by rewarding sustainable fisheries 
management through permitted trade--a big win for the conservation of 
these vulnerable species.
    Most importantly, the Sustainable Shark Fisheries and Trade Act 
gives the American public a sensible answer to a reasonable question 
they often ask: How can we as U.S. citizens contribute to the cause of 
global shark conservation? We tell our fellow citizens to support 
international efforts to rein in IUU shark fisheries. We tell them to 
help with the effort to get all fishing nations to ban the practice of 
finning. We ask them to support the work of shark conservation NGOs and 
the research of shark scientists. But they want to know how they can 
promote U.S. legislation that will advance the cause of global shark 
conservation. H.R. 5248, the Sustainable Shark Fisheries and Trade Act, 
will give the American people an effective tool to say, ``No longer 
will we allow the import and consumption of unsustainably fished shark 
and ray products on American soil. Our participation as consumers in 
this practice ends now.'' The bill does this without punishing American 
fishers who are conducting legal and sustainable shark fishing, 
providing a model of responsible management and conservation for the 
rest of the world.
                         support for h.r. 5248
    As a leading shark scientist as well as a proactive advocate for 
shark conservation for the past 30 years, I support the Sustainable 
Shark Fisheries and Trade Act. It identifies the source of the problem, 
incentivizes foreign fisheries to adopt U.S. standards of 
sustainability, and rewards U.S. fishers for the gains that have been 
made in domestic shark fisheries management. Many of my fellow 
scientists have joined me in supporting H.R. 5248. The Wildlife 
Conservation Society (WCS) is submitting a scientists' letter of 
support for H.R. 5248 that includes approximately 60 (as of this 
writing) of the world's leading experts in shark science and fisheries. 
These signatories are all active marine science professionals with 
Ph.D. or Master's degrees. Included in the list are 12 Past-Presidents 
of the American Elasmobranch Society. These 12 scientists represent the 
best and brightest leaders in shark research and conservation over the 
past 25 years.
                      recommendations to congress
    In my capacity as an expert scientist specializing in the study and 
conservation of sharks and rays, and on behalf of Mote Marine 
Laboratory, I recommend that Congress take the following measures:

    <bullet> Pass the Sustainable Shark Fisheries and Trade Act, H.R. 
            5248, to significantly benefit shark and ray conservation 
            globally and law-abiding fishers domestically.

    <bullet> Provide the support to NOAA needed to carry out the 
            provisions of H.R. 5248, continue the collection of 
            research data to monitor and manage our shark and ray 
            fisheries, and assist other nations with implementing 
            science-based management of their shark and ray fisheries.

    <bullet> Increase the Federal penalties for shark finning, which 
            the Florida state legislature has recently done to punish 
            lawbreaking shark fishers and fin dealers.

    <bullet> Assist in the education of the public about the real 
            problems sharks and rays face, and empower American 
            citizens to support effective measures for shark and ray 
            conservation, in the United States and abroad.

                                 *****

The following documents were submitted as supplements to Mr. Hueter's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --``A United States shark fin ban would undermine sustainable shark 
            fisheries,'' by D.S. Shiffman and R.E. Hueter, Marine 
            Policy 85 (2017) 138-140.

    --``Bright spots of sustainable shark fishing,'' by C.A. 
            Simpfendorfer and N.K. Dulvy, Current Biology 27, R97-R98, 
            February 6, 2017.

                                 ______
                                 

 Supplemental Testimony from Robert E. Hueter, Ph.D., Director, Center 
 for Shark Research, Mote Marine Laboratory, Sarasota, Florida on H.R. 
                           5248 and H.R. 1456

                 MOTE Marine Laboratory & Aquarium,
                                          Sarasota, Florida

                                                     April 23, 2018

Hon. Don Beyer,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Beyer:

    It was a pleasure to testify before the House Subcommittee on 
Water, Power and Oceans on the shark issue last Tuesday. I truly 
appreciated your consideration and probing questions and respect your 
opinions on this important topic in marine conservation and your desire 
to understand more about the facts. I do, however, feel that some of 
the information that has been passed to you on this topic is slanted 
and just plain wrong. Please consider the following:

    <bullet> The statement that 73 million sharks are finned each year 
            is absolutely false. Once again, ``finning'' is being 
            confused with legitimate, sustainable shark fishing. The 
            reference to 73 million sharks arises from a careful study 
            of the Hong Kong fin market by renowned fin trade expert 
            Dr. Shelley Clarke about ten years ago. Her estimates were 
            that the fins of approx. 38 million sharks--with 73 million 
            being the highest estimate in her confidence interval--
            passed through the Hong Kong market every year. Never mind 
            that her numerical estimate was half of what is being 
            constantly quoted, and the fin trade has actually declined 
            in the past decade since Dr. Clarke did her study. The most 
            important fact is that these fins are not all from 
            ``finned'' sharks. As I explained in my testimony, finning 
            is not the same as taking the fins from sharks landed 
            onshore by non-finning fishermen. A huge portion of those 
            38 million sharks were harvested without finning, where the 
            nations doing the fishing were utilizing the whole animal. 
            Most developing nations do not fin sharks, as they need the 
            meat protein for human consumption. But they do send their 
            fins to the Hong Kong market so their fishermen can realize 
            revenue from the fins. There is nothing wrong with this. 
            The proper way to express this, then, is that Dr. Clarke 
            estimated that ``the fins of approx. 38 million sharks pass 
            through the Hong Kong market every year,'' back when she 
            did her study. Not that 38 million, or 73 million, or 100 
            million (as I've often heard) sharks are finned every year. 
            The difference is extremely important.

    <bullet> Shark finning is not legal in the United States. It has 
            been federally prohibited for nearly 20 years, and in some 
            states like Florida even longer than that. Any insinuation 
            that finning is commonly occurring in U.S. waters is a 
            deliberate attempt to misguide people. U.S. commercial 
            shark fishermen despise the practice and take matters into 
            their own hands if they hear of one of their fellow 
            fishermen doing this. Those lawbreakers are prosecuted. As 
            I stated in my written testimony, I recommend the penalties 
            for finning in U.S. waters be increased substantially, to 
            ensure that this is taken very seriously. But let's get it 
            straight: Finning is not a problem within the U.S. The 
            problem exists with other nations operating primarily on 
            the high seas. American fishermen should not be punished 
            for the sins of foreign fishermen.

    <bullet> Any analogy between the shark fin situation and elephant 
            ivory is without merit. First, elephants are almost never 
            killed for their meat, whereas tens of millions of sharks 
            are fished for their meat as well as their fins. Most 
            importantly, the U.S. is only a 1% player in the shark fin 
            market, whereas we were the major consumers of elephant 
            ivory before it was banned in the U.S. Thus our banning of 
            ivory collapsed that industry, but a similar ban on shark 
            fins won't have nearly the same kind of direct impact on 
            world trade. And finally, consider that too many elephants 
            are still being killed for their ivory, by poachers, so 
            it's not as if the ivory ban fixed the problem. In fact it 
            drove the practice underground and we've lost any kind of 
            accounting of how many elephants are being killed. We don't 
            want to do that with the shark fishing industry.

    <bullet> Traceability of the origin of fins is possible, we just 
            haven't committed to doing it yet. That is something the 
            Webster-Lieu bill will address, and it's clear that NOAA is 
            eager to discuss modifications to the bill that would best 
            allow for that. A proposal is under review by NOAA to study 
            the fin industry and develop a business model whereby all 
            U.S.-landed fins are tagged and fully traceable and 
            trackable to their source. If that project moves forward, 
            that will allow us to tell whether or not shark fins were 
            ``made in the U.S.A.''

    <bullet> It is absolutely reasonable to be totally against finning 
            but not against the trade and use of the fins, and still be 
            a shark conservationist. I don't think a single person in 
            the hearing chamber last Tuesday was for finning--that is 
            not the issue. The issue is how we keep out the fins from 
            finned sharks without penalizing the fishermen who are not 
            finning. H.R. 4258 accomplishes that objective, H.R. 1456 
            does not.

    <bullet> The fact is that many, I daresay most, of the proponents 
            of the domestic fin ban are actually committed to 
            eliminating all shark fishing in the U.S., sustainable or 
            not. This is where conservationism crosses the line over to 
            preservationism. These groups see the domestic fin ban as 
            the easiest and cheapest way to end the U.S. commercial 
            shark fishery. And that it will do, because without the 
            revenue for the fins, that fishery becomes untenable, 
            except perhaps for the dogfish fishery in the northeast 
            U.S.--which, by the way, has an exception and actually 
            allows removal of dogfish fins at sea. The conservation 
            groups who are pushing for the adoption of H.R. 1456 should 
            stop being disingenuous with the public and state that 
            their ultimate goal is the elimination of all fishing for 
            sharks, period. These factions have no faith in the 
            American system of fisheries management to achieve 
            sustainability in our shark fisheries. As a fellow shark 
            conservationist, I do not share this opinion of our 
            institutions with them.

    <bullet> As noted at the hearing, 12 states have banned the trade 
            of shark fins: Hawaii, California, Oregon, Washington, 
            Illinois, Delaware, New York, Massachusetts, Maryland, 
            Texas, Rhode Island and Nevada. What do these 12 states 
            have in common? None had a commercial shark fishery of any 
            size--except Massachusetts, which made sure it got the 
            exception for its dogfish, its major shark fishery. I note 
            that your state of Virginia has not banned shark fins--is 
            that because Virginia has a commercial fishery for sharks? 
            Let's be honest, the banning by the 12 states was 
            completely symbolic and did not affect its citizens, except 
            the Asian cultures living in those states. That will not be 
            the same for states such as Florida, North Carolina and 
            Louisiana, where much of the legal shark fishery is based. 
            As for the effect on Asian cultures, this brings up another 
            question: Is it the American way to take away an ethnic 
            group's right to consume a product if that product is safe 
            and has been produced legally, ethically and sustainably?

    <bullet> Finally, less than 10 of the approximately 150 
            ``scientists'' who signed on to the Oceana letter of 
            support for H.R. 1456 are actually scientists with leading 
            expertise in sharks or shark fisheries. In contrast, all 62 
            of the Ph.D. and Master's-level scientists who signed on to 
            the Wildlife Conservation Society (WCS) letter of support 
            for H.R. 5248 are recognized, active professional shark 
            researchers, experts in the field of sharks and shark 
            fisheries. The WCS letter signatories include 12 Past-
            Presidents of the American Elasmobranch Society, the 
            world's largest professional organization of shark 
            scientists. Which letter's group is better informed on this 
            issue? Clearly it's the group who signed the WCS letter.

    Congressman Beyer, I welcome the opportunity to discuss these 
points with you and your staff at your convenience. I myself feel 
largely responsible for the difficulties in this debate, because I was 
one of the very first scientists to begin this public conversation on 
the vital need to conserve sharks, 30 years ago. I have worked 
tirelessly since then to bring the science of sharks to the public and 
to policymakers. And I've been hugely successful--now, I feel, almost 
too successful, because the pendulum has swung unnecessarily from no 
conservation, past a new movement in shark conservation, over now to 
preservationism of sharks. I'd like to see reason and the facts stay 
within this debate as we bring this discussion back into balance.

    Thank you for your consideration of my views and I would be happy 
to provide further information on this matter at your request.

            Best regards,

                                   Robert E. Hueter, Ph.D.,
          Senior Scientist and Director, Center for Shark Research.

                                 ______
                                 

 Questions Submitted for the Record to Dr. Robert Hueter, Director of 
         the Center for Shark Research, Mote Marine Laboratory
                   Question Submitted by Rep. Lamborn
    Question 1. Supporters of H.R. 1456 have argued that such a ban on 
shark fin sales would send a message to other countries. What message 
do you think this ban would send?

    Answer. The supporters of H.R. 1456 are hoping the message the 
United States will send to other nations with a domestic fin ban is 
that shark fins should no longer be tolerated as a consumable product. 
This U.S. leadership, they hope, would end the global fin market, 
eliminate all shark finning, and recover shark populations worldwide. 
Analogies are made to past U.S. leadership in the elephant ivory trade 
and in commercial whaling. But as explained in Dr. David Shiffman's and 
my 2017 peer-reviewed paper in the journal Marine Policy,\1\ this 
approach is flawed and will not work, for several reasons. Unlike in 
the case of elephant ivory where the United States was the world's 
major consumer, we are only a 1 percent player in the world shark fin 
market, and thus our withdrawal from that market will not have the same 
type of direct effect on world trade of fins as happened with the ivory 
trade. In fact, it's reasonable to conclude that the small market share 
of shark fins that U.S. fishers currently supply will be taken up by 
nations fishing sharks unsustainably, probably even finning the sharks. 
Recall that U.S. fishers do not fin their sharks--that is, they do not 
remove the fins and discard the rest of the animals at sea, because 
American fishers are required to land all their sharks with the fins 
still ``naturally attached'' (with the exception of the northeast 
dogfish fishery, which is allowed to remove the fins at sea to begin 
processing the meat and fins on the fishing boat). So the consequences 
of this action will be to punish the fishers doing it right--U.S. shark 
fisheries--and reward the foreign fisheries doing it wrong. That is a 
terrible message to send the world.
---------------------------------------------------------------------------
    \1\ Shiffman, D. and R. Hueter. 2017. A United States shark fin ban 
would undermine sustainable shark fisheries. Marine Policy 85:138-140.
---------------------------------------------------------------------------
    Furthermore, our position at the international negotiating table 
where shark conservation issues are discussed will be compromised if we 
withdraw from the fin market. The message we will be carrying to that 
forum is, no matter what other nations do to create sustainability in 
their shark fisheries, it will never be enough to allow them to harvest 
the fins, in our view. This loss of leverage will backfire for U.S. 
attempts to advance shark conservation around the world. In addition, 
consider today's realities with elephants and whales: elephants are 
still being poached as the ivory trade has been driven underground, 
meaning we can no longer track this commodity through world trade 
routes, and elephants are still declining. And whales are still being 
hunted commercially by those nations who do not share our 
preservationist beliefs about marine mammals. Along these lines, a 
domestic fin ban also sends a message to Asian cultures that even if 
they are using the entire shark, even if the sharks are not being 
finned and the level of fishing for them is sustainable, their use of 
fins to make soup is unethical. This creates a clash of cultural 
values, both internationally and domestically, and our moral position 
will be difficult to defend.
    Finally, by focusing our legislative efforts solely on the fin 
trade in the United States, we send a message to American citizens that 
we are solving the worldwide problem in shark depletion by banning the 
fins here. Conservation groups then declare victory to their 
supporters, Congress moves on to other issues, and the U.S. public 
thinks the problem has been solved. Nothing could be further from the 
truth, as sharks will continue to be caught by other nations for their 
meat and fins and suffer unsustainable levels of bycatch mortality in 
foreign fisheries. This is where H.R. 5248 represents an evolution of 
thinking in how to address the issue, by not simply focusing on the 
fins and also including the rays, which are in as serious trouble as 
the sharks worldwide.
    Therefore, in my view the message we will be sending the world if 
we implement a nationwide, domestic ban of the shark fin trade is this: 
The United States does not believe in sustainable fishing for sharks, 
we do not subscribe to the full use doctrine for marine resources as 
laid out by the Food and Agriculture Organization (FAO) of the United 
Nations, we condemn Asian cultures for their consumption of shark fins 
even from sustainable shark fisheries, and we are okay with damaging 
our own domestic fisheries to construct a purely symbolic but misguided 
and ineffective message for shark conservation.
                   Questions Submitted by Rep. Sablan
    Question 1. Do you believe that the United States does an adequate 
job at conducting regular stock assessments for shark species in U.S. 
waters?

    Answer. Stock assessments, the quantitative analysis of the status 
of a fish stock, are complicated and costly procedures. The average 
national cost of each stock assessment by NOAA has been estimated to be 
approximately $1.7 million.\1\ Factors limiting the number of stock 
assessments that can be conducted include adequate funding, adequate 
staffing, and adequate data. For sharks, data was a major problem when 
species identification was poorly done and a number of species were 
lumped into broad categories, which was not conducive to conducting 
species-specific stock assessments. This is less of a problem today 
with the evolution of data collection from shark fisheries and the 
commitment of Federal and state management to shark conservation. 
However, adequate fisheries-dependent and fisheries-independent data 
can still be problematic, although a number of new quantitative 
approaches have emerged that allow assessments for data-poor cases.
---------------------------------------------------------------------------
    \1\ Merrick, R. and R. Methot. 2016. NOAA's cost of fish stock 
assessments. https://www. npfmc.org/wp-content/PDFdocuments/CM/2016/
102016/NOAA_FisheriesCostofStockAssessments. pdf.
---------------------------------------------------------------------------
    On the Federal level, NOAA conducts an average of perhaps one or 
two stock assessments for sharks each year. Given the number of shark 
species being managed (23 authorized species for commercial fishing, 19 
prohibited species, 42 total species in the Atlantic and Gulf 
commercial shark fishery), this pace of assessments has a hard time 
keeping up with the needs for effective management. Priority of stock 
assessments has been placed on critical species such as sandbar and 
dusky sharks undergoing rebuilding, as well as important species to 
commercial and recreational fisheries such as the blacktip shark and 
several small coastal species. For pelagic sharks, ICCAT has recently 
assessed the shortfin mako in the Atlantic. But some species such as 
the great hammerhead have been inadequately assessed, raising the level 
of concern for these sharks. Stock assessments must be repeated on a 
regular basis, furthermore, to monitor changes in stock status. 
Ideally, all shark stocks should be assessed at least every 5 years, 
but this goal is probably impractical.
    The challenge for NOAA is balancing the cost of these stock 
assessments with the value of the shark fishery. On a pure economic 
level, it is difficult to reconcile the relatively low value of U.S. 
shark fisheries with the relatively high cost of stock assessments. But 
on a conservation and environmental level, these stock assessments are 
critical to understanding the status of sharks in U.S. waters. NOAA has 
dedicated a large portion of its budget to increasing the pace of stock 
assessments for all federally managed fisheries, including sharks, and 
we conduct more assessments of sharks than any other nation. This has 
helped make us the leader in shark conservation and management that we 
are today.

    Question 2. Do you think the United States should prohibit the 
fishing of additional shark species? If so, which species should be 
prohibited?

    Answer. Placing species on the prohibited list should only be done 
with data-based justification. At present there are 19 species of 
sharks on the prohibited list for commercial fishing and 21 species 
prohibited for recreational fishing. The two sharks that concern me and 
are not on the completely prohibited list are the oceanic whitetip 
shark and the hammerheads (a complex of three species). These sharks 
are prohibited to be landed by boats possessing pelagic fishing gear or 
other pelagic fishes (such as tunas and swordfish), but in my view, 
complete prohibition of retention of these sharks is called for. The 
oceanic whitetip shark is a relatively clear-cut case, in my opinion, 
of a severely depleted species, now listed as Threatened under the U.S. 
Endangered Species Act (ESA), which should always be released. The 
problem with the hammerheads is their post-release survivorship can be 
very poor, especially with the great hammerhead because of its 
physiological sensitivity to struggling while on fishing gear. Thus 
releases of that shark species might not provide as much benefit as 
hoped. In this case, other measures might be needed to minimize bycatch 
in addition to requiring all caught animals be released. Note that the 
state of Florida has made hammerheads a prohibited species group in 
state waters.

    Question 3. In what way would you say the United States is lacking 
most in its management of shark fisheries?

    Answer. At one time not too long ago, there were almost no 
regulations on shark fishing in the United States. Now, after 25 years 
of dedicated work by scientists, conservationists, NOAA, state 
agencies, and the fishing industry, U.S. shark fisheries have become 
some of the best managed in the world, and many of our shark fisheries 
today are healthy or rebounding from past over-exploitation. Eighteen 
U.S. shark and ray fisheries have been identified as ``bright spots'' 
of sustainable fishing by independent international experts.\2\ 
Clearly, the United States is doing something right with respect to 
shark conservation and responsible fisheries management.
---------------------------------------------------------------------------
    \2\ Simpfendorfer, C.A. and N.K. Dulvy. 2017. Bright spots of 
sustainable shark fishing. Current Biology 27:R97-R98.
---------------------------------------------------------------------------
    Even so, improvements can be made to U.S. shark fisheries 
management, to make it more visionary. Management tends to be reactive 
and crisis-responding, rather than proactive with incentives to move 
the fishery toward 100 percent sustainability. Defined targets for 
stock size, other than ``not overfished,'' are often lacking. I have 
advocated that we direct the fishery away from some of the more 
vulnerable large coastal species and toward targeting the faster-
growing, high-yield species like the blacktip shark, which exists as 
healthy stocks in the U.S. Atlantic and Gulf. This recommendation for 
more proactive management has largely fallen on deaf ears, with 
managers choosing to follow the lead of the fishery and then reactively 
deal with the problems that crop up. This does not have to be the case, 
but is symptomatic of U.S. fisheries management in general. With more 
proactive management in collaboration with the commercial and 
recreational fishing sectors, research and stock assessments could be 
better focused on target and bycatch species, and the fisheries could 
become even more economically viable for long-term sustainability.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    I want to thank the entire panel for being here today and 
for giving us your helpful testimony.
    We will now move into questions on H.R. 1456 only. We have 
two additional bills up for consideration, and I would ask 
people to reserve their questions on those two bills after each 
of those later two bills have been introduced by the bill 
sponsors.
    I would like to remind Members that Committee Rule 3(d) 
imposes a 5-minute limit on questions. I will begin with myself 
and then recognize the Ranking Member, but before I do that I 
would ask unanimous consent that we receive into the record 
five letters in opposition to H.R. 1456. Hearing no objection, 
so ordered.
    [The information follows:]
Florida wildlife officials won't support federal shark fin ban

POLITICO Florida

Bruce Ritchie

July 10, 2017

https://www.politico.com/states/florida/story/2017/07/10/florida-
wildlife-officials-wont-support-federal-shark-fin-ban-113289

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   In May, more than 100 Florida dive shops sent a letter to the 
                    state's congressional delegation

           asking it to support a ban on the shark fin trade.

State wildlife officials said Monday they are not supporting federal 
legislation that would ban the trade of shark fins.

Shark fins are valuable in Asian countries for a soup that is believed 
to increase sexual potency. Environmental groups support eliminating 
the trade to prevent shark finning, the illegal practice of cutting off 
fins and leaving sharks to die. Shark fins can be sold legally along 
with other shark meat.

In May, more than 100 Florida dive shops sent a letter to the state's 
congressional delegation asking it to support a ban on the shark fin 
trade. H.R. 1456, which has eight Florida co-sponsors, would prohibit 
the possession or sale of shark fins.

But state officials told the Florida Fish and Wildlife Conservation 
Commission meeting in Orlando on Monday they don't support the bill 
because of the impact it would have on commercial fisherman and because 
shark finning is illegal now.

``We don't believe it will improve the sustainability of the shark 
fishery,'' Brian McManus, the commission's representative in 
Washington, said of the federal legislation.

In the recent state legislative session, S.B. 884 would have 
established a similar ban in state law.

Facing opposition from commercial fishermen, the bill was watered down 
by the Legislature to only increase fines for illegal shark finning. 
The bill was signed into law by Gov. Rick Scott on May 23.

Robert Hueter of Mote Marine Laboratory in Sarasota told the commission 
to listen to its staff and not support a ban on the trade. He said a 
ban would not affect the international market in countries that do not 
promote sustainable shark fishing.

``In short, we'll be punishing the good guys and rewarding the bad 
ones,'' he said.

But Lora Snyder with the Oceana environmental group said shark fins 
still are being imported into Florida from countries, such as China, 
without finning bans.

And she said tourists spend $221 million a year on diving trips in 
Florida to see sharks and that a survey showed 88 percent of Floridians 
support a ban on the trade. She said 12 states have adopted bans on the 
shark fin trade.

And she compared the issue to the U.S. ban on ivory typically harvested 
through elephant poaching.

``In the United States we said no more ivory,'' Snyder said. ``That's 
what we want to see done [with shark fins) here in the United States as 
well.''

Commissioner Ron Bergeron said Florida represents only 1 percent of the 
global shark fin trade. He also said he was taught ``to use every 
part'' of the animals and fish he killed.

``To discard the fins onshore just seems like a waste to me,'' Bergeron 
said. ``It impacts our fishermen. I really don't think it [shark 
finning] will stop.''

Commissioner Robert A. Spottswood questioned why the state allows shark 
fins to be imported from countries that haven't banned finning. Agency 
executive director Nick Wiley said the responsibility for regulating 
imports may fall on the federal government rather than the state.

``This is definitely something we could look into,'' said Jessica 
McCawley, director of the agency's Division of Marine Fisheries 
Management.

Florida co-sponsors of H.R. 1456 are Republicans Carlos Curbelo, Vern 
Buchanan, Matt Gaetz and Ted Yoho and Democrats Charlie Crist, Ted 
Deutch, Darren Soto and Debbie Wasserman Schultz.

                                 ______
                                 

                 Mote Marine Laboratory & Aquarium,
                                          Sarasota, Florida

                                                     April 21, 2017

Hon. Dan Webster,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressman Webster:

    I am writing to express my opposition to H.R. 1456, the ``Shark Fin 
Sales Elimination Act of 2017,'' which has been referred to the House 
Natural Resources Committee, on which you serve. I am a senior 
scientist at Mote Marine Laboratory in Sarasota, Florida. Mote is an 
independent, not-for-profit research and education organization 
dedicated to science-based marine conservation. Mote's international 
reputation in shark expertise goes back more than 60 years to our 
laboratory's founding in 1955, by Dr. Eugenie Clark, our famous ``Shark 
Lady.''
    As the Director of Mote's Center for Shark Research, which was 
established by the U.S. Congress in 1991 as the nation's designated 
research center for studies of sharks, I have more than 40 years of 
experience with the issues addressed by H.R. 1456. This includes 
scientific research, advising federal and state resource agencies, 
collaborating with commercial and recreational fishing industries, 
conservation education, and domestic and international policy work. I 
have been a leading, outspoken advocate for shark conservation 
worldwide, often appearing in national and international media to 
convey the message of the value, importance and vulnerability of 
sharks.
    There is no question that in many parts of the world, sharks have 
been severely depleted through overfishing. Credible studies of shark 
fishery landings over the past ten years estimate that on the order of 
100 million individual sharks were caught and killed in world fisheries 
each year. Most of this fishing pressure is no doubt unsustainable and 
urgent action is needed to decrease shark mortality. Many of these 
sharks have been ``finned'' at sea, that is, their fins were cut off 
for the sharkfin soup trade and the rest of the animal, dead or alive, 
was discarded. This is an inhumane, wasteful and reprehensible practice 
that should be declared illegal worldwide.
    Within the U.S., however, things are different. Federal management 
of the U.S. shark fishery has been in place since 1993, and state 
management of shark fishing in Florida has been in place since 1992. 
Today we have one of the most effective systems in the world for shark 
fisheries management and conservation. Commercial shark fishermen with 
federal and state permits rely on the sale of the fins, in addition to 
the meat and other products, to support their industry. The fins these 
American fishermen are selling come from legally caught, sustainably 
managed sharks.
    They are not from ``finned'' sharks--that practice is already 
illegal in this country. To prevent finning, all sharks must be landed 
with fins still attached. Anti-finning laws are in place, both 
federally and in a number of coastal states including Florida, and if a 
commercial fisherman is caught finning at sea, he is guilty of a crime 
and is prosecuted. In fact in Florida right now, a bill is working its 
way through the state legislature that will dramatically increase the 
penalties for anyone caught finning sharks.
    H.R. 1456 is not about ending finning, therefore, but instead will 
cause the demise of a legal domestic industry (which is active and 
present in Florida) that is showing the rest of the world how to 
utilize sharks in a responsible, sustainable way. This bill will do 
nothing to effectively combat the practice of finning on the high seas 
and in other countries, where the real problem lies, and it will not 
significantly reduce mortality of the sharks killed in global fisheries 
every year. This is because the U.S. supply of shark fins to Asia, the 
major consumer of fins, comprises less than 3% of the global total. 
Shutting down the U.S. supply, therefore, will have no real impact on 
this market. In fact, by prohibiting American commercial fishermen from 
participating in the legal shark fin trade, H.R. 1456 actually creates 
more market share for those countries not practicing legal and 
sustainable shark fishing. It will therefore punish the good people--
American fishermen--and reward the bad people, the foreign fleets 
practicing finning and illegal, unreported and/or unsustainable (IUU) 
fishing. This effect will be particularly hard-felt in Florida, where 
we have about 120 commercial boats with directed shark permits and 130 
boats with incidental shark permits, plus 30 licensed dealers for shark 
products. That is a significant number of jobs and impact for the 
Florida economy that H.R. 1456 will eliminate.
    So although it is well-intentioned to benefit the cause of shark 
conservation, H.R. 1456 will be ineffective in making a dent in the 
global problem of shark overfishing and will, instead, create 
unnecessary hardship back at home. Please understand, I believe the 
conservation of sharks is of paramount importance to the health of our 
oceans and the economies of our coastal states and fisheries. I also 
recognize that federal and state bills such as H.R. 1456 are promoted 
by well-meaning individuals and organizations who think they are doing 
the right thing for shark conservation. Unfortunately these actions 
ignore the details, are at best symbolic, and are at worst 
counterproductive. They are a distraction from the real need to certify 
imports of seafood products into the U.S. and forge international 
agreements to end overfishing of sharks worldwide.
    Some think that if we Americans make a sacrifice and outlaw the 
consumption of shark fins here, it will motivate other countries to do 
the same. The problem with this approach is we are dealing with both a 
fundamental cultural difference as well as a trade imbalance. An 
analogy is often made between shark fins and elephant ivory. When the 
sale of ivory was prohibited in the U.S., it supposedly ended the 
practice of taking ivory from elephants in Africa, so why shouldn't 
this work with shark fins? The problem is this is a false analogy, 
because it fails to take into account that for ivory, the U.S. was the 
major consumer. That is not the case for shark fins and so a domestic 
ban here does little to impact global demand and consumption. And this 
example also ignores the fact that elephant poaching continues in 
Africa, where the ban has actually driven that trade underground where 
it cannot be documented and regulated. We don't want the same 
unintended consequences to happen with the shark fin trade.
    What can we do instead on the domestic front to effectively advance 
the cause of shark conservation? First, we can increase the penalties 
for fishermen caught finning in U.S. waters, as Florida is now doing 
for its state waters. Next, the federal government should get serious 
about certifying fishing nations as either compliant or non-compliant 
with the standards set in the Shark Conservation Act of 2010. Imports 
of shark products from the non-compliant nations should then be 
prohibited, using GATT standards of environmental sustainability. 
Finally, we should incentivize our own American fishermen to supply the 
demand for shark fins in the Asian communities of our cities in the 
U.S. This is a common sense approach that would punish the bad guys and 
reward American fishermen for complying with heavy regulation and doing 
the right thing. I believe this is the best example we can set for the 
rest of the world on this issue.
    Thank you for your consideration of my views. I am happy to answer 
any questions or provide any additional information you may require.

            Sincerely,

                                   Robert E. Hueter, Ph.D.,
                             Associate Vice President for Research,
                     Directorate of Marine Biology and Conservation
                           Perry W. Gilbert Chair in Shark Research
                          Director of the Center for Shark Research

                                 ______
                                 

                                STATE OF LOUISIANA,
                       Department of Wildlife and Fisheries

                                                       July 7, 2017

Mr. Acy Cooper, President
Louisiana Shrimp Association
P.O. Box 1088
Grand Isle, Louisiana 70358

Re: Shark Fin Trade Elimination Act of 2017, S. 793 , H.R. 1456

    Acy:

    As requested by you on June 7, 2017, the department has reviewed 
the text of Senate bill 793 and House Resolution 1456, also known as 
the ``Shark Fin Trade Elimination Act of 2017'' and the ``Shark Fin 
Sales Elimination Act of 2017,'' respectively. The bills, in their 
current form, would place unnecessary economic burdens on Louisiana 
shark fishermen. As long as responsible management is in place, which 
is currently the case for sharks in the Gulf of Mexico, there is no 
need for this legislation.
    The purpose of these bills as stated by the authors is to ``curtail 
the act of `finning' sharks while reducing the U.S. contribution to the 
global shark fin market.'' The practice of shark finning is already 
illegal in the United States and Louisiana and has been since the 
2000s. All sharks landed in Louisiana must have their fins naturally 
attached until landed. Once a shark is landed in Louisiana, these fins 
may then be removed and processed separately.
    Information available on NOAA's National Marine Fisheries Service 
commercial statistics website shows that in 2015, 17,059 kilograms 
(37,530 pounds) of shark fins were exported from the United States to 
other countries while 24,016 kilograms (52,835 pounds) of shark fins 
were imported from other countries. The total estimated global shark 
fin trade, was an estimated 17,500 metric tons (according to a 2015 
F.A.O. report on the state of the global market for shark products). 
These U.S. total imports and exports amount to less than 1% of shark 
fins traded globally. This bill will likely have little impact on the 
global trade in shark fins, especially the illegal trade of shark fins. 
The majority of shark fin exports do not move through the United 
States. The majority of fins exported from the United States, in the 
past, moved through California to the Hong Kong Market. However, since 
the California ban on shark fins in 2015, the shark fin trade now 
mainly flows through Mexico and Canada in North America. These bills 
will do little to reduce global trade or curtail illegal practices on 
the high seas, but will economically impact responsible U.S. fishermen. 
Data for 2016 were not yet available.
    Sharks are indeed a vital part of the marine ecosystem, however 
those sharks harvested in the United States, along with their fins, are 
sustainably harvested in accordance with regulations and quotas 
established by the NOAA Fisheries Highly Migratory Species Division and 
the State of Louisiana. By eliminating a domestic market for legally 
harvested fins, this legislation will only have adverse impacts on 
Louisiana fishermen who legally harvest sharks and their fins as well 
as the coastal fishing communities where they live. These bills will 
create unnecessary regulatory waste of legally harvested shark parts by 
not allowing fishermen to sell fins from a legally harvestable shark 
species. These bills ban one part, the most valuable part, of an 
otherwise legally harvestable animal creating a situation in which an 
entire fishery would effectively be shut down. They will either not 
affect global shark fin markets, or at worst, will encourage further 
development of unregulated harvest to replace the regulated U.S. 
landings.
    The shark fishery is an important winter fishery in Louisiana as it 
provides a critical seasonal source of income to a number of commercial 
fishermen until other fisheries open later in the year.
    Possible alternative measures to allow the legal shark fishery of 
the U.S. to continue to harvest and sell legally obtained fins while 
working to reduce illegal finning practices:

  1)  Legislation mandating tracking and traceability of legally 
            harvested fins as opposed to an outright ban.

  2)  Provide for tracking and traceability measures of imported and 
            exported fins to determine legal origin of those fins 
            originating from or entering into the U.S.

  3)  Prohibit the importation or exportation of shark fins that can' t 
            be verified to have come from legally landed sharks.

    If you have any further questions regarding this issue, please feel 
free to contact Jason Adriance at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85efe4e1f7ece4ebe6e0c5f2e9e3abe9e4abe2eaf3">[email&#160;protected]</a> or at 
504.284.2032.

            Sincerely,

                                            Jack Montoucet,
                                                         Secretary.

                                 ______
                                 

The Shark Scientists Opposed to a U.S. Ban on the Shark Fin Trade

NewsDeeply

Sophie Yeo

September 26, 2017

https://www.newsdeeply.com/oceans/articles/2017/09/26/the-shark-
scientists-opposed-to-a-u-s-ban-on-the-shark-fin-trade

The United States Congress is considering legislation to impose a 
national ban on the shark fin trade in a rare bipartisan move to stop 
the slaughter of a top ocean predator whose body parts are used to make 
soup.

Conservationists are cheering, right?

Not quite.

Some scientists argue such a law is a misguided effort that could set 
shark conservation back decades. Banning all trade in shark fins would 
damage sustainable shark fisheries in the U.S., create unnecessary 
waste and have little impact on the global market for shark fins, say 
marine biologists David Shiffman of Simon Fraser University in British 
Columbia and Robert Hueter, a senior scientist at the Mote Marine 
Laboratory in Sarasota, Florida. The two shark specialists outlined 
their views in a paper published recently in the journal Marine Policy.

``Many environmental activists want a solution that can fit on a bumper 
sticker, when really it's a complicated, worldwide trade involving many 
different types of species in over 100 countries, and the solution is 
going to be complicated,'' said Shiffman.

Shark finning--the practice of removing the fins of a living shark and 
discarding the body at sea--is already banned in the U.S. But fishers 
can still legally catch a certain quota of sharks and sell both the 
meat and the fins.

A 2013 study estimated that humans kill as many as 100 million sharks 
each year.

The bill pending in the Senate, called the Shark Fin Trade Elimination 
Act of 2017, would prohibit the sale of shark fins across the U.S., 
with violators facing a fine of up to $100,000. A companion bill is 
also progressing through the House of Representatives.

A similar bill died in Congress last year. But this time, its 
supporters are optimistic. They have two years to pass the legislation 
and have gained the support of Democrats and Republicans, including 
Arizona Republican John McCain.

Supporters say that a ban would hurt the global market for shark fins 
and contribute to the decline in the industry worldwide.

But the number of fins that the U.S. imports each year is tiny, 
according to Shiffman and Hueter.

At just 0.2 percent of the global trade, a ban would barely make a dent 
in the global market. Some of these imports come from sustainable 
fisheries abroad, they say, while others are imports of sustainably 
caught U.S. fins that have been exported for processing.

``The U.S. is a relatively small contributor to the global shark fin 
trade,'' says Shiffman. ``Removing our fins from the market is not 
going to have an impact on the global market directly, in terms of the 
numbers of sharks killed.''

In fact, a ban could have the opposite effect, Shiffman and Hueter 
write in their paper, by causing a rise in shark mortality. Shark meat 
sales bring in around $3.3 million each year in the U.S., while shark 
fins are valued at around $1 million.

Supporters of the ban have suggested that the legislation could 
indirectly target the global trade, causing the price of shark meat to 
fall by removing the most valuable part. That could prompt fishers to 
switch to other species.

But Shiffman and Hueter write that a ban could easily have the opposite 
effect: forcing fishers to catch more sharks to make up the financial 
shortfall from the loss of fin sales.

They also say the legislation could also hamper efforts to create 
sustainable fisheries around the world by eliminating a model of 
successful management and compromising U.S. efforts to persuade other 
countries to follow its lead.

The space left by the U.S. could end up being filled by countries that 
practice inhumane and unsustainable shark fishing practices, according 
to Shiffman and Hueter.

Ultimately, they note, a shark fin ban fails to tackle the main threat 
facing sharks: overfishing. While the global trade in shark fins is 
declining, the trade in shark meat is rising. According to the most 
recent reliable figures from the United Nations, the trade in shark 
fins declined by around 18 percent between 2003 and 2011, while the 
trade in shark meat increased by 42 percent during that time.

``Shark fin soup is not the enemy,'' Hueter said. ``The enemy is 
overfishing and killing too many sharks, and this ban will not in 
itself directly reduce the numbers of sharks that are killed every year 
by fishermen.''

He and Shiffman say they would support some form of amended 
legislation, such as a sustainability certification program for shark 
fin imports.

But other scientists believe the only option for shark conservation is 
an outright ban on the shark fin trade.

Steve Palumbi, professor of biology at Stanford University, says one 
problem is that a legal market for fins could allow smuggled imports 
from unregulated fisheries. ``This danger to sharks everywhere would be 
so that a few U.S. fishermen would reap the benefit of taking large 
fins from sharks killed on swordfish lines.''

Neil Hammerschlag, a research assistant professor and shark expert at 
the University of Miami, emphasized that given the conservation 
challenges facing sharks, doing something was still better than doing 
nothing.

``It might have a cascading effect to other nations that want to do the 
same thing,'' he said. ``You have to be the first person in the pond to 
drop a pebble if you want to see a ripple effect. This could be a Band-
Aid solution until shark populations are recovered.''

                                 ______
                                 

       Participants in the Sustainable and Conservatively-Managed

   U.S. Commercial Shark Fishery Respectfully Urge Congress to Oppose

        the Shark Fin Trade Elimination Act, S. 793 & H.R. 1456

    We are commercial shark fishermen and fish houses that deal in 
sharks. As such, we are directly impacted by the Shark Fin Trade 
Elimination Act (``SFTEA''), S. 793 & H.R. 1456, introduced in the 
Senate and House by Senator Booker and Representative Royce, 
respectively. We strongly urge you to oppose SFTEA, which will destroy 
U.S. jobs and harm coastal economies while providing no environment 
benefits.
    SFTEA requires fishermen to discard a valuable food product, the 
shark fin. It deprives hardworking fishermen of income and struggling 
fishing communities of much needed economic activity. It would have a 
small but negative impact on the United States' balance of trade with 
China. Perhaps worse of all, it would mean more sharks are caught in an 
unsustainable way.

    To be clear, SFTEA would spell the end to virtually all legal and 
sustainable commercial shark fishing in the United States. On average, 
roughly half the value of an adult coastal shark is in its fins. 
Accounting for fuel, bait, crew, and equipment costs incurred in a 
fishing trip, loss of fin revenue would make directed shark fishing 
unprofitable. This fishery contributes a significant--and for some of 
us, the overwhelming majority--of our income. Given that fishermen face 
significant fixed costs, such as vessel mortgages and insurance, these 
bills threaten our continued ability to maintain our businesses and 
provide for our families.

    We oppose the practice of shark finning. The industry supported 
Congress' past efforts to end the practice here and abroad. Shark 
finning wastes healthful protein that can feed a hungry world. 
Moreover, our industry has been harmed by illegal shark fins that 
compete unfairly with our legal product. Ironically, banning trade in 
domestic shark fins only opens the international market for more 
unsustainably harvested shark fins from nations unbound by U.S. law.

    To be clear, the only beneficiaries of these bills will be the 
unregulated international fleets engaging in the very practice these 
bills seek to end. While the amount of fins the U.S. exports are 
relatively minor, recently on the order of three percent, that share of 
the market will go to fishermen in other countries for whom shark 
finning provides a cost advantage.

    We also support efforts to maintain a well-managed and sustainable 
shark fishery in the U.S. and globally. While we believe some sharks' 
abundance justifies higher catch quotas, there is no dispute that U.S. 
management has resulted in a tremendous growth in domestic shark 
populations. Last year's survey found an astonishing 65 percent more 
sharks than the one prior. The index of shark abundance in 2015 was the 
highest in its 29-year history. As a result, the National Marine 
Fisheries Service just increased the retention limit on large coastal 
sharks.

    This resurgence of sharks was built on our sacrifices over the past 
twenty-plus years. Those of us that remain in business have weathered 
quota reductions of more than fifty percent. That has meant many lean 
years. All that sacrifice will be for naught, however, should S. 3095 
and H.R. 5584 become law.

    These bills are inconsistent with the Magnuson-Stevens Fishery 
Conservation and Management Act. Its primary objective is to maximize 
food production, economic returns, and recreational opportunities in a 
manner consistent with maintaining healthy marine resources and 
environments. The United States has demonstrated that it is possible to 
conduct a responsible and profitable shark fishery, one that serves as 
a model for other nations. Mandating waste of a valuable and renewable 
marine product, as does the SFTEA, is not consistent with our 
management principles. It is also not consistent with the Magnuson-
Stevens Act to render a sustainable fishery uneconomic. There is no 
reason to expect other nations would follow this wasteful example.

    SFTEA is of concern to all commercial fishermen. If Congress were 
to eliminate a responsible fishery without regard to science, 
economics, management principles, or practical effect to satisfy narrow 
special interest groups, all fisheries are at risk. That is part of the 
reason groups like the Sustainable Shark Alliance, Garden State Seafood 
Association, North Carolina Fisheries Association, Southeastern 
Fisheries Association, Blue Water Fishermen's Association, and 
Louisiana Shrimpers Association--represent more than shark fishermen--
also oppose these bills.
    Attached is brief fact sheet on the domestic shark fishery that 
details these and other concerns we have with the Act. We are happy to 
answer any questions you have or provide any further information you 
may find helpful. You may contact our representative, Mr. Shaun Gehan, 
at (202) 412-2508 for more information.

            Sincerely,

        Safe Harbour Seafood,         Bryant Products,
        Bon Secour, AL                Bayou La Batre, AL

        Madeira Beach Seafood,        Save On Seafood,
        Madeira Beach, FL             St. Petersburg, FL

        Seafood Atlantic,             Greg Abrams Seafood,
        Port Canaveral, FL            Panama City, FL

        AP Bell Seafood,              Fishermen's Ice & Bait,
        Madeira Beach, FL             Madeira Beach, FL

        Kings Seafood,                Wild Ocean Market Seafood,
        Port Orange, FL               Titusville, FL

        Omni Shrimp Company,          Day Boat Seafood,
        Madeira Beach, FL             Lake Park, FL

        Phoenix Fisheries,            DSF, Inc.,
        Southport, FL                 Daytona Bch., FL

        Hull's Seafood Markets, 
        Inc.,                         Phillips Seafood,
        Ormond Beach, FL              Townsend, GA

        Ocean Fresh Seafood,          Venice Fish and Shrimp,
        New Orleans, LA               Venice, LA

        Southern Seafood Connect'n,   Crystal Coast Fisheries,
        Crisfield, MD                 Morehead City, NC

        Avon Seafood,                 Wanchese Fisheries,
        Avon, NC                      Wanchese, NC

        O'Neal's Sea Harvest,         Jeffery's Seafood,
        Wanchese, NC                  Hatteras, NC

        B & J Seafood,                Willie R. Etheridge Seafood,
        New Bern, NC                  Wanchese, NC

        Crystal Coast Dayboat 
        Seafood,                      Viking Village Seafood,
        Morehead Cy, NC               Barnegat Light, NJ

        Carolina Seafood,
        Rutledge Leeland, SC


 
 
 
F/V Angelina             F/V Blake                F/V Blue Water
F/V Chase                F/V Coupe de Grille      F/V Fishhawk
F/V Honey Bee            F/V Juma                 F/V Michelle Marie
F/V Miss Brianna         F/V Miss Maggie          F/V Miss Rita
F/V Rachaelle Nicole     F/V Right Stuff          F/V Sword Fish
F/V Taurus               F/V Tobo                 F/V Boss Lady
F/V Miss Alexis          F/V Miss Jessica         F/V J. O'Neal
F/V Reel of Fortune      F/V B.C.                 F/V Bobalou
F/V Butter               F/V Sharon G             F/V Watersport
F/V Little Clam          F/V Windy Gale           F/V Logan's Luck
F/V M B                  F/V Miss Megan           F/V Shannon D
F/V Sundog               F/V Bout Time            F/V Raven
F/V Sarah Brent          F/V Miss Kaleigh         F/V Miss Madeline
F/V Salvation            F/V Wahoo                F/V Miss Stevie
F/V Shannon Dun          F/V Miss Everett         F/V Blue Fin
F/V Body Count           F/V Little Jo            F/V Gail Mist II
F/V Haley Rose           F/V Black Jack           F/V No Limit
F/V Toucan               F/V Jodie Lynn III       F/V Lady Martiza
F/V Out of Hand          F/V Islander             F/V Top Tuna
F/V Fish Hound           F/V Captain Lynn         F/V Miss Shell
F/V Lisa Ann             F/V Daytona              F/V Miss Haley II
F/V Right on Time        F/V Crosswinds IV        F/V Miss Brenda Louise
F/V Leo B.               F/V Endeavor             F/V Jean Marie
F/V Miss Ann             F/V Capt. Gorman III     F/V Denise Ann
F/V Hull's Sea Lover     F/V 2nd Wind             F/V Pancake
F/V Elizabeth            F/V Emily's Weigh        F/V Albi
F/V Big Eye              F/V Chances R III        F/V Christopher Joe
F/V Day Boat III         F/V Day Boat One         F/V Day Boat Too
F/V Die Trying           F/V Dusty Boy            F/V Erica Lynn
F/V High Voltage         F/V Janice Ann           F/V JC 31
F/V Joshua Nicole        F/V Kelly Ann            F/V Knotty Girl
F/V Lady Linda           F/V Miss Jane            F/V Miss Sierra
F/V My Girl              F/V Osprey               F/V Parker
F/V Provider             F/V Right On Time        F/V Sea Hawk
F/V Shooting Star        F/V Standin' Up          F/V Stella Maris
F/V Straight Flush       F/V Susie Two            F/V Swordfin
F/V T&Sea                F/V Theresa C            F/V Two Can
F/V Two Sons             F/V Vicki Ann            F/V Virgin Hooker
F/V Vitamin Sea          F/V White Water          F/V Whitewater II
F/V Yellowfin            F/V Dana Christine II    F/V Eagle Eye
F/V Eyelander            F/V Eagle Eye 2
 


ATTACHMENT

FACTS REGARDING THE DOMESTIC COMMERCIAL SHARK FISHERY AND THE SHARK FIN 
                         TRADE ELIMINATION ACT

    <bullet> The U.S. is a global leader in conservation and management 
            of sharks, and chief opponent of the wasteful practice of 
            ``shark finning''--discarding shark meat and landing only 
            the fins. Finning has been federally prohibited since 1993, 
            while the shark population has been growing since 2000. In 
            2015, the National Marine Fisheries Service's shark survey 
            found the most in its 29-year history, 65% more than the 
            prior survey.

    <bullet> The industry opposes finning, but the Shark Fin Trade 
            Elimination Act goes too far. Fins account for 50% of a 
            shark's landed value. Without income from these, revenue 
            from sharks would not cover fuel costs and our fishery will 
            cease. This Act will destroy a successful fishery and harm 
            small fishing communities.

    <bullet> The government should not deny American people access to 
            this healthful product or fishing communities important 
            income from a sustainable fishery.

    <bullet> Virtually all fins are exported, overwhelmingly to China. 
            This trade plays a small, but important role in improving 
            our balance of trade.

    <bullet> The bills provide no conservation benefit and will likely 
            harm international shark conservation. Destruction of fins 
            is equally as wasteful as discarding shark meat. Moreover, 
            the small portion of fins taken off the international 
            market will be replaced, likely by fins from unsustainable 
            and unregulated fisheries where finning provides a cost 
            advantage.

    <bullet> Demand for shark fins, culturally important in Asia, will 
            not abate soon. The U.S. can help foster responsible shark 
            fishing practices globally through participation in 
            international forums. Our authority will be weakened if the 
            U.S. abandons its own model shark fishery and instead 
            promotes the extreme, wasteful, and uneconomic policy of 
            fin destruction.

    <bullet> Analogies to trade bans on ivory and rhino horns are 
            misplaced:

            <SUP>o</SUP>  Unlike these large land animals, sharks are 
        more protected by their marine habitat and highly migratory 
        behavior. Shark fishing can be conducted sustainably.

            <SUP>o</SUP>  Also, unlike ivory, the U.S. is not a major 
        market for fins. Its absence from the marketplace will do 
        nothing to effect demand.

            <SUP>o</SUP>  These bans have been far from successful. 
        Trade has been forced underground where it cannot be regulated. 
        The shark fin trade is even less amenable to policing as sharks 
        occur globally in all oceans and seas.

            <SUP>o</SUP>  Most importantly, unlike rhinos and 
        elephants, sharks are fully utilized for food, as well as for 
        their skin, cartilage, livers, teeth, and jaws, providing 
        multiple economic benefits. They are a renewable resource for a 
        hungry world.

These bills reward bad actors and harm those who play by the rules. 
Congress should urge NMFS to finalize its list of shark finning nations 
under the High Seas Driftnet Fishing Moratorium Act and impose an 
import moratorium on those that fail to stop the practice.

Congress should also support America's law-abiding shark fishermen and 
their communities by ensuring that they can obtain the full value of 
their highly limited catch no matter where they live.

                                 ______
                                 

    Mr. Lamborn. Dr. Risenhoover, you stated in your testimony 
that NOAA, ``cannot support H.R. 1456 because the bill's 
negative impact on U.S. fishermen would outweigh its minimal 
benefit to shark conservation.'' Can you expand more fully what 
you mean by that?
    Mr. Risenhoover. Yes, thank you, Mr. Chairman. We see what 
a number of folks have raised here as an issue in that the 
United States has very strong shark conservation and management 
programs in place. The bill, by not allowing them to use the 
fin as part of their revenue stream would hurt the domestic 
fishermen.
    Alternatively, that the United States is not a major player 
in the shark fin trade around the world, and that by ending the 
trade of shark fins or fins transited through the United States 
would not have a major impact on those other nations elsewhere 
where the fin trade would go either perhaps around the United 
States or any deficit of fins would be filled by illegal 
harvest elsewhere.
    So, our bottom line is we have strong measures in place, 
and we believe the fishermen are following those, and that they 
should be allowed to continue their current businesses.
    Mr. Lamborn. OK. Thank you. And I am going to break my 
little rule that I just said a minute ago because unavoidably I 
have to address the next bill. So, I guess it is a free-for-all 
for everybody, and I will be the first to do that.
    My understanding, Mr. Risenhoover, is that Mr. Webster's 
bill was modeled on existing traceability and the shrimp import 
certification programs. Can you expand on NOAA's concern with 
this bill as drafted?
    Mr. Risenhoover. Yes, thank you, Mr. Chairman. It is based 
broadly on the shrimp import trade where we do look at other 
countries to see if they have similar programs in place for the 
conservation of sea turtles during the shrimp trade, so that is 
a very narrowly focused program. The legislation under 
consideration here, H.R. 5248, has a very broad definition of 
both shark products and the certification process that would 
ensue.
    We believe that that would be very difficult for us to 
implement, and, again, we all have the same intent here of 
ending the illegal trade of shark fins, but we need the program 
that is implementable and something we can do to make sure that 
works, and we would be happy to work with Mr. Webster and the 
Committee on that legislation.
    Mr. Lamborn. Could you amplify on what can be done to 
reconcile the two bills to create a final product that NOAA 
would be able to support that addresses the concerns of 
unsustainable foreign shark finning?
    Mr. Risenhoover. Thank you, Mr. Chairman. I don't know that 
I can hypothesize on that right now. Again, I think the intent 
of both of the shark bills is to end the shark finning and the 
illegal trade. So, we all agree on what the goal is. It is how 
do we get there, and I think we need to work on that a little 
bit more.
    Somewhere between banning it so that domestic fishermen 
cannot sell their fins and a more complex system that may not 
be effective or implementable, and we would be happy to work 
with the Committee on that.
    Mr. Lamborn. OK. Thank you.
    Dr. Hueter, before my time elapses, I would like to send a 
question your way. Can you describe the health of shark species 
globally compared to the health of these same shark species in 
U.S. waters and under U.S. management?
    Mr. Heuter. Thank you, Mr. Chairman. That is very 
complicated. We are dealing with 1,250 different species of 
animals between the sharks and the rays. It depends on where 
you look. In some of the places, especially in the Pacific and 
Indian Oceans, sharks have been very, very heavily overfished, 
and we have seen declines greater than 50 percent, even 
approaching higher numbers than that.
    In the United States, when you look back at before 
management started in this country, we did have very serious 
declines of greater than 75 percent in a lot of our stocks. But 
because of the last 25 years of concerted effort to reverse 
that and because of a great reduction in our shark fishing 
fleet in the United States to get it into a sustainable state, 
we are seeing the return of many of these stocks way beyond 
just simple sustainability. It goes as far as things like great 
white sharks even increasing in numbers off the U.S. coast at 
this point.
    So, by and large, here the stocks are healthy, are getting 
healthy and healthier than the rest of the world, and it is 
these foreign, especially the high seas fleets, that we really 
have to focus our attention on.
    Mr. Lamborn. Thank you very much. I now recognize the 
Ranking Member for 5 minutes.
    Mr. Huffman. I was going to allow Ms. Bordallo to be 
recognized.
    Mr. Lamborn. OK. Representative Bordallo, you are now 
recognized for 5 minutes.
    Ms. Bordallo. Thank you, Mr. Chairman. I am very pleased 
that the Subcommittee is hearing testimony on H.R. 1456, which 
is the Shark Fin Sales Elimination Act, sponsored by 
Congressman Royce who testified earlier.
    I also want to acknowledge the bill's Democratic co-lead, 
Congressman Sablan, who is in his district as we meet today and 
unable to join us. He was also the bill's sponsor in the 114th 
Congress.
    For decades, Congress worked to enact laws against shark 
finning, but was frustrated by lawsuits and many court 
decisions. After years of legal uncertainty, the Shark 
Conservation Act, which I sponsored in the House, was signed 
into law in January 2011. The Shark Conservation Act 
definitively banned the brutal practice of shark finning in all 
U.S. waters and the possession abroad of illegally taken shark 
fins at sea.
    My Shark Conservation Act also provided for improved shark 
conservation, better NOAA fisheries enforcement, and economic 
incentives for our Nation's trading partners to conserve 
sharks, including the ability to restrict imports from bad 
actor countries.
    Currently, 12 U.S. states and three territories have 
enacted laws against shark finning and sales of illegally 
sharked fins, including Guam and the Northern Marianas. H.R. 
1456 closes the last legal loophole making it illegal under 
Federal law to sell, import, or possess shark fins on U.S. soil 
across all jurisdictions.
    H.R. 4528, sponsored by our fellow Committee member, 
Congressman Soto, amends my Shark Conservation Act to clarify 
further that NOAA shall enforce Federal regulations against 
shark finning for all shark species, including the smooth 
dogfish.
    The science is very clear. We are facing a startling 
decline in shark species and populations worldwide. Sharks are 
among the planet's oldest life forms, having outlived the 
dinosaurs and even predating them by millions of years. But 
sharks may not last much longer if we do not take action now.
    According to the International Union for Conservation of 
Nature, the IUCN, more than half of shark species are facing 
extinction. So, Mr. Chairman, I hope that we will take action 
to stave off the preventable loss of our sharks, and I do have 
some questions here. My first is for Director Risenhoover. Can 
you speak to why the United States continues to import shark 
fins from countries that do not have regulations against shark 
finning?
    Mr. Risenhoover. Thank you. And the answer to that is there 
is no prohibition right now. I do think H.R. 1456 would create 
such a certification process that is similar to other broader 
certification processes we have. The concern we have with it is 
the broad scope of those products we would have to trace and 
the complexity of doing so.
    Ms. Bordallo. My second part of this question is how can 
the U.S. leadership prompt other countries to crack down on 
harmful shark finning, particularly Hong Kong and mainland 
China where it is a delicacy to eat shark fin soup?
    Mr. Risenhoover. Thank you for that. Let me summarize a 
couple other things the government is doing, and NOAA fisheries 
in particular, to address shark finning and shark conservation 
management around the country. We recently implemented a 
seafood import monitoring program that will help us trace 
products coming into the United States to make sure they were 
harvested in their country of origin properly.
    Sharks are one of the few species included in that at this 
time. We also work under some other legislation where we can 
certify other countries positively or negatively for their 
trade associated with sharks.
    And finally, we work with a number of regional fishery 
management organizations around the world in an effort to get 
them to improve their shark management, and most importantly, 
have all sharks landed with their fins naturally attached.
    So, I believe we have a number of efforts ongoing in the 
international arena to meet this goal.
    Ms. Bordallo. Thank you. Mr. Chairman, I have just one 
quick question, if you would allow it.
    OK. I have a question for Professor Parsons. Professor, I 
am alarmed by the large discrepancy in shark fin import-export 
data collected by NOAA versus the United Nations Food and 
Agriculture Organization, FAO. Can you please speak to this, 
where can we come by more up-to-date data.
    Mr. Parsons. Trade is not actually my area. I am more of a 
scientist, but I am aware of the fact that there is a large 
discrepancy between the number of fins that are recorded 
imported into this country versus the number that are reported 
exported to the country. My understanding of it is that there 
are different labeling requirements, and, again, I have to say 
that I am not actually a trade expert.
    Ms. Bordallo. Is there anybody on the panel that could 
further elaborate on that? Yes, go ahead.
    Mr. Risenhoover. Yes, just quickly, I think he raises some 
issues about some of the compatibility of data. Some of the 
estimates I understand may have since been corrected, so we 
would be happy to provide the Committee with a written 
statement that goes beyond my personal knowledge of how those 
differences may be highlighted and hopefully at some point 
resolved.
    Ms. Bordallo. Thank you. Thank you very much, and, Mr. 
Chairman, I am sure you would like that report.
    Mr. Lamborn. OK, thank you. Please provide that to the 
Committee.
    And I am glad as an aside there haven't been any lawyer 
jokes yet, although I am tempted. Mr. Webster you are now 
recognized for 5 minutes.
    Mr. Webster. Thank you, Mr. Chair. Mr. Polston, Dr. Parsons 
said that H.R. 1456 would not impact the ability to fish. Do 
you feel the same way?
    Mr. Polston. Absolutely not. If you can't go out and 
harvest what you need when you are shark fishing, it is 
necessary to have the shark fin with the meat to make it to 
where it is economically feasible to do it. There is no way you 
can do it, just like I had stated before, without being able to 
sell the fin, and you can't get the meat price of the shark to 
go up high enough to sustain it. So, it is economically not 
feasible. No, sir, I do not agree.
    Mr. Webster. Thank you very much. I yield back.
    Mr. Lamborn. OK. Representative Beyer, you are recognized 
for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman, very much. Thank you 
all very much for being here.
    Mr. Polston, to follow up, you talked about how H.R. 1456, 
Congressman Royce's bill, would punish fishermen, and you 
talked about reverse finning where you would basically use the 
whole fish and throw away the fins. But in Mr. Parsons' memo, 
he talks about the 12 states, as Ms. Bordallo talked about the 
3 Pacific territories, Amazon, Grubhub, 51 percent of 
international airlines, 17 of the 19 biggest shipping firms. 
Where do you have to sell the fins in the United States if 
state after state after state is banning the purchase and the 
use of these fins?
    Mr. Polston. Where do we sell them, you said?
    Mr. Beyer. Yes.
    Mr. Polston. I sell mine in the state of Florida.
    Mr. Beyer. So, you are finding an ever-shrinking U.S. 
market for them as the states are banning shark fins?
    Mr. Polston. Yes.
    Mr. Beyer. I think that perhaps suggests something.
    Mr. Hueter, it says banned by 40 countries. Who are the 
offenders? I mean, in whales it used to be Norway and Japan. 
Who are the countries that are out there, the fisheries that 
are finning these sharks?
    Mr. Hueter. Primarily, we are talking about fisheries on 
the high seas, and a lot of the countries we are talking about 
may have a finning ban but they are not enforcing it, which is 
just as bad.
    But when we look at what H.R. 5248 would affect in terms of 
certifying nations, we are looking at countries like Taiwan, 
China, Mexico, even Canada, some of these countries do have 
shark conservation measures, but not all of them enforce it 
properly. So, I think it is important.
    Mr. Beyer. Because it is happening on the high seas?
    Mr. Hueter. Because it is happening on the high seas, that 
is correct. Even our neighbor Mexico, which has a huge 
artisanal fleet for shark fishing, has some measures in place, 
but enforcement is a problem in Mexico. That is a conversation 
that we will need to have with them once H.R. 5248 is passed.
    Mr. Beyer. OK. Thank you.
    Mr. Risenhoover, you said that NOAA has effective laws. How 
do you reconcile your claim that it has effective laws if 73 
million plus sharks were finned last year?
    Mr. Risenhoover. Congressman, we have effective domestic 
laws. I believe that number and the number of sharks, the 73 
million killed a year, is globally, so our domestic laws are 
very effective and control the harvest of sharks in a 
sustainable manner.
    Mr. Beyer. Also, a number of the testimonies have talked 
about that the U.S. market for the consumption of shark fins is 
relatively small.
    How do you counter Chairman Royce's assertion that when 
America leads, the world pays attention and the world follows? 
Why do you suggest that that is not true with respect to shark 
fins, when it was arguably true with respect to almost 
everything else?
    Mr. Risenhoover. Congressman, thank you.
    I believe the United States is leading in shark 
conservation and management. Under the Magnuson Act, we have a 
very strict requirement that we have annual catch limits that 
prevent the overfishing of sharks on an annual basis.
    And as we have heard testimony today, we see that sharks 
are increasing in numbers. We still have a few that are subject 
to overfishing and some that are overfished, but we have very 
robust management programs in place to rebuild those shark 
populations.
    Mr. Beyer. Let me restate it. Don't you think it would be 
an incredibly powerful symbol to the other countries of the 
world if the United States actually banned shark fins--the 
sale, importation, consumption of? And do you see any other way 
to get the many other countries of the world to begin to ban 
this practice without U.S. leadership?
    Mr. Risenhoover. The United States has banned shark 
finning, that act of cutting off the fins and dumping the 
carcass over the side. We have already taken that step.
    We have, as I mentioned, these robust domestic programs. 
And we are working in the international arena with other 
nations to improve their shark management programs and track 
the trade of the sharks that they harvest.
    Mr. Beyer. Also, if we don't do H.R. 1456, I understand it 
is now legal in the United States, in at least 38 states, to 
import and to consume shark fins. Again, without that, aren't 
we sending a very mixed message to the rest of the world, that 
we have banned shark finning but it is OK for other nations to 
shark fin and then sell them to us?
    Mr. Risenhoover. I don't believe there is a high level of 
shark fin consumption in the United States. Some of those fins 
are likely just trans-shipped through the United States to 
other destinations.
    Mr. Beyer. Mr. Chairman, my time is up, but thank you very 
much.
    Mr. Lamborn. Representative LaMalfa, you are now recognized 
for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    This is certainly a sticky issue to sort out here, because, 
as a sportsman, when you hunt, when you fish, when you harvest, 
you are taught to respect, and when you respect nature, you use 
the whole animal. So, as Mr. Beyer mentioned, the term 
``reverse finning,'' it is hard for me to make much sense of 
that, when you are throwing that away. And you get into the 
whole issue of trophy hunting, African animals, whatever you 
might have.
    If you are taking the animal, it sure seems like you should 
be using the whole thing. I was very strongly opposed to the 
action of finning when we had legislation in California back in 
the day on AB 376, which I joined in on because I just found 
that abhorrent, finning a shark and throwing the rest of it 
away.
    So, I guess it begs the bigger question, should we shark 
fish at all? As these folks on the panel have mentioned, the 
primary value of fishing the shark is heavily weighted toward 
the value of the fin, not necessarily the rest of it. And I am 
not here to say, oh, we should ban that. I should say, what do 
we find is the ultimate compromise in this? I like what I am 
hearing in Mr. Webster's bill. I also was, early on, looking at 
Mr. Royce's bill as a possible solution.
    Would you just comment on that a little more? I am really 
torn on this. Three ways to go: You reverse fin; you don't fish 
sharks at all; or you find a way somewhere down the middle to 
have legally harvested, permitted, under a type of sustainable 
amount of fish that can be taken, and you use the whole thing.
    So, how about Mr. Risenhoover and Mr. Polston, please both 
comment on that. And maybe Mr. Hueter too.
    Mr. Risenhoover. Right. Thank you, Representative.
    I think you have hit on the exact issue here, that 
everybody agrees shark finning--that is, discarding the 
carcass--is something we do not support.
    Per my testimony and per the Agency's position, ours is 
that we are sustainably managing our sharks, and, as part of 
that sustainable management program, deriving revenue from the 
fins is acceptable.
    Mr. LaMalfa. I would not look at the deriving-revenue issue 
as the paramount purpose. I mean, yes, of course, the fishing 
industry is revenue-oriented. But are we doing the right thing 
across the board here with the shark fishing we are talking 
about and then the uses of the fin in the proper, permitted 
situation?
    Mr. Polston. I think so, because by the Magnuson-Stevens 
Act, we are supposed to catch all fisheries at the maximum 
sustainable yield. And as long as we are not exceeding the 
maximum sustainable yield of the shark fisheries and we are not 
finning and we are using all the animal, I don't see where 
anything is being done wrong, I mean, where that is different 
than any other fishery. Why would you stop shark fishing when 
no other fishery is being talked about?
    Mr. LaMalfa. Then the concept here is that, by banning the 
entire use of fin at all, it sends the message to the other 
countries that are doing it wrong how to--I guess I have a hard 
time deciding that our action is going to make China or 
somebody else follow what we do. I mean, the importation is 
something we can certainly control, but their own use, how do 
you really stop that?
    Mr. Risenhoover. Again, I think that is the question--do we 
need to focus on limiting our domestic harvesting 
opportunities? Or I would suggest that we focus on some of 
these other international items I mentioned where we are 
working with other countries to improve their shark management 
and conservation so that we don't have this illegal fin-driven 
trade around the country.
    Mr. LaMalfa. All right. Again, for the panelists--yes, sir, 
please.
    Mr. Hueter. Yes, thank you.
    You asked the question, should we be fishing for sharks, 
and it depends, of course, on the species, it depends on which 
nation.
    In the United States, for example, we have more than 20 
species of sharks that are prohibited to be fished for, so 
those are clearly species and stocks that we should not be 
fishing on. On the other hand, we have, as I mentioned in my 
remarks, 18 shark and ray fisheries that have been 
independently judged by an international group of experts to be 
fully sustainable.
    So, we have to separate out the domestic situation, where 
we have a sustainable fishery, where the fishermen are 
reporting their catch, they are not finning, and they are 
legally fishing and landing this catch. And we don't want them 
to throw part of that resource away if they are certified to do 
that.
    The other point I would like to make is this idea of 
sending a message. That worked with elephants because the 
United States was the major consumer of elephant ivory, so when 
we shut it down, that put the brakes on the whole industry.
    In the case of shark fins, we are, like, a 1-percent 
consumer in global trade. It is not going to change China at 
all. And, in fact, that little 1 percent will probably be taken 
up by a country that is actually finning sharks. So, it is 
punishing our fishermen by not allowing them to sell the fins 
and rewarding----
    Mr. LaMalfa. I am going to have to wrap up super fast, sir. 
Thank you.
    Mr. Lamborn. OK. We will have to wrap this up.
    Mr. LaMalfa. I would invite anybody on the panel or others 
listening who are part of this, if you wish, to submit 
arguments directly to my office on this. I am still wide open 
on the question here.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Lamborn. OK.
    We now recognize the Ranking Member for 5 minutes for 
questions he might have.
    Mr. Huffman. Thank you, Mr. Chairman.
    I think if anyone doubts that American leadership on this 
issue does not have an effect on the rest of the world, 
including China, just look at what the Chinese airlines are 
doing in response to the leadership that we have started 
through our states and here in the United States.
    But we are having a debate because, once shark fins are out 
into the stream of commerce, I think everybody agrees that you 
can't tell the ones that have been sustainably caught from the 
ones that have been horrifically finned. It is just not 
possible; you can't unscramble the eggs.
    And that is why so many conservation leaders and 
organizations and advocates who have worked on elephant ivory 
and these other examples of illegal trade have concluded, that 
you have to confront the trade, the possession and trade of the 
fins. That is what the states have done. That is what the bill 
before us is proposing to do.
    But I am hearing an argument from some of our witnesses and 
from, disappointingly, our own leader at NOAA that, because 
American shark fisheries are sustainable--I am hearing words 
like ``sharks populations are increasing.'' Mr. Risenhoover, 
you have pronounced the American shark fisheries sustainable. 
We are patting ourselves on the back, and there is this sense 
of great confidence that we are doing everything right on shark 
management here in the United States, and so, therefore, we 
should not punish this, we should nevertheless allow a 
continuation of this trade, even though most experts agree that 
that is going to hurt shark conservation globally.
    I want to challenge the premise of some of the things that 
I am hearing here.
    So, Mr. Risenhoover, I am told that over 60 percent of 
shark stocks listed in the NMFS status of stocks do not even 
have stock assessments. Is that correct?
    Mr. Risenhoover. I am not familiar with the exact number, 
but I know that a large portion of them do not have stock----
    Mr. Huffman. And yet you have pronounced this a sustainable 
fishery, and you have said shark populations are increasing.
    How many stock assessments did NOAA do for shark species 
last year?
    Mr. Risenhoover. I believe it would be on the order of two. 
I can get you the exact number of that. We do a couple 
assessments a year.
    Mr. Huffman. We had a witness from NOAA before us a few 
days ago about the Trump administration budget, which seeks to 
slash funding for things like surveys and stock assessments.
    We know that the shark fishery landings are a tiny 
fraction, way less than 1 percent, of the commercial landings 
from all our fisheries in the United States. So, it is hard to 
believe that this dwindling pool of money your agency will have 
to do surveys and stock assessments is going to be prioritized 
for shark populations going forward.
    In other words, it is only going to get worse, when it 
comes to the grossly inadequate visibility we have on shark 
populations. Wouldn't you agree?
    Mr. Risenhoover. I would say, Representative, that we will 
do as much as we can with the budget we receive from Congress.
    Mr. Huffman. That is inspiring testimony.
    I am also troubled by the data that you do have. In 2016, 
the year with the most recent landings data, non-dogfish shark 
landings were valued at less than $2.5 million. So, it is a 
tiny fraction. Over half of those landings by value and volume 
were just listed as sharks, with no species. Isn't that 
correct?
    Mr. Risenhoover. That is correct.
    Mr. Huffman. That doesn't tell you much in terms of whether 
a given species of shark is, as you have so confidently 
proclaimed, increasing, for example.
    And how about bycatch data? I am told that at some 
fisheries sharks are counted by individuals, at others they are 
counted by pounds, some are counted at the species level, 
others are counted in groups. Can you say that we have a clear 
picture on the rate of shark bycatch in the United States?
    Mr. Risenhoover. That would depend, Congressman, on the 
fishery involved and the information we get. But we do have 
good data in some areas, less so in others.
    Mr. Huffman. And then I guess the other question I have for 
you, Mr. Risenhoover, is we have these states that have enacted 
bans on the shark fin trade, and yet we keep getting 
information that suggests that shark fins continue to be 
imported and exported from those states.
    What are NOAA and other Federal agencies doing to 
coordinate with these states to try to make sure that that does 
not happen?
    Mr. Risenhoover. As you know, Congressman, we have an 
enforcement arm within NOAA. I am sure they are working with 
Customs to look at those. And anytime we see an incident of 
what may be an illegal import or an import into an area that is 
not approved, we would look into that.
    Mr. Huffman. I yield the balance of my time.
    Mr. Lamborn. Thank you.
    And, without any objection, I would like to introduce into 
the record a report from NOAA dated September 8, 2015, on the 
shark populations off the U.S. East Coast.
    With no objection, so ordered.
    We have now finished our consideration of H.R. 1456. We 
will now move into discussion on our second and third bills of 
the day, H.R. 5248 and H.R. 4528, by Representative Soto.
    You all are welcome to stay, if you able to, to answer 
questions. I know some of you came prepared for the first bill, 
so you are free to go now if you needed to, but if you want to 
stay and answer questions that might come your way on the next 
two bills, please feel free to stay.
    We will first recognize the sponsor of H.R. 5248, who is 
also the Vice Chairman of the Subcommittee, Representative 
Webster, for a statement on his bill.
    Mr. Webster, you are now recognized for 5 minutes.

   STATEMENT OF THE HON. DANIEL WEBSTER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Webster. Thank you, Mr. Chair.
    H.R. 5248, the Sustainable Shark Fisheries and Trade Act, 
seeks to balance the concerns we have just heard about shark 
finning with a recognition that the United States is a world 
leader in sustainable shark fishing.
    While I fully support all efforts to stop the horrific 
practice of shark finning, I have some questions about whether 
this is a serious issue in U.S. waters and, therefore, whether 
the heavy-handed approach of the previous bill is warranted.
    Some fishermen, incidentally, land sharks in efforts to 
fish for other species. The United States is a small player in 
the overall market for the trade of shark fins. I believe we 
can do more good by incentivizing other countries to follow our 
sustainable management practices rather than by just 
withdrawing from the market altogether, which would hurt 
worldwide shark conservation. We would have no leverage if we 
did that.
    My legislation, which will soon have a Senate companion 
sponsored by Senator Rubio, will leverage access to the U.S. 
market by requiring foreign nations and foreign fisheries to 
follow our sustainable fisheries regulations.
    The bill creates an import certification program modeled 
after the existing shrimp import certification program. It 
would require NOAA to assess a nation's fisheries laws and 
regulations for sharks, skates, and rays and certify whether 
that nation's shark products are harvested using scientific-
based and sustainable resource management.
    Conservation and humane fishing regulations co-exist in 
U.S. fisheries. This bill would incentivize our trade partners 
to do the same.
    We developed this legislation in consultation with NOAA, 
fishing industry stakeholders, and environmental groups. I want 
to thank all those who helped provide input on this 
legislation, and the Chair for holding this hearing, and 
bipartisan co-sponsors on H.R. 5248.
    Thank you, also, to the witnesses that have come today.
    I would like to enter into the record, Mr. Chairman, a set 
of communications from Representative Walter Jones, who 
couldn't be here today, along with several environmental groups 
and other stakeholders. If you could enter that into the 
record.

    Mr. Lamborn. Seeing no objection, so ordered.

    [The information follows:]

                                                     April 17, 2018

    Dear Member of Congress:

    As professional marine scientists, many with expertise in the 
biology and fisheries of sharks and their relatives the skates and 
rays, we write in support of H.R. 5248, the Sustainable Shark Fisheries 
and Trade Act of 2018. This legislation promotes responsible, science-
based shark, skate, and ray fishery management around the world without 
economically harming U.S. law-abiding fishermen. It will help ensure 
that any products from these animals that enter U.S. markets are 
sourced only from countries where shark and ray fisheries are subject 
to comparable management measures as for U.S. shark, skate, and ray 
fisheries.

    The more than 1,250 species of sharks and their relatives play 
important ecological roles in the many marine and freshwater habitats 
where they occur. Some species are also culturally and economically 
important. Yet 24 percent of chondrichthyan species are estimated to be 
threatened with extinction, according to the International Union for 
Conservation of Nature (IUCN), making them one of the most threatened 
groups of animals on the planet. Overfishing--to feed the global demand 
for meat, fins, oil, gills, and other products--is the primary driver 
of these declines. Globally, many tens of millions of sharks and rays 
are caught and killed each year in directed fisheries or as incidental 
catch.

    The U.S. has become a global leader in shark fishery management and 
conservation. Over the past 25 years, many of us have worked with the 
National Marine Fisheries Service, the fishing industry, conservation 
groups, and the public to raise awareness about the impact global 
fishing is having on these vulnerable species, and have pushed for 
science-based management. In accordance with strong regulatory 
standards under the Magnuson-Stevens Act, the U.S. commercial fishing 
industry, to their credit, has adopted critical management measures for 
many shark and ray fisheries. This includes a domestic ban on the 
practice of shark finning (removing the fin and dumping the carcass), 
the implementation of catch quotas and other fishery regulations since 
the 1990s, and leadership in promoting similar measures in 
international fisheries fora. Recreational fisheries are also subject 
to management, and catch-and-release of sharks is becoming more common 
among anglers. As a result of this and effective rebuilding plans, the 
U.S. has some of the most sustainable shark fisheries in the world.

    We are now seeing the benefits of these efforts, as some depleted 
shark populations in U.S. waters begin to rebuild. This provides 
evidence that fisheries, at least for some species, can be sustainable 
if carefully managed. The Sustainable Shark Fisheries and Trade Act of 
2018 will require that any import of shark, skate, and ray products 
into U.S. markets be sourced from a country that has been certified to 
have shark, skate, and ray management and conservation measures 
comparable to those in the U.S., including science-based measures to 
prevent overfishing and comparable prohibitions on shark finning. In 
addition to promoting sustainable fishery management by other fishing 
countries, this bill would also help level the playing field in 
international markets for U.S. fishermen, who have already taken the 
necessary steps to support responsible domestic shark, skate, and ray 
fisheries.
    Although it is not the largest importer of shark products, the U.S. 
is a major shark and skate fishing and exporting country and therefore 
can lead in both modeling and promoting sustainable shark fisheries 
management and responsible trade for these species. Continuing to 
exercise this leadership can help to reverse the declining trend in 
many shark, skate, and ray populations around the world. We heartily 
endorse the Sustainable Shark Fisheries and Trade Act of 2018 and 
strongly urge its prompt passage by Congress.

            Sincerely,

        A. Peter Klimley, PhD         Alejo Fabian Bonifacio, PhD

        Brendan Talwar, MS/MA         Bryan R. Franks, PhD

        Carl Luer, PhD                Cathy Walsh, PhD

        Charles Bangley, PhD          Claudio Campagna, PhD

        Daniel C. Abel, PhD           Daniel Huber, PhD

        David Kerstetter, PhD         David Shiffman, PhD

        Demian Chapman, PhD           Drew Cronin, PhD

        Elizabeth Alter, PhD          Eric B. Hovland, MS/MA

        Florencia Cerutti, PhD        Francesco Ferretti, PhD

        Gene S. Helfmanb, PhD         George H. Burgess, MS/MA

        Gregor M. Cailliet, PhD       Harold L. Pratt, Jr., MS/MA

        Howard Rosenbaum, PhD         Isabel Marques da Silva, PhD

        Ivy Baremore, MS/MA           J. Marcus Drymon, PhD

        Jake LaBelle, MS/MA           Jeffrey C. Carrier, PhD

        John A. Musick, PhD           John F. Morrissey, PhD

        John Tyminski, MS/MA          John Waldman, PhD

        Joshua Stewart, MS/MA         Juan Martin Cuevas, PhD

        Kara Yopak, PhD               Katherine Holmes, MS/MA

        Kevin Feldheim, PhD           Lara Ferry, PhD

        Linda Planthof, MS/MA         Maria Laura Ballesteros, PhD

        Mariano Sironi, PhD           Melinda Rekdahl, PhD

        Merry Camhi, PhD              Michael B. Bennett, PhD

        Michael R. Heithaus, PhD      Mikki Mccomb-Kobza, PhD

        Neil Hammerschlag, PhD        Philip Motta, PhD

        Rebeka Merson, PhD            Renato Hajenius Ache Freitas, PhD

        Rob Moir, PhD                 Robert E. Hueter, PhD

        Robert Nowicki, PhD           Sabine Wintner, MS/MA

        Salome Buglass, MS/MA         Samuel H. Gruber, PhD

        Simon J. Pierce, PhD          Steven Kessel, PhD

        Susan Lieberman, PhD          Valentina Di Santo, PhD

        Valeria Falabella, MS/MA      Yannis Papastamatiou, PhD

                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

                                                 March 13, 2018

    Dear Member of Congress:

    We write in support of the Sustainable Shark Fisheries and Trade 
Act of 2018. The U.S. already has strong laws and regulations governing 
the management of commercially traded shark, skate and ray fisheries. 
This legislation would help promote the sustainable management of shark 
fisheries globally by ensuring that all shark, ray and skate products 
entering U.S. markets come from fisheries with comparable conservation 
and management practices. This approach serves a valuable dual 
purpose--improving the global management of these fisheries while 
leveling the playing field for U.S. commercial fishermen.
    There are more than 1,250 species of cartilaginous fishes--sharks 
and their relatives, which include skates and rays--and while the 
conservation status of nearly half these species is poorly known, one-
quarter are estimated to be threatened with extinction. As species that 
grow slowly, mature late, and have few young, they are particularly 
vulnerable to overexploitation. Overfishing is the primary threat to 
many of these species.
    Although a large number of shark, skate, and ray species are 
struggling, evidence suggests that with effective fishery management, 
many species can be sustainably fished and commercially traded while 
maintaining healthy populations. Markets for shark fins and meat are 
important drivers of fisheries for these products, and other products 
like liver oil, cartilage, and skin are also valued and traded for, 
forming the basis of livelihoods for people and communities both in the 
U.S. and around the world.
    We support the Sustainable Shark Fisheries and Trade Act's approach 
of requiring that shark, skate and ray products imported to the U.S. 
come from fisheries managed under strong standards, similar to those 
already required by U.S. law. This includes science-based management of 
related fisheries that prevents overfishing and rebuilds overfished 
stocks. By holding imported products to the same standards as U.S. 
fisheries, the U.S. can promote sustainable shark, skate and ray 
fisheries globally while also supporting the market for well-managed 
U.S. fisheries. I urge you to support this legislation.
    As a significant shark, ray and skate fishing and trading country 
and a global leader in the conservation of these species, the U.S. has 
an important role to play in promoting sustainable shark, skate and ray 
fishery management in the U.S. and abroad. We endorse the Sustainable 
Shark Fisheries and Trade Act of 2018 and urge its prompt passage by 
Congress.

                                 ______
                                 

        Prepared Testimony of the Wildlife Conservation Society

    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, WCS is grateful for the opportunity to submit testimony 
in support of H.R. 5248, the Sustainable Shark Fisheries and Trade Act 
(SSFTA).
    Founded in 1895 by Theodore Roosevelt and other conservationists, 
WCS saves wildlife and wild places worldwide through science, 
conservation action, education, and inspiring people to value nature. 
To achieve our mission, WCS, based at the Bronx Zoo, harnesses the 
power of its Global Conservation Program in nearly 60 nations and in 
all the world's oceans, the New York Aquarium in Brooklyn, and its four 
other wildlife parks in New York City, visited by more than 4 million 
people annually. WCS combines this expertise in the field, zoos, and 
aquarium to achieve its conservation mission.
    As part of its work on marine conservation, WCS works to conserve 
sharks, rays, and skates through field research, marine protected areas 
establishment and management, threat mitigation, the promotion of 
effective fisheries management and trade policies, capacity-building, 
local community engagement, international policy, and public education.
    WCS has been directly engaged in domestic and international shark 
conservation and fishery management since the late 1990s. Past and 
current staff scientists actively participated in U.S. and 
international shark fishery stock assessments and authored seminal 
studies on the shark fin trade,\1\ fisheries, and conservation 
status.\2\ They have served on the IUCN Shark Specialist Group since 
1993, as Past President of the American Elasmobranch Society, organized 
international conferences on sharks, and successfully promoted shark 
listings under CITES, the Convention on International Trade in 
Endangered Species of Wild Flora and Fauna. WCS was a strong proponent 
of the Shark Finning Prohibition Act (2000), and worked to ensure that 
sharks were included in recent seafood traceability regulations that 
took effect January 1, 2018.\3\
---------------------------------------------------------------------------
    \1\ Shelley C. Clarke et al., Letter, Global Estimates of Shark 
Catches Using Trade Records from Commercial Markets, 9 Ecology Letters 
1115-1126 (2006).
    \2\ Sharks of the Open Ocean: Biology, Fisheries & Conservation 
(Merry D. Camhi, Ellen K. Pikitch & Elizabeth A. Babcock eds., 2008); 
The Conservation Status of Pelagic Sharks and Rays: Report of the IUCN 
Shark Specialist Group, Pelagic Shark Red List Workshop (Merry D. Camhi 
et al., eds. 2009), available at http://cmsdata.iucn.org/downloads/
ssg_pelagic_report_ final.pdf.
    \3\ 50 C.F.R. Sec. 300.324.
---------------------------------------------------------------------------
    Today, WCS supports marine programs in 23 countries around the 
world and undertakes shark field research and policy initiatives in 
Argentina, Indonesia, Myanmar, Madagascar, Gabon, Bangladesh, and 
Belize, among others. In these locations, we work on all aspects of 
shark conservation, collecting data to better understand shark 
fisheries and populations, and then working closely with scientists, 
governments and local communities to put in place and enforce laws and 
regulations that will protect or sustainably manage their sharks and 
rays and secure these species' survival as part of healthy, productive 
oceans.
    In 2010, WCS established the New York Seascape Program based at our 
New York Aquarium that works to address local conservation of the 
region's forty species of sharks, skates, and rays. Aquarium scientists 
have also been tagging and conducting health assessments on sand tiger, 
blue, shortfin mako, white sharks, and other species in New York waters 
to improve our understanding of shark movements, migrations, and 
habitat needs.
    This June, WCS is poised to open a new state-of-the-art exhibit at 
our New York Aquarium on Coney Island dedicated to celebrating the 
biology, ecology, and diversity of sharks and rays, and inspiring their 
conservation locally and globally. Ocean Wonders: Sharks!, with 57,000 
sq. feet of new exhibits and over 100 species, will introduce New York 
City to some of its most remarkable residents, inspiring visitors to 
join us in protecting the local waters that are so crucial to wildlife 
and humans alike.
    There are more than 1,250 species of elasmobranchs--sharks, skates, 
and rays. These cartilaginous fish play important ecological roles in 
the freshwater and marine habitats in which they occur, and many 
species are culturally and economically important to the countries 
where they range.\4\ Many species are highly migratory, moving within 
and between domestic EEZs and international waters, which complicates 
effective management of their fisheries.
---------------------------------------------------------------------------
    \4\ Sharks, Rays and Chimaeras: The Status of the Chondrichthyan 
Fishes (Sarah K. Fowler et al., eds., 2005), available at https://
portals.iucn.org/library/efiles/documents/2005-029.pdf.
---------------------------------------------------------------------------
    Global shark and ray fisheries have expanded greatly over the past 
50 years and their products are among the most valuable seafood 
commodities in trade. Based on official statistics, global trade in 
parts and products is approaching $1 billion in value.\5\ These 
statistics are widely believed to under-report actual levels. In 2011, 
total global trade in shark parts and products was valued at $438.6 
million in fins and $379.8 million in meat.\6\ The value of the shark 
tourism industry is also estimated to be around $314 million 
annually.\7\ Major shark fishing countries beyond the U.S. include 
Indonesia, India, Spain, Taiwan ROC, Mexico, and Argentina.\8\ The U.S. 
imports shark, skate and ray parts and products from a variety of 
countries, including New Zealand, Canada, China including Hong Kong, 
and Mexico.
---------------------------------------------------------------------------
    \5\ See Nicholas K. Dulvy et al., Challenges and Priorities in 
Shark and Ray Conservation, 23 Current Biology R565, R566 (2017).
    \6\ Id.
    \7\ Id.
    \8\ Id. at tbl. S3.
---------------------------------------------------------------------------
    While the conservation status of nearly half of these species is 
poorly known, one-quarter are estimated to be threatened with 
extinction.\9\ As a group, cartilaginous fishes are biologically 
vulnerable to overexploitation because they grow slowly, mature late, 
and produce few young. For example, manta rays only give birth to a 
live pup every 2 or 3 years, and female North Pacific spiny dogfish can 
take 35 years to reach sexual maturity.\10\ Because of these common 
characteristics, overfishing is the primary threat to these species. 
This is exacerbated by the fact that, across the world's oceans, many 
shark, ray, and skate fisheries are subject to very little management, 
and generally not managed for sustainability. As a result, they are 
among the most threatened vertebrates on the planet.\11\
---------------------------------------------------------------------------
    \9\ Nicholas K. Dulvy et al., Extinction Risk and Conservation of 
the World's Sharks and Rays, eLife 2014;3:e00590 DOI: 10.7554/
eLife.00590 (2014).
    \10\ J.S. Bigman et al., Squalus suckleyi, The IUCN Red List of 
Threatened Species 2016:e.T195488A2382480 (2016), available at http://
www.iucnredlist.org/details/195488/0; COSEWIC Assessment and Status 
Report on the North Pacific Spiny Dogfish Squalus suckleyi in Canada 
(2011), available at https://www.sararegistry.gc.ca/virtual_sara/files/
cosewic/sr_aiguillat_commun_nor_pac_spiny_dogfish_0912_e.pdf.
    \11\ Dulvy et al., supra note 9.
---------------------------------------------------------------------------
    There is a common misconception that the demand for one shark 
product--shark fins--is the only driver of overfishing of sharks and 
rays. While demand for shark fins in U.S. and Asian markets is 
certainly a large part of the economic value of the global shark trade, 
demand for meat, such as in Europe and South Korea, grew by 42 percent 
(by volume) between 2000 and 2011,\12\ and demands for liver and oils 
for pharmaceuticals, cartilage, leather, and other products are also 
significant. It is also important to note that among the most valuable 
so-called ``shark'' fins are those that are actually from rays, such as 
sawfishes and guitarfishes.\13\ In fact, skates and rays are being 
fished more heavily and, as a group, are more threatened than sharks, 
yet their fisheries are less managed. Sharks, rays, and skates are 
often caught as bycatch in fisheries targeting other species, such as 
tunas and swordfish, but this mortality is often poorly recorded.
---------------------------------------------------------------------------
    \12\ Felix Dent & Shelley Clarke, State of the Global Market for 
Shark Products, FAO Fisheries and Aquaculture Technical Paper No. 590. 
Rome, FAO (2015).
    \13\ Dulvy et al., supra note 9; Dent & Clarke, supra note 12.
---------------------------------------------------------------------------
    Although many shark, skate, and ray populations are significantly 
depleted, evidence suggests that with effective fishery management, 
some species can be sustainably fished and commercially traded. Current 
U.S. law provides a strong framework for improved conservation 
worldwide, including requirements for science-based management of these 
fisheries to prevent overfishing and rebuild overfished stocks. A 
recent scientific analysis of global shark catches identified several 
U.S. shark fisheries as meeting that study's criteria for biological 
sustainability and science-based management.\14\
---------------------------------------------------------------------------
    \14\ Colin A. Simpfendorfer & Nicholas K. Dulvy, Bright Spots of 
Sustainable Shark Fishing, 27 Current Biology R83-R102 (2017).
---------------------------------------------------------------------------
    Recognizing that science-based management of sharks can result in 
sustainable fisheries for some species, and that globally appropriate 
management for these species is absent or lacking, WCS worked with 
Representatives Webster and Lieu and partners in the commercial fishing 
industry, with zoos and aquariums, and members of the scientific 
community to draft the Sustainable Shark Fisheries and Trade Act, which 
sets U.S. fisheries laws and regulations as a standard for other shark-
fishing nations.
    The bill would require a nation seeking to export shark, ray, and 
skate products to the U.S. to receive certification from NOAA 
determining that it has management and conservation policies in place 
for these species comparable to those in the U.S., including science-
based management to prevent overfishing. Those comparable conservation 
policies must also include a prohibition on practice of shark finning, 
which has been prohibited in the U.S. since 2000. This would be a 
substantial improvement in the standards by which many nations 
currently operate their shark fisheries. And by holding imports of all 
shark, skate, and ray products to the same standards that U.S. domestic 
fisheries already meet, this bill would help keep products from 
unmanaged or poorly managed fisheries out of U.S. markets, leveling the 
playing field for U.S. fisheries that already do meet these 
requirements. The bill contains a clause that ensures that this 
legislation does not preempt federal or state laws with additional or 
more stringent requirements, including bans on the trade of shark fins 
that have been enacted in several U.S. states. This legislation would 
also build on the existing U.S. Seafood Import Monitoring Program, 
which established traceability requirements for certain seafood 
products entering U.S. commerce, including sharks, to also include rays 
and skates.
    WCS has built a broad coalition in support of the bill. We're 
joined in the environmental community by groups like the International 
Fund for Animal Welfare; in the zoo and aquarium community by the 
Association of Zoos and Aquariums, including the National Aquarium, 
Shedd Aquarium, and more than 40 member institutions; and in the 
scientific community by Mote Marine Laboratory, OCEARCH, and more than 
60 scientists, most of whom have an expertise on shark, skate, and ray 
biology and fisheries, and support stronger international conservation 
measures for these vulnerable species.
    Thank you, again, for the opportunity to provide testimony in 
support of this legislation. WCS urges the Committee to mark up and 
pass this bipartisan legislation.

                                 ______
                                 

    Mr. Webster. I yield back.
    [The prepared statement of Mr. Webster follows:]
  Prepared Statement of the Hon. Daniel Webster, a Representative in 
                   Congress from the State of Florida
    Thank you Mr. Chairman.

    H.R. 5248, the Sustainable Shark Fisheries and Trade Act, seeks to 
balance the concerns we've just heard about shark finning with a 
recognition that the United States is a world leader in sustainable 
shark fishing.
    While I fully support all efforts to stop the horrific practice of 
shark finning, I have some questions about whether this is a serious 
issue in U.S. waters, and therefore, whether the heavy-handed approach 
of the previous bill is warranted.
    While some fishermen set out to intentionally catch sharks, others 
land them incidentally to their efforts to fish for other species.
    I am concerned that Mr. Royce's bill will have unintended, but 
detrimental effects on Florida fishermen.
    Though the United States is a small player in the overall market 
for the trade of shark fins, I believe we can do more good by 
incentivizing other countries to follow our sustainable management 
practices than by withdrawing from the market altogether, which would 
hurt worldwide shark conservation and U.S. fishermen.
    My legislation, which will soon have a Senate companion sponsored 
by Senator Rubio, will leverage access to the U.S. market by requiring 
foreign nations and foreign fisheries to follow our sustainable 
fisheries regulations.
    The bill creates an import certification program modeled on the 
existing shrimp import certification program.
    It would require NOAA to assess a nation's fisheries laws and 
regulations for sharks, skates and rays and certify whether that 
nation's shark products are harvested using science-based and 
sustainable resource management.
    Conservation and humane fishing regulations co-exist in U.S. 
fisheries; this bill would incentivize our trading partners to do the 
same.
    We developed this legislation in consultation with NOAA, fishing 
industry stakeholders, and environmental groups.
    I want to thank all those who helped provide input on this 
legislation, I'd like to thank the Chairman for holding this hearing 
and I'd like to thank Representative Lieu and the other co-sponsors of 
H.R. 5248.
    Thank you to all the witnesses for coming today and for your 
flexibility with the scheduling issues that we've encountered.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Representative Soto, you are now recognized for 5 minutes 
on H.R. 4528.

STATEMENT OF THE HON. DARREN SOTO, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Soto. Thank you, Chairman Lamborn and Ranking Member 
Huffman, for holding this hearing today. I appreciate you 
giving me the opportunity to present H.R. 4528, which makes 
technical amendments to two marine fish conservation statutes, 
the Shark Conservation Act of 2010 and the Billfish 
Conservation Act of 2012.
    The bill clarifies under the Shark Conservation Act of 2010 
that there is no language in the Act that alters existing 
authority of the Secretary of Commerce to manage Atlantic 
highly migratory species under the Magnuson-Stevens Act, such 
as sharks. It also cleans up language in the SCA by removing an 
expired offset.
    The main goal of this fix is to ensure protection against 
shark finning, much like the other bills that you have here 
today. And I applaud you for hosting this hearing.
    H.R. 4528 will also fix agency confusion with NOAA to allow 
rulemaking to go forward for the Atlantic smooth dogfish, a 
type of shark.
    The second major part of H.R. 4528 amends the Billfish 
Conservation Act of 2012. It clarifies that the exemption for 
marlin and billfish fishing in Hawaii and Pacific Insular 
Areas, which is a tradition there, can only be sold locally. 
More specifically, it clarifies these fish cannot be sold to 
the other 49 states. This strikes a balance between preserving 
traditional cultural fishing in these areas and the overall 
intent to prevent large-scale commercial fishing of these 
billfish.
    The Florida Fish and Wildlife Department is supportive of 
it, as are various sports fishermen groups and various boating 
groups.
    I wanted to welcome three Floridians that we have here 
today: Dr. Hueter, Mr. Polston, and Mr. Kondon. I have the 
honor of representing central Florida up here. And I also 
applaud my colleague from Florida, Congressman Webster, for his 
work on this issue as well.

    [The prepared statement of Mr. Soto follows:]
    Prepared Statement of the Hon. Darren Soto, a Representative in 
                   Congress from the State of Florida
    Thank you Chairman Lamborn and Ranking Member Huffman for holding 
this hearing today. H.R. 4528 makes technical amendments to two marine 
fish conservation statutes, the Shark Conservation Act of 2010 and the 
Billfish Conservation Act of 2012.
    The bill clarifies under the Shark Conservation Act (SCA) of 2010 
that there is no language in the Act that alters existing authority of 
the Secretary of Commerce to manage Atlantic highly migratory species 
under the Magnuson-Stevens Act. It also cleans up language in the SCA 
by removing an expired offset.
    The main goal of this fix is to ensure protection against shark 
finning.
    H.R. 4528 will fix agency confusion with NOAA to allow rulemaking 
to go forward for the Atlantic smooth dogfish (a type of shark).
    The second major part of H.R. 4528 amends the Billfish Conservation 
Act (BCA) of 2012. It clarifies that the exemption for Marlin and 
Billfish fishing in Hawaii and Pacific Insular Areas (as is tradition) 
can only be sold locally. More specifically, it clarifies these fish 
cannot be sold to the other 49 states.
    This strikes a balance between preserving traditional cultural 
fishing in these areas and the overall intent to prevent large scale 
commercial fishing of these billfish.
    The Florida Fish and Wildlife, the Sports Fisherman, and various 
boating groups support this bill.
    Again, thank you for holding this hearing.

                                 ______
                                 

    Mr. Soto. I wanted to ask a question to you all briefly.
    Mr. Kondon, how important is the preservation of sharks and 
billfish to your role in providing scuba opportunities?
    Mr. Kondon. Thank you, sir.
    As far as the scuba diving community is concerned, 
obviously, it is critical to us.
    We are down in the Florida Keys National Marine Sanctuary, 
so every dive trip that we go out on, we are seeing nature in 
its present state. We don't do anything to entice anything. It 
is just purely what we are fortunate enough to see when we go 
out on the reefs in the Florida Keys.
    The overwhelming majority of our customers that come to us 
are asking about seeing the bigger fish life. They want to see 
sharks. And, unfortunately, we don't see near the sharks that 
we would love to be able to see out there. It is very rare that 
we do see sharks. But the customers still come. They want to 
get out on the reefs, and they want to spend time on those 
reefs and learn about them.
    The divers that we train very often have concerns about 
sharks, just because of what they have seen and heard in the 
media and movies and such, that then when they get out there 
and if they do have the opportunity to actually see a shark in 
nature, to see their eyes just open wide in awe. They are just 
blown away, and they are hooked, and they become 
conservationists almost instantly and want to protect the reefs 
and want to protect sharks.
    So, it is very important to us down in the Keys, 
especially, because without those sharks we do lose various 
things that the sharks provide to the ecosystem there--removing 
ill or other weak animals. And, of course, it all just 
interacts together with the reefs, the sharks, and all the fish 
together.
    We need those sharks to sustain that and, obviously, to 
keep us definitely gainfully employed as dive instructors, dive 
guides, or dive captains. There are nearly 3,800 jobs out there 
impacted that Oceana was able to show in their most recent 
report.
    Mr. Soto. Thank you.
    Dr. Hueter, how is our shark population doing on the East 
Coast in general?
    Mr. Hueter. Thank you, Congressman. And, by the way, thank 
you for your leadership as a Floridian for marine conservation. 
We really appreciate it.
    Again, some of the stocks still need to be rebuilt, but we 
have species such as the blacktip shark, which you can see 
often in video during the wintertime in numbers of tens of 
thousands massing off the east coast of Florida very close to 
the beaches. This is a stock that is a faster-growing species 
that has come back and is very fishable, is very sustainable.
    So, it depends on which shark you are talking about. There 
are many different species. And some are able to bounce back; 
others cannot so readily do so.
    Mr. Soto. I yield back.
    Mr. Lamborn. OK. Thank you.
    I would also like to introduce, with unanimous consent, two 
articles from the news media highlighting NOAA's enforcement of 
current shark finning laws.
    Without objection, so ordered.

    [The information follows:]
A United States shark fin ban would undermine sustainable shark 
        fisheries

Marine Policy 85 (2017) 138-140

D.S. Shiffman, R.E. Hueter

    The United States Congress is currently considering a nationwide 
ban on buying or selling shark fins [1], which are consumed as part of 
shark fin soup, a traditional Asian delicacy. Such a nationwide ban 
would build on a movement that began in a few states including 
California, New York, and Texas, and now includes a total of 12 states. 
These state-level shark fin bans are not identical, as some include 
exceptions for certain shark species, which demonstrates an 
inconsistency of anti-fin trade arguments. While the proposed federal, 
nationwide ban's stated goal of conserving threatened shark populations 
is laudable and necessary, such a policy is misguided because it would 
A) undermine decades of progress made toward ensuring sustainable shark 
fisheries in the United States and around the world, B) likely have a 
negligible direct effect on global shark mortality, and C) contribute 
to the misconception that demand for shark fin soup is the only threat 
facing shark populations worldwide.
    Sharks are some of the most threatened (i.e., assessed as 
Vulnerable, Endangered, or Critically Endangered by the IUCN Red List) 
vertebrates on Earth [2], and their population declines have been 
almost entirely driven by overfishing (including targeted catch and 
bycatch, and including but not limited to fishing associated with the 
shark fin trade) [3]. Solutions to this problem have been broadly 
categorized into those aiming for sustainable exploitation and those 
that ban exploitation and sale entirely, such as bans on the sale of 
shark fins [4]. Some conservation advocates argue these blanket bans 
may be appropriate when sustainable fishing and trade are impossible, 
such as in nations with inadequate fisheries management or enforcement 
resources, though it is worth noting that a nation with inadequate 
resources to enforce fisheries regulations likely has inadequate 
resources to enforce a ban. In nations such as the United States, 
however, sustainable shark fisheries are not only possible and largely 
currently in place [5], but are preferred as a strategy by 90% of 102 
surveyed members of scientific research societies focusing on sharks 
and rays when compared with a total ban on the sale of shark products 
[6].
    The debate surrounding shark fishing and the shark fin trade is 
complex and easily misunderstood. Key terms are often misused, adding 
to confusion and putting the focus for reform on less effective policy 
solutions. Under United States law, the term ``shark finning'' refers 
exclusively to removing the fins of a shark and discarding that shark's 
carcass at sea. If a shark's carcass is landed (i.e., brought back to 
port) with fins still attached, that shark has not been finned under 
United States law, even if that shark's fins are later removed and 
sold. Shark finning is inhumane, wasteful and makes it difficult for 
fisheries managers to identify the species of sharks being landed [7], 
and for these reasons shark finning has been illegal in United States 
waters since the 1990s [8]. Unfortunately, ``shark finning'' is 
frequently misused as a synonym for shark fishing, or even for the 
trade in shark fins taken from sharks caught primarily for their meat.
    The United States ranks among the top ten shark fishing nations in 
the world [9], and these fisheries are comparatively well managed [10] 
with several identified as sustainable by consumer seafood guides (Fig. 
1). This management includes catch quotas based on scientific estimates 
of population status for some species, closed areas and closed seasons, 
and stricter protections for more threatened species [4]. Of 16 global 
shark fisheries identified as biologically sustainable and well 
managed, 9 involve United States shark fishermen, accounting for 76.4% 
of total landings from these 16 fisheries [5]. According to 2014 data 
from the National Marine Fisheries Service [11], the total value of 
shark meat sales is approximately $3.3 million USD, while the total 
value of shark fin sales is approximately $1 million USD. The proposed 
fin ban would therefore eliminate about 23% of the ex-vessel value of 
legally caught sharks, causing economic harm to rule-following 
fishermen and undermining decades of progress toward sustainable shark 
fisheries management in the United States.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    .epsFig. 1. United States shark fisheries that have been identified 
as sustainable by NOAA FishWatch (``smart seafood choice''), the Marine 
Stewardship Council (``certified''), or Seafood Watch (``best choice'' 
or ``good alternative'').

    The United States has played a leadership role in promoting 
sustainable shark fisheries around the world, but a domestic ban on the 
sales of shark fins could seriously compromise the United States 
position at the international negotiating table. A ban on the trade of 
shark parts from a sustainable fishery would not only eliminate a model 
of successful management from the global marketplace, but would also 
remove an important incentive for other nations to adopt that model. A 
nationwide ban on buying or selling fins would tell international 
trading partners that the United States will not support their shark 
conservation efforts regardless of future improvements to their 
fisheries sustainability.
    Furthermore, banning the sale of shark fins in the United States 
would likely not result in a significant direct reduction in global 
shark mortality, because the United States exports approximately one 
percent of all the shark fins traded globally, and imports an even 
smaller percentage of the global fin trade [10]. Therefore, even if the 
shark fin trade in the United States were completely eliminated, the 
direct impact on reducing global shark mortality would likely be 
insignificant. In addition, the elimination of United States-supplied 
fins in world markets would open the door to increased market share for 
IUU (illegal, unreported, and unregulated fishing) nations not 
practicing sustainable shark fishing, including those that have not yet 
prohibited finning.
    It has been argued that a fin ban would indirectly reduce shark 
mortality by reducing the value of shark fisheries and causing 
fishermen to switch their target species. However, this argument does 
not consider the effects of increased post-release mortality of shark 
discards, and it also ignores the probability that a reduced value per 
shark may also cause fishermen to simply catch more sharks to obtain 
the same income as prior to a ban (in fisheries where the quotas are 
unfilled) [4]. In any case, the conservation objectives of a shark fin 
ban in the United States are questionable, as the reduction of fishing 
mortality associated with a non-overfished stock that is not 
experiencing overfishing is not normally considered a conservation 
priority.
    Moreover, banning the sale of shark fins would not make it illegal 
to continue to catch and kill sharks in the United States. It would 
only regulate how the parts of dead sharks can be used. Forcing 
fishermen to discard fins from sharks caught in sustainably managed 
fisheries would contribute to wastefulness in fisheries and undermine 
the ``full use'' doctrine that is a component of the U.N. FAO 
International Plan of Action for Sharks [12], without reducing shark 
mortality. Additionally, while the United States does import some shark 
fins, the total quantity is only approximately 0.2% of the global trade 
in shark fins [10]. These few imports include fins from nations where 
finning is already banned, as well as fins legally taken by United 
States fishermen, exported overseas for processing, and imported back 
into the United States as dried shark fin product. Imports of fins of 
many species whose populations have significantly declined are already 
regulated under the Convention on International Trade in Endangered 
Species (CITES) [4].
    The global trade in shark fins has been declining (total world 
imports and exports combined were worth approximately $300 million USD 
in 2011, an 18% decline in trade volume from 2003 to 2011), whereas the 
global trade in shark meat--which would not be directly affected by a 
ban on selling fins--has been rising (total world imports and exports 
combined were worth approximately $550 million USD in 2011, a 42% 
increase vs. 2000) [10]. A policy that focuses only on shark fins 
ignores a key component of the problem and risks diverting scarce 
management and enforcement resources away from the heart of the issue. 
A focus on fins also oversimplifies the threats facing sharks, which 
can reduce political support for sustainable management [13]. Such a 
focus also targets Asia (where fins are primarily consumed, but not 
where meat is primarily consumed), leading to potentially problematic 
cultural clashes that have already been the focus of lawsuits against 
state-level shark fin trade bans in the United States [4].
    Halting the population declines of shark species of conservation 
concern are an important global conservation policy priority [2,14-16]. 
However, we conclude that banning the trade in fins from sharks legally 
caught in well-managed, sustainable fisheries in the United States will 
not improve or stop poorly managed fisheries in other nations. By 
making a commercially valuable and sustainable product illegal, a 
United States shark fin ban would likely not significantly and directly 
reduce shark mortality and would ignore the growing global trade in 
shark meat. Instead of a domestic ban on the shark fin trade, the 
United States Congress should support more effective policies that 
encourage progress toward making all shark fisheries sustainable in the 
United States and around the world.
Acknowledgements
    The authors would like to acknowledge the following experts who 
provided helpful feedback on this manuscript: Sonja Fordham of Shark 
Advocates International, Russell Hudson of Directed Sustainable 
Fisheries Inc., Dr. Jenny McCune, Dr. Sally Otto, Riley Pollom, Dr. 
Jeremy Pittman, and Dr. Colin Simpfendorfer. We would also like to 
thank two anonymous referees whose suggested changes helped to improve 
this manuscript.
References

    [1] S. 793/H.R. 1456, The Shark Fin Sales Elimination Act of, 
accessible <https://www.congress.gov/bill/115th-congress/senate-bill/
793>, 2017.

    [2] N.K. Dulvy, S.L. Fowler, J.A. Musick, R.D. Cavanagh, P.M. Kyne, 
L.R. Harrison, J.K. Carlson, L.N.K. Davidson, S.V. Fordham, M.P. 
Francis, C.M. Pollock, C.A. Simpfendorfer, G.H. Burgess, K.E. 
Carpenter, L.J.V. Compagno, D.A. Ebert, C. Gibson, M.R. Heupel, S.R. 
Livingstone, J.S. Sanciango, J.D. Stevens, S. Valenti, W.T. White, 
Extinction risk and conservation of the world's sharks and rays, eLife 
3 (2014) e00590.

    [3] L.N.K. Davidson, M.A. Krawchuk, N.K. Dulvy, Why have global 
shark and ray landings declined: improved management or overfishing? 
Fish Fish 17 (2016) 438-458.

    [4] D.S. Shiffman, N. Hammerschlag, Shark conservation and 
management: a review and primer for non-specialists, Anim. Cons. 9 
(2016) 401-412.

    [5] C.A. Simpfendorfer, N.K. Dulvy, Bright spots of sustainable 
shark fishing, Curr. Biol. 27 (2017) R97-R98.

    [6] D.S. Shiffman, N. Hammerschlag, Preferred conservation policies 
of shark researchers, Cons. Biol. 30 (2016) 805-815.

    [7] A. Lawrence, Collaborations for conservation, in: E.J. Techera, 
N. Klein (Eds.), Sharks: Conservation, Governance and Management, 
Earthscan press, 2014, pp. 135-156.

    [8] R.B. Stone, C.M. Bailey, S.A. McLaughlin, P.M. Mace, M.B. 
Schulze, Federal management of US Atlantic shark fisheries, Fish. Res. 
39 (1998) 215-221.

    [9] J. Fischer, K. Erikstein, B. D'Offay, S. Guggisberg, M. Barone, 
Review of the implementation of the International Plan of Action for 
the Conservation and Management of Sharks, United Nations Food and 
Agriculture Organization Fisheries and Aquaculture Circular, 2012, p. 
1076.

    [10] F. Dent, S. Clarke, State of the Global Market for Shark 
Products, United Nations Food and Agriculture Organization Fisheries 
and Aquaculture, 2015 (Technical Paper 590).
    [11] National Marine Fisheries Service. Amendment 6 to the 2006 
Consolidated Atlantic Highly Migratory Species Fisheries Management 
Plan: Commercial Shark Management Measures, p. 229 <http://
www.fisheries.noaa.gov/sfa/hms/documents/fmp/am6/
final_ea_amendment_6_commercial_shark_management.pdf>.

    [12] United Nations Food and Agriculture Organization (UNFAO). 
International Plan of Action for Conservation and Management of Sharks. 
<http://www.fao.org/ipoa-sharks/background/about-ipoa-sharks/en/>.

    [13] N.K. Dulvy, C.A. Simpfendorfer, L.N.K. Davidson, S.V. Fordham, 
A. Brautigam, G. Sant, D.J. Welch, Challenges and priorities in shark 
and ray conservation, Curr. Biol. 27 (2017) R565-R572.

    [14] C.A. Simpfendorfer, M.R. Heupel, W.T. White, N.K. Dulvy, The 
importance of research and public opinion to conservation management of 
sharks and rays: a synthesis, Mar. Freshw. Res. 62 (2011) 518-527.

    [15] L. Lucifora, V.B. Garcia, B. Worm, Global diversity hotspots 
and conservation priorities for sharks, PLoS One 6 (2011) e19356.

    [16] B. Worm, B. Davis, L. Kettemer, C.A. Ward-Paige, D. Chapman, 
M.R. Heithaus, S.T. Kessel, S.H. Gruber, Global catches, exploitation 
rates, and rebuilding options for sharks, Mar. Policy 40 (2013) 194-
204.

                                 ______
                                 

Bright spots of sustainable shark fishing

Current Biology Magazine

Correspondence

Colin A. Simpfendorfer and Nicholas K. Dulvy

    Sharks, rays and chimeras (class Chondrichthyes; herein `sharks') 
today face possibly the largest crisis of their 420 million year 
history. Tens of millions of sharks are caught and traded 
internationally each year, many populations are overfished to the point 
where global catch peaked in 2003, and a quarter of species have an 
elevated risk of extinction [1-3]. To some, the solution is to simply 
stop taking them from our oceans, or prohibit carriage, sale or trade 
in shark fins [4]. Approaches such as bans and alternative livelihoods 
for fishers (e.g. ecotourism) may play some role in controlling fishing 
mortality but will not solve this crisis because sharks are mostly 
taken as incidental catch and play an important role in food security 
[5-7]. Here, we show that moving to sustainable fishing is a feasible 
solution. In fact, approximately 9% of the current global catch of 
sharks, from at least 33 species with a wide range of life histories, 
is biologically sustainable, although not necessarily sufficiently 
managed.

    Stock assessments were available for a total of 65 populations 
(Supplemental information). A subset of 39 populations (of 33 species) 
met criteria for biological sustainability, including 27 (of 22) 
sharks, nine (of nine) rays, and three (of two) chimeras, representing 
a very small fraction (2.6%) of global shark diversity (n = 1,188). Of 
the populations that met biological sustainability criteria, eight 
populations of five species did not have science-based management 
plans. Stocks that met some or all of the sustainability criteria 
mostly occur in the Exclusive Economic Zones (EEZs) of developed 
countries that have well-developed fisheries management systems (e.g. 
USA, Australia, New Zealand and Canada; Figure 1). However, there are 
some developed nations with good fisheries management capacity (e.g. 
European Union) that have not yet translated this into sustainable 
outcomes for shark populations.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    .epsThe total annual landed catch of the biologically sustainable 
populations was approximately 204,945 tonnes live weight, approximately 
27.0% of the average annual catch of sharks, rays and chimeras reported 
to the United Nations Food and Agriculture Organization (FAO) over the 
past five years (2009-2013) of 759,495 tonnes [7]. However, this figure 
drops to 12.0% (91,460 t) for populations that are both biologically 
sustainable and have a science-based management plan in place. FAO 
capture production statistics underestimate true global take of sharks 
by a factor of 3 or 4 [1]; hence the proportion of biologically 
sustainable take is closer to 9%, and 4% of global shark catch is 
managed for sustainability (Figure 1).
    An alternative method of estimating the current annual catch of 
sharks that is biologically sustainable is to sum the FAO capture 
production figures for species that are categorized as `Least Concern' 
or `Near Threatened' on the IUCN Red List of Threatened Species. 
Assuming these species meet the biological sustainability criterion, 
the average FAO capture production over the last five years of Least 
Concern and Near Threatened species was 212,691 t (28% of FAO capture 
production; Figure 1). Again rescaling to account for underreporting of 
FAO capture production, this figure reduces to 7% of total shark 
catch, similar to the results of stock assessments.
    The prevalent view has been that only the most productive species 
with fast life histories can be managed sustainably [4]. We found that 
some species with relatively low productivity--with the most common 
rmax values between 0.1 and 0.2--can support sustainable fisheries 
(Figure 1). No species with a maximum rate of population increase (rmax 
< 0.1) were identified as sustainable and species capable of achieving 
sustainability were proportionally more common at rmax > 0.3. These 
data suggest that with strong science-based management, most shark 
species have the potential to support sustainable fisheries.
    We highlight five lessons that can help progress sustainability 
across shark fisheries: first, protect those species with the lowest 
biological productivity. Sustainable outcomes have been achieved only 
for species with rmax > 0.1. Species with very low rmax include some 
deep water species (e.g. gulper sharks) and species with very small 
litter sizes (e.g. Cownose Ray, Bigeye Thresher Shark) [8].
    Second, tuna Regional Fisheries Management Organizations (tRFMOs) 
should implement precautionary science-based catch limits on the more 
biologically sustainable high-seas sharks. Some of the largest shark 
catches come under the remit of tRFMOs. While tRFMOs conduct stock 
assessments and have some shark-specific rules, they have yet to 
implement catch limits for blue shark (Atlantic and Pacific Oceans) and 
shortfin mako shark (Atlantic Ocean) despite repeated scientific advice 
that catch levels should be capped.
    Third, international treaties can contribute to sustainable 
international fisheries and trade and prompt fisheries management 
improvements. The Convention on Migratory Species and Convention on 
International Trade in Endangered Species (CITES) are increasingly 
being seen as possible drivers of improved shark management [9]. For 
example, the listing of commercially important shark species on CITES 
in 2013 and 2016 requires that nations demonstrate that products in 
international trade do not threaten the survival of the species in the 
wild. This has required many countries (and tRFMOs) to undertake 
sustainability assessments (i.e. produce Non-Detriment Findings) and 
develop product identification and traceability systems that all 
contribute to improved outcomes for these species.
    Fourth, developed countries have a responsibility to support the 
transition to sustainability in developing countries. Many developed 
countries import, consume or re-export shark products [6]. Hence, as 
developed nations bring their fisheries into sustainability and import 
more fish, they should translate their successes into lessons and 
capacity building for other nations to ensure that they are able to 
move toward sustainability.
    Finally, responsible, traceable shark fisheries can provide 
consumers with the ability to choose and purchase sustainable seafood. 
Traceability has repeatedly and reliably driven sustainability across 
numerous natural resource supply chains [10]. All products from 
sustainably caught sharks and rays could be sold as sustainable, 
including shark fins. At present, the notion of sustainable shark fins 
is unthinkable to many. Yet, today's sustainable (but not necessarily 
managed) shark fisheries yield about 4,406 t of dried fins 
(Supplemental information). This suggests that approximately 8.7% of 
the fins in the global fin trade are from sustainable sources, but not 
yet traceable or labeled. Without labeling fins from sustainable 
sources cannot yet command the price premium that would in-turn 
feedback to drive sustainability back through supply chains.
    Achieving sustainable outcomes for most or all shark populations 
will require tailored diagnosis and management depending on species and 
context, rather than simplified solutions such as outright bans. The 
successes demonstrated here provide a template to guide the expansion 
of fisheries sustainability. The benefits of such change, for both 
biodiversity conservation and human food security, argue for tackling 
the challenge without further delay.
SUPPLEMENTAL INFORMATION
    Supplemental Information including experimental procedures and two 
tables can be found with this article online at http://dx.doi.org/
10.1016/j.cub.2016.12.017.
AUTHOR CONTRIBUTIONS
    C.A.S. and N.K.D. devised the study, gathered data and wrote the 
paper.
ACKNOWLEDGEMENTS
    We thank the MacArthur Foundation, Leonardo DiCaprio Foundation, 
Cathay Pacific, Natural Science and Engineering Research Council 
(Canada) and Canada Research Chairs Program for funding to think about 
the concept of sustainable fishing for sharks and rays. S.A. Pardo 
provided data, S.C. Clarke, S.V. Fordham, and T.H. Curtis provided 
valuable advice. Ray Hilborn and Enric Cortes provided insightful 
comments on the manuscript.
REFERENCES
    1. Clarke, S.C., McAllister, M.K., Milner-Gulland, E.J., Kirkwood, 
G.P., Michielsens, C.G.J., Agnew, D.J., Pikitch, E.K., Nakano, H., and 
Shivji, M.S. (2006). Global estimates of shark catches using trade 
records from commercial markets. Ecol. Lett. 9, 1115-1126.

    2. Davidson, L.N.K., Krawchuk, M.A., and Dulvy, N.K. (2016). Why 
have global shark and ray landings declined: improved management or 
overfishing? Fish Fisheries 17, 438-458.
    3. Dulvy, N.K., Fowler, S.L., Musick, J.A., Cavanagh, R.D., Kyne, 
P.M., Harrison, L.R., Carlson, J.K., Davidson, L.N., Fordham, S.V., 
Francis, M.P., et al. (2014). Extinction risk and conservation of the 
world's sharks and rays. eLife 3, e00590.
    4. Shiffman, D.S. and Hammerschlag, N. (2016). Shark conservation 
and management policy: a review and primer for non-specialists. Anim. 
Conserv. 19, 401-412.
    5. Cisneros-Montemayor, A.M., Barnes-Mauthe, M., Al-Abdulrazzak, 
D., Navarro-Holm, E., and Sumaila, U.R. (2013). Global economic value 
of shark ecotourism: implications for conservation. Oryx 47, 381-388.
    6. Clarke, S.C. and Dent, F. (2015). State of the global market for 
shark products. FAO Fisheries and Aquaculture Technical Paper 590, 1-
187.
    7. Fischer, J., Erikstein, K., D'Offay, B., Guggisberg, S., and 
Barone, M. (2012). Review of the implementation of the International 
Plan of Action for the Conservation and Management of Sharks. FAO 
Fisheries and Aquaculture Circular No. 1076. Rome, FAO. pp. 120.
    8. Pardo, S.A., Kindsvater, H.K., Reynolds, J.D., and Dulvy, N.K. 
(2016). Maximum intrinsic rate of population increase in sharks, rays, 
and chimaeras: the importance of survival to maturity. Canad. J. 
Fisher. Aqua. Sci. 73, 1159-1163.
    9. Vincent, A.C.J., de Mitcheson, Y.J.S., Fowler, S.L., and 
Lieberman, S. (2014). The role of CITES in the conservation of marine 
fishes subject to international trade. Fish Fisheries 15, 563-592.
    10. Sampson, G.S., Sanchirico, J.N., Roheim, C.A., Bush, S.R., 
Taylor, J.E., Allison, E.H., Anderson, J.L., Ban, N.C., Fujita, R., 
Jupiter, S., et al. (2015). Secure sustainable seafood from developing 
countries. Science 348, 504-506.

                                 ______
                                 

    Mr. Lamborn. We will now try to conclude as soon as 
possible. I want to respect all the witnesses who came here, 
and I appreciate your testimony. We do have a 2:30 classified 
hearing on the recent events in Syria. Secretary Mattis will be 
there and members of the intelligence community, and I know 
many Members want to be at that hearing.
    So, on the Republican side, I am going to see if anyone has 
any questions. I don't.
    Representative Webster, would you like to be recognized for 
questions?
    Mr. Webster. I will condense it down; how about that?
    Mr. Lamborn. You are recognized.
    Mr. Webster. Dr. Hueter, shark tourism in Federal waters 
off Florida appears to be doing well, increasing. At the same 
time, Florida fishermen account for the second-highest 
commercial catch of sharks in any state.
    Is it reasonable to conclude that both recreational diving 
for sharks and commercial fishing can co-exist?
    Mr. Hueter. Thank you, Congressman. Absolutely. Yes. Not 
only those two sectors, but also recreational fishing for 
sharks as well. And the recreational fisherman has to do his 
part in terms of helping with sustainability, and that means a 
lot of catch and release with some of these shark fisheries.
    So, yes, a properly managed and balanced system of 
commercial, recreational, and tourism for sharks is actually 
the best thing for the economy.
    Mr. Webster. Great.
    I would like to add, Mote Marine is one of my favorite 
places. I have six kids. During their growing-up years, we made 
many trips there. They especially loved going on the waterway 
and having them scoop up just a bunch of fish and then tell us 
what they all were. But, anyway, thank you for what you do 
there, the many aspects of Mote Marine.
    I yield back.
    Mr. Lamborn. On the Democratic side, Representative Beyer 
is recognized for 5 minutes.
    Mr. Beyer. Mr. Chairman, thank you very much. I just have 
two quick questions, if possible.
    First off, will the Congressman from Florida yield for a 
question?
    Mr. Soto. Yes.
    Mr. Beyer. In your bill, I noticed that Section 1 clarifies 
the Billfish Conservation Act to ensure the exemption provided 
that traditional markets in Hawaii and the Pacific Insular 
Islands would not allow the sale of billfish from these areas 
to mainland United States.
    Doesn't that sync with the fact that those territories and 
Hawaii have already banned the sale of shark fins?
    Mr. Soto. Yes, of course. It would be consistent with 
preventing shark finning. It is just traditional shark and 
billfish fishing that they do and have done for generations in 
their culture.
    Mr. Beyer. But it is completely consistent?
    Mr. Soto. Absolutely.
    Mr. Beyer. That is great. Well, thank you very much.
    And if the Ranking Member would yield for a question?
    Mr. Huffman. I would be honored.
    Mr. Beyer. I understand you were recently on a mission to 
Yellowstone Park to observe keystone predators in their natural 
environment and the impact on the trophic ecological 
environment. It is fair to say that sharks are the gray wolves 
of the ocean?
    Mr. Huffman. They are the gray wolves, the lions, and 
tigers of the sea, and also very slow to reproduce, unlike the 
gray wolf, which is a keystone predator that reproduced, we 
learned on this trip, very quickly. So, sharks are even more 
complicated in that regard.
    Mr. Beyer. Great. Thank you very much.
    Mr. Chairman, I would just offer one more thing. The most 
interesting book I read last year was called ``Why We Sleep,'' 
by a guy named Matthew Walker at Berkeley, who pointed out that 
sharks do, in fact, sleep, unlike the myth, but they sleep one-
half of their brain at a time. One half stays awake, the other 
half sleeps. Because if they totally went to sleep, they would 
stop swimming and they would die, but they have to sleep.
    With that, I yield back, Mr. Chairman.
    Mr. Lamborn. Not that anyone up here is sleeping with half 
their brain and one eye open.
    I want to thank all the witnesses for being here and for 
your valuable testimony. Members of the Subcommittee may have 
additional questions for you, and we would ask that you respond 
to these in writing if you receive them.
    Under Committee Rule 3(o), members of the Committee must 
submit questions to the Clerk within 3 business days following 
the hearing for this purpose, and the hearing record will be 
open for 10 business days for these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 2:28 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today, the Subcommittee meets to consider three fisheries bills. 
First, we will consider, H.R. 1456, the Shark Fin Sales Elimination Act 
of 2017, introduced by our colleague Ed Royce of California; followed 
by H.R. 5248, the Sustainable Shark Fisheries and Trade Act, introduced 
by the Subcommittee Vice Chair Daniel Webster; and finally, we will 
consider H.R. 4528, introduced by our colleague Darren Soto.
    The first two bills we will consider today take very different 
approaches to addressing the heinous practice of shark finning. The act 
of shark finning has been illegal in the United States since the 
passage of the Shark Finning Prohibition Act of 2000, which was further 
strengthened by Congress in 2010 with the passage of the Shark 
Conservation Act.
    These two laws have made the United States a leader in shark 
conservation and management. NOAA's 2015 Coastal Shark Survey saw the 
most tagged sharks in the Survey's 29-year history. Furthermore, while 
stocks seem to be soaring, the United States ranks as one of the top-10 
shark fishing nations. These numbers directly speak to the success of 
U.S. fisheries management and conservation.
    The signing of the 2000 and 2010 laws made it crystal clear where 
Congress and this nation stands on the practice of catching a shark, 
cutting off its fins, and throwing the carcass overboard to die. 
However, while 102 nations have joined us in banning the act of shark 
finning; the practice continues overseas.
    To address the practice of shark finning in foreign nations, we 
have two proposals in front of us today that take very different 
approaches. The first bill we will consider today, the Shark Fin Sales 
Elimination Act, introduced by Congressman Royce, looks to impose 
additional regulations on U.S. fishermen to stem the tide of foreign 
trade of inhumanely obtained shark fins. The other proposal we will 
consider today, the Sustainable Shark Fisheries and Trade Act, 
introduced by Congressman Webster, establishes a traceability program 
modeled after the shrimp import traceability program and seeks to 
leverage access to the U.S. market to encourage foreign nations to 
adopt strong shark conservation measures.
    I want to thank both of our colleagues for their work on this noble 
cause. It is our hope that the two bill sponsors can come together and 
build consensus around a proposal that effectively addresses foreign 
bad actors while preserving our sustainable U.S. industry.
    Finally, we will consider H.R. 4528, introduced by Congressman 
Soto, which makes a technical correction to the Billfish Conservation 
Act of 2012. The Act of 2012 prohibited the sale of billfish, but 
provides an exemption for traditional fisheries markets in Hawaii and 
Pacific Insular Areas. H.R. 4528 clarifies that the exemption for these 
areas allows the sale of billfish caught by U.S. fishing vessels only 
within Hawaii and Pacific Insular Areas.
    I want to thank the bill sponsors that aren't on our Subcommittee 
for being with us today as well as our witnesses. This is an important 
debate and I am glad we are having it here today.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Lamborn Submission

    --NOAA Fisheries, Northeast Fisheries Science Center, 
            Report titled ``2015 Coastal Shark Survey Reveals 
            Shark Populations Improving off U.S. East Coast,'' 
            dated September 8, 2015.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
